<html>
<title> - COMBATING HUMAN TRAFFICKING IN OUR MAJOR CITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                  COMBATING HUMAN TRAFFICKING IN OUR 
                              MAJOR CITIES

=======================================================================

                             FIELD HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2014

                               __________

                           Serial No. 113-57

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-557 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                        Vacancy, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................     4
The Honorable Gene Green, a Representative in Congress From the 
  State of Texas:
  Prepared Statement.............................................    17

                               WITNESSES
                                Panel I

Mr. Brian M. Moskowitz, Houston Special Agent in Charge, 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Steven C. McCraw, Director, Texas Department of Public 
  Safety:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Sheriff Adrian Garcia, Sheriff's Office, Harris County, Texas:
  Oral Statement.................................................    28
  Prepared Statement.............................................    31
Ms. Ann Johnson, Assistant District Attorney, Office of the 
  District Attorney, Harris County, Texas:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Mr. Charles A. McClelland, Jr., Chief, Houston Police Department, 
  Houston, Texas:
  Oral Statement.................................................    44
  Prepared Statement.............................................    45

                                Panel II

Mr. Robert Sanborn, Ed.D., President and CEO, Children at Risk:
  Oral Statement.................................................    61
  Prepared Statement.............................................    63
Dr. Reena Isaac, M.D., Assistant Professor of Pediatrics, Baylor 
  College of Medicine and Attending Physician, Child Abuse 
  Pediatrics Section of the Emergency Department, Texas 
  Children's Hospital:
  Oral Statement.................................................    67
  Prepared Statement.............................................    69
Ms. Cheryl Briggs, Founder and Chief Executive Officer, Mission 
  at Serenity Ranch:
  Oral Statement.................................................    71
  Prepared Statement.............................................    74
Ms. Kathryn Griffin-Townsend, Founder, We've Been There Done That 
  Reentry Program, Harris County Sheriff's Office:
  Oral Statement.................................................    75
  Prepared Statement.............................................    77

                             FOR THE RECORD

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Statement of the Department of Homeland Security...............     6
  Statement of the Department of Justice.........................    10

 
            COMBATING HUMAN TRAFFICKING IN OUR MAJOR CITIES

                              ----------                              


                        Thursday, March 20, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                       Houston, TX.
    The committee met, pursuant to call, at 10:00 a.m., in 
Auditorium Room 116, Roderick R. Paige Education Building, 
College of Education, Texas Southern University, Houston, 
Texas, Hon. Michael T. McCaul [Chairman of the committee] 
presiding.
    Present: Representatives McCaul and Jackson Lee.
    Also present: Representatives Poe, Farenthold, Gene Green 
of Texas, and Al Green of Texas.
    Chairman McCaul. We are proud to be here and also Al Green, 
an alumni of this institution, as well.
    I also want to thank State representative Allen Fletcher. I 
do not know where he is out there. He serves as vice chairman 
of the Homeland Security Committee in the State legislature, 
does a great job, former Houston police officer, and also was 
appointed to the Texas legislature's Joint Committee to Study 
Human Trafficking and has a very keen interest in the subject 
matter. We thank you, sir, for your leadership at the State 
level.
    Last but not least, I cannot go forward without also 
recognizing the queen of Houston, Joanne Herring, who is 
joining us today. It is a real honor to have you.
    [Applause.]
    Chairman McCaul. I could go on and on about her background, 
but I think we all know her so well. Thank you so much for 
being here today.
    So with that, the Committee on Homeland Security will come 
to order.
    The committee is meeting today to examine our Nation's 
efforts to combat human trafficking. I want to thank everybody, 
including the witnesses, for attending this important hearing 
today.
    I appreciate the effort taken on behalf of those involved 
to put this hearing together. This is an official Congressional 
hearing, as opposed to a town hall meeting, and as such, we 
must abide by the rules of the Committee on Homeland Security 
and of the House of Representatives. There are some admonitions 
about applause and that sort of thing, but I think I will skip 
that and move on. But decorum of the committee, obviously, is 
important here today.
    Before I recognize myself for an opening statement, I ask 
unanimous consent that the gentleman from Texas, Mr. Poe; the 
gentleman from Texas, Mr. Farenthold; the gentleman from Texas, 
Mr. Gene Green; and the gentleman from Texas, Mr. Al Green--
this is great to have an all-Texas panel, I got to tell you--be 
permitted to sit on the dais and participate in today's 
hearing. Without objection, so ordered.
    I now recognize myself for an opening statement.
    We are here today in the heart of Houston, a metropolitan 
area of nearly 6 million people. The city has a thriving 
international community, the second-busiest port in the 
country, and this is a major center for commerce, not far from 
the Mexican border. It is known for hosting high-profile 
events, including the upcoming Super Bowl in 2017. Sadly, many 
of the things that make Houston an attractive place to live and 
do business also make it a major hub for the tragic business of 
human trafficking.
    In this city and many other cities across the United 
States, women and children, some not even in their teens, are 
held against their will and forced into prostitution rings. 
Children who should be learning in school, as we sit here, are 
also held captive and forced into manual labor, along with 
their parents, in order to satisfy exorbitant illegal debts to 
traffickers that they can never hope to repay. Some are brought 
into the United States from abroad with the promise of freedom 
and opportunity, only to be forced into modern-day slavery. As 
a father of five children, I cannot imagine that kind of 
situation.
    However, many are American citizens. They live in difficult 
conditions. Some are abandoned or homeless or runaways, and 
they trust the first person who offers them a way out. Often 
this person is a trafficker, a person that is an expert on 
detecting vulnerability and a master at exploitation. Human 
trafficking is emerging in epidemic proportions throughout the 
United States and the world. While victims might not be 
physically imprisoned, they are trapped in deplorable 
conditions through force, fraud, or coercion that can make 
escape seem impossible.
    As the fastest-growing criminal industry, it is generating 
billions of dollars for its perpetrators every day. Hundreds of 
thousands of American children have become victims of human 
trafficking. In Texas, the Office of the Attorney General 
reported that between 2007 and 2012, it identified almost 700 
human trafficking-related incidences, involving almost 800 
victims. Yet, even with stats like these, it still comes as a 
surprise to many people just how prevalent and close to home 
human trafficking has become.
    Today, however, there is hope. One of our witnesses today 
entered the world of sex trafficking at age 12, which is 
utterly amazing and shocking and horrifying. Now decades later, 
she is working to rescue girls in the same situation.
    The Houston area has identified the problem and is making 
great strides towards prevention and eradication of 
trafficking. The Human Trafficking Rescue Alliance was formed 
in 2004 to bring together a range of law enforcement and victim 
service partners that traditionally would not have the 
opportunity to work together. In 2003, Texas was one of the 
leading States to enact a robust State trafficking law and has 
recently formed a task force to combat trafficking and rescue 
and restore those that fall victim to it.
    At the Federal level, the Human Smuggling and Trafficking 
Center serves as a clearinghouse for all information related to 
human smuggling and trafficking. The Department of Homeland 
Security's lead investigative unit is within the Immigration 
and Customs Enforcement. In 2010, DHS formed the Blue Campaign, 
a combined effort to provide enhanced public awareness, 
training, victim assistance, and criminal investigations. DHS, 
the Department of Justice, and the State Department have 
collaborated with Mexican law enforcement counterparts on the 
U.S./Mexico Human Trafficking Bilateral Enforcement Initiative. 
Through this initiative, both governments have developed high-
impact bilateral investigations and prosecutions aimed at 
dismantling international human trafficking networks.
    Despite this collaboration, human trafficking is still far 
too prevalent and requires a coordinated effort from every 
available organization and resource to fight the problem. I am 
proud to cosponsor my friend and colleague, Congressman Ted 
Poe--his one bill, the End Sex Slavery Act, and his second one, 
Justice for Victims of Trafficking Act. These bills will 
address a number of gaps in human trafficking laws and provide 
much needed support to victims.
    I am grateful for the survivors who have bravely agreed to 
share their story here today, and I look forward to hearing 
from our other witnesses on their experiences in combating 
human trafficking. It is my hope that with the help of your 
testimony, we will raise awareness about this issue and 
identify solutions that will have a significant impact on human 
trafficking in Houston and throughout this Nation.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 20, 2014
    We are here today in the heart of Houston; a metropolitan area of 
nearly 6 million people. This city has a thriving international 
community, the second-busiest port in the country, and is a major 
center for commerce not far from the Mexican border. It is known for 
hosting high-profile events including the Super Bowl in 2017. Sadly, 
many of the things that make Houston an attractive place to live and do 
business also make it a major hub for the tragic business of human 
trafficking.
    In this city, and many other cities across the United States, women 
and children, some not even in their teens, are held against their will 
and forced into prostitution rings. Children, who should be learning in 
school as we sit here, are also held captive and forced into manual 
labor along with their parents, in order to satisfy exorbitant illegal 
debts to traffickers that they can never hope to repay. Some are 
brought into the United States from abroad with the promise of freedom 
and opportunity only to be forced into modern-day slavery. As a father 
of five children, I cannot imagine that situation.
    However, many are American citizens. They live in difficult 
conditions--some are abandoned or homeless or runaways--and they trust 
the first person who offers them a way out. Often this person is a 
trafficker, a person that is an expert on detecting vulnerability, and 
a master at exploitation. Human trafficking is emerging in epidemic 
proportions throughout the United States and the world. While victims 
might not be physically imprisoned, they are trapped in deplorable 
conditions through force, fraud, or coercion that can make escape seem 
impossible.
    As the fastest-growing criminal industry, it is generating billions 
of dollars for its perpetrators every year. Hundreds of thousands of 
American children have become victims of human trafficking. In Texas, 
the Office of the Attorney General reported that between 2007 and 2012, 
it identified almost 700 human trafficking-related incidences, 
involving almost 800 victims. Yet even with statistics like these, it 
still comes as a surprise to many people just how prevalent and close 
to home human trafficking has become.
    Today, however, there is hope. One of our witnesses today entered 
the world of sex trafficking at age 12. Now, decades later, she is 
working to rescue girls in the same situation.
    The Houston area has identified the problem and is making great 
strides towards prevention and eradication of trafficking. The Human 
Trafficking Rescue Alliance was formed in 2004 to bring together a 
range of law enforcement and victim service partners that traditionally 
would not have the opportunity to work together. In 2003, Texas was one 
of the leading States to enact a robust State trafficking law and has 
recently formed a task force to combat trafficking and rescue and 
restore those that fall victim to it.
    At the Federal level, the Human Smuggling and Trafficking Center 
serves as a clearinghouse for all information related to human 
smuggling and trafficking. The Department of Homeland Security's lead 
investigative unit is within Immigration and Customs Enforcement. In 
2010, DHS formed the Blue Campaign, a combined effort to provide 
enhanced public awareness, training, victim assistance, and criminal 
investigations. DHS, the Department of Justice, and the State 
Department have collaborated with Mexican law enforcement counterparts 
on the U.S./Mexico Human Trafficking Bilateral Enforcement Initiative. 
Through this initiative, both governments have developed high-impact 
bilateral investigations and prosecutions aimed at dismantling 
international human trafficking networks.
    Despite this collaboration, human trafficking is still far too 
prevalent and requires a coordinated effort from every available 
organization and resource to fight the problem. I am proud to co-
sponsor Congressman Ted Poe's End Sex Slavery Act and his Justice for 
Victims of Trafficking Act. These bills will address a number of gaps 
in human trafficking laws and provide much-needed support to victims.
    I am grateful for the survivors who have bravely agreed to share 
their story, and I look forward to hearing from our other witnesses on 
their experiences in combating human trafficking. It is my hope that 
with the help of your testimony, we will raise awareness about this 
issue and identify solutions that will have a significant impact on 
human trafficking in Houston and throughout the Nation.

    Chairman McCaul. The Chairman now recognizes the acting 
Ranking Member, the gentlelady from Texas, Ms. Jackson Lee, for 
any opening statement she may have.
    Ms. Jackson Lee. Mr. Chairman, thank you for holding 
today's hearing on the issue of human trafficking in our major 
cities and just a brief moment of personal privilege to thank 
Texas Southern University. Dean Holley, thank you, the Dean of 
the Thurgood Marshall School of Law, to the dean of this school 
and to the dean of the School of Education and the dean of the 
School of Public Affairs, Mr. LaRence Snowden, and the 
president, President Rudley, and the regents. Let me thank you 
for the hospitality that you have offered us at a very historic 
institution.
    Might I also thank and welcome again the many witnesses who 
accepted our invitation to be here and for the work we have 
done together.
    Finally, the Chairman has already acknowledged Joanne 
Herring. He did not give her vitae. But all I will say to you 
is that she was on the early front lines of saving boys and 
girls in Afghanistan and in this Nation from the devastation of 
sexual exploitation and exploitation as it relates to their 
human rights. So welcome, Ms. Herring, and your very special 
guests as well.
    I am the Ranking Member of the Border and Maritime Security 
Subcommittee and have studied this issue from the connection in 
the Judiciary Committee to the fact that people traffic across 
borders, and I could not imagine being silent on this issue and 
particularly knowing the front lines that Texas and Texas law 
enforcement and social and civic leaders are involved in this 
issue. Knowing the magnitude of the problem in the State of 
Texas, and the Houston area in particular, I requested this 
hearing shortly after my colleague from Texas became Chairman 
of the Committee on Homeland Security. Again, I thank him. I am 
very pleased that he agreed to my request and that we could 
come together on a bipartisan basis today to convene the 
hearing.
    Again, I also thank the Ranking Member, Mr. Thompson, and 
his staff for their cooperation with the Majority on this 
hearing.
    I also appreciate my other colleagues for joining us, and I 
welcome them to my Congressional----
    [Audio disruption.]
    Ms. Jackson Lee [continuing]. For this particular committee 
being broadcast on the Homeland Security website, and it will 
become a part of the committee's record for the 113th Congress.
    To understand why I believe so strongly that the Committee 
on Homeland Security should hold this hearing in Houston, you 
just have to turn on the news yesterday or pick up today's 
paper. Yesterday morning, law enforcement officials raided a 
stash house in southeast Houston and found more than 100 
people, in fact, 115 people. Nineteen of them are juveniles, 
all presumed to be in the United States without documentation, 
being kept inside in squalid conditions. Although the 
investigation is not complete and there is not a suggestion yet 
of human trafficking, we note that there are 19 juveniles, and 
we do not know the destinations of any of those who have been 
smuggled. What were they here for? What were they intending to 
do? Among the group were a number of women, including at least 
one of whom was pregnant, but we do know a number of children.
    While all the circumstances surrounding this situation are 
not yet known, it is obvious that criminal organizations are 
trafficking or smuggling large groups of people through our 
community, putting their victims' welfare at risk. We see these 
tragic news stories all too frequently in our community. For 
example, a story from January of this year about a notorious 
Port of Houston area cantina that functioned for years as a 
center for human trafficking and prostitution. Or another story 
from earlier this year where a Houston area trafficking ring 
had been bringing people into the country illegally from Mexico 
and Central America and sending them to work at restaurants for 
12 hours a day, 6 hours a day for very little money. Or a story 
from last fall where Federal agents arrested suspects in 
connection with an alleged sex trafficking ring in Houston that 
prostituted underage, undocumented girls from Mexico who were 
locked up and beaten by their traffickers.
    As a large city strategically located near the border, a 
major port and a critical transportation corridor, Houston is 
an attractive target for human trafficking organizations. The 
statistics support this unfortunate fact. For example, 
approximately 25 percent of human trafficking cases in the 
United States are located in Texas and most of those occur in 
Houston. One of our witnesses today will tell of her 
prostitution and how it led her to the introduction to human 
trafficking.
    In recent years, 30 percent of calls received from the 
National Human Trafficking Hotline were out of Texas.
    The U.S. Department of Justice has identified the I-10 
corridor as the No. 1 trafficking route in the United States.
    One of every three runaways in Texas is lured into sex 
trafficking within 48 hours of leaving home.
    Nationally the Federal Government estimates as many as 
17,500 people are trafficked to this country each year, for 
reliable estimates are hard to come by due to the covert nature 
of the crime and under-reporting of victims, which can lead to 
the scourge of modern-day slavery where people are held against 
their will to perform a service. There are likely far more 
individuals being exploited by traffickers in places where they 
cannot be readily identified or counted. Exacerbating this 
problem is the fact that many trafficked victims come from the 
most vulnerable populations, children, women, and the 
undocumented.
    Understanding the scope and seriousness of the human 
trafficking problem in Houston and across Texas and throughout 
the country, the important question remains: How can we fix 
this? Clearly it will take cooperation from all stakeholders to 
address the complex issues involved. Legislators, law 
enforcement officers, health care professionals, victims 
assistance organizations, and advocacy groups all have a vital 
role to play. We have brought together these stakeholders today 
to testify about their current efforts, as well as what more 
needs to be done, to address the scourge of human trafficking. 
And as a senior Member of the Homeland Security Committee, I am 
particularly interested in hearing from the witness from the 
U.S. Immigration and Customs Enforcement, ICE, on his agency's 
efforts to combat human trafficking and what Congress can do 
more.
    I believe Homeland Security should be front and center on 
the front lines of this crucial scourge to eliminate it.
    I thank the Chairman for coming to offer us a frank 
discussion, and as we support and recognize my colleague on the 
Judiciary Committee, Mr. Poe, we work together on this issue 
and his legislation dealing with the criminality of it--I 
believe it is also important to have the Homeland Security 
Committee have its stake and be a stakeholder as well. We are 
drafting, as we speak, an omnibus bill dealing with a number of 
issues to reinforce those front-liners to stop human 
trafficking once and for all in its tracks because as 
Americans, we simply cannot allow human trafficking, a form of 
modern-day slavery, to exist in our country.
    Again, I thank the Chairman for holding today's hearing. It 
is my pleasure to join you and my colleagues. I especially 
thank you for your presence here today.
    I yield back my time.
    Chairman McCaul. I thank the Ranking Member.
    Before I introduce the witnesses, I ask unanimous consent 
that a statement from the Department of Homeland Security's 
Blue Campaign and a statement from the Department of Justice be 
included in the record. Without objection, so ordered.
    [The information follows:]
            Statement of the Department of Homeland Security
                             March 20, 2014
                              introduction
    The Department of Homeland Security (DHS) welcomes and appreciates 
the opportunity to submit this testimony for the record. The men and 
women of DHS are dedicated to combating the heinous crime of human 
trafficking using the programs and authorities provided to us by 
Congress and the President. The Department's Blue Campaign coordinates 
and unites this work.
    DHS recognizes that fighting the hidden crime of human trafficking 
is a collaborative effort. DHS depends on strong partnerships with 
other Federal agencies, foreign governments, international 
organizations, law enforcement, first responders, the faith-based 
community, non-profit organizations, the private sector, as well as our 
State, local, and Tribal counterparts. The President's Interagency Task 
Force to Monitor and Combat Trafficking in Persons (PITF) and the 
Senior Policy Operating Group (SPOG) bring together Federal departments 
and agencies, including DHS, to ensure a whole-of-Government approach 
that addresses all aspects of human trafficking. DHS also co-chairs the 
SPOG victim services working group along with the Department of Justice 
and Health and Human Services, which is responsible for leading 
development of the Federal Strategic Action Plan on Services for 
Victims of Human Trafficking in the United States. We forged additional 
partnerships that unite and amplify our joint efforts. DHS greatly 
appreciates the collaboration and commitment of its partners.
                             blue campaign
    DHS is one of the lead Federal law enforcement agencies responsible 
for investigating and preventing human trafficking. Our investigative 
authority, screening authority, and most of our assistance programs are 
authorized under the Trafficking Victims Protection Act (TVPA) and the 
subsequent reauthorizations.
    DHS and its components work to combat human trafficking every day. 
U.S. Immigration Customs Enforcement (ICE) investigates both 
international and domestic human trafficking cases. U.S. Citizenship 
and Immigration Services (USCIS) and ICE provide immigration relief to 
trafficking victims. The Federal Law Enforcement Training Center 
(FLETC) provides training to law enforcement professionals on how to 
identify indicators of human trafficking and how to conduct human 
trafficking investigations. The Office of Intelligence and Analysis 
(I&A) facilitates training and webinars to State and major urban area 
fusion centers on the signs and indicators of human trafficking and the 
April 18, 2013 Fusion Center protocol for reporting. U.S. Customs and 
Border Protection (CBP) is in a unique position to detect trafficking 
on our borders, as are the U.S. Coast Guard (USCG) on the high seas, 
the Transportation Security Administration (TSA) at airports and mass 
transit facilities, and the Federal Emergency Management Agency (FEMA) 
in disaster areas.
    DHS unites these missions under the Blue Campaign to combat human 
trafficking. Blue is the international color of human trafficking 
awareness, and the Blue Campaign name references the global anti-human 
trafficking symbols of the Blue Heart and the Blue Blindfold, as well 
as the ``thin blue line'' of law enforcement. To increase awareness of 
this crime domestically and internationally, in June 2010, then-
Secretary of Homeland Security Janet Napolitano launched the Blue 
Campaign.
    Before we talk about the Blue Campaign, we would like to share a 
story that demonstrates why DHS cares so deeply about human 
trafficking. When Shyima Hall was 8 years old, her parents sold her 
into slavery. She was smuggled into the United States when she was 10 
years old. She worked as a domestic servant in Orange County, 
California, 16 hour days, scrubbing floors, cooking meals and cleaning 
house. She was rarely allowed outside. She never went to school. She 
never visited a doctor or dentist and did not speak English. When she 
was 13, a concerned neighbor called in a tip to law enforcement and ICE 
opened an investigation. Her captors were prosecuted, imprisoned, and 
then deported. In 2012, Shyima became a U.S. citizen. She is now 23 
years old and has said that her dream is to become an ICE Special 
Agent, in order to help others in similar situations. Shyima's story 
helps us understand the important role the Government can play in 
identifying, investigating, and prosecuting human trafficking. However, 
we only found out about Shyima because a neighbor called in a tip. 
Human trafficking is a hidden crime--and every one of us needs to know 
the indicators to look for.
                         training and outreach
    The Blue Campaign was begun, and continues, with no direct 
appropriations, reflecting a belief that we are all more effective when 
we work collaboratively with our internal and external partners. Early 
in the campaign, we developed training to ensure that those in our 
workforce who encounter potential victims of human trafficking 
understood the indicators of trafficking. We also created specialized 
training for the Federal contractor workforce. Federal regulations 
create a zero tolerance for Government contractors who traffic persons. 
In response, DHS launched specialized training for acquisition officers 
about human trafficking that provides information about penalties for 
traffickers who execute business contracts with the U.S. Government.
    We brought all of our components together to make sure our efforts 
increased identification of and assistance to victims of trafficking. 
As part of their efforts through the Blue Campaign, DHS components 
conduct trainings and webinars, produce informational videos, develop 
informational materials, provide victim assistance, conduct 
investigative efforts, and conduct outreach.
    The Blue Campaign utilizes academic research to shape the focus of 
the campaign. A recent Northeastern University study noted that few 
municipal and county agencies had human trafficking training or 
investigated human trafficking cases. An Urban Institute study found a 
significant lack of awareness among law enforcement and a lack of 
prioritization which resulted in many cases being passed over by State 
and county legal systems.
State and Local Outreach
    We created a specialized training to educate law enforcement 
officers at all levels on the indicators of human trafficking, how they 
can assist victims, and the resources available to them when 
investigating such cases. In addition, we developed training videos for 
State, local, county, Tribal, and territorial law enforcement to create 
awareness that immigration relief options are potentially available to 
foreign victims of human trafficking and how these benefits aid law 
enforcement in achieving successful investigations.
    The Blue Campaign also works with our Federal Government 
colleagues, foreign governments, international organizations, law 
enforcement at all levels, non-governmental organizations (NGOs), the 
faith-based community, the private sector, and the general public to 
share ideas and resources and build a force-multiplying network of 
diverse but complementary parts. Partnerships augment our efforts by 
bringing together diverse experiences, amplifying messages, and 
leveraging resources. Together we can effectively combat human 
trafficking, by making sure that people understand the crime, recognize 
its indicators, and know how to seek help and report tips.
Federal Outreach
    DHS, along with the Departments of Justice and Labor, partnered to 
create an advanced human trafficking training course that brings 
together agents and prosecutors to work on investigating and 
prosecuting these crimes. This interactive course focuses on complex 
issues of human trafficking: Search warrants, witness interviewing 
techniques, immigration relief, evidence gathering, and discovery 
issues.
International Outreach
    We also took new steps to expand our international law enforcement 
engagement. On October 8, 2012, Secretary Napolitano signed an 
agreement with INTERPOL Secretary General Ron Noble to allow INTERPOL 
to place its logo on Blue Campaign materials and distribute them to all 
190 member countries. DHS and INTERPOL will work together to share 
training and awareness materials and best practices, strengthen support 
for victims, increase regional partnerships, and enhance cooperation on 
combating human trafficking.
    The Blue Campaign also utilizes the expertise and feedback from its 
community stakeholders and partners to shape the focus of the 
campaign's efforts. The Blue Campaign meets bi-annually with Federal, 
State, local, Tribal, non-governmental and community organizations, 
emergency management and medical professionals, and private-sector 
partners to receive feedback and guide future initiatives.
Awareness Products
    Many stakeholders emphasized that misconceptions about the nature 
of trafficking exist widely. A common misconception about human 
trafficking is that it only occurs outside the United States, or if it 
does occur domestically the victims are all noncitizens. In order to 
educate the public that human trafficking exists in every country, 
including the United States, the Blue Campaign developed a series of 
posters that depict different forms of human trafficking and produced a 
Public Service Announcement (PSA) titled, ``Out of the Shadows.'' These 
posters and PSA emphasize that victims can be many types of people, 
such as young children, women, men, U.S. citizens, new immigrants, and 
that they come from all socioeconomic groups.
    To address the lack of general awareness and training available for 
non-law enforcement communities and individuals, the Blue Campaign 
collaborated with the Department of State and other Federal agencies to 
create a 15-minute general awareness training to educate the public on 
the indicators of human trafficking and how to report it. DHS also 
developed cards, posters, and pamphlets that list the indicators of 
human trafficking and provide a hotline number to those who need help 
or want to report a suspected trafficking case. These materials are 
available in 17 languages to meet the language access needs identified 
by stakeholders and victim assistance information.
    The stakeholders also identified the need for more specific 
information tailored for their communities that listed the tools and 
resources applicable to their role in fighting human trafficking. The 
Blue Campaign developed hand-out materials with tailored messages for 
NGOs, faith-based organizations, law enforcement, judges and lawyers, 
first responders, and health care professionals to educate about victim 
identification and crime reporting, the case investigation process, and 
available resources for victim support.
    We also recognize that first responders and health care 
professionals are in a unique position to identify victims. We produced 
an informational video to help first responders--including firefighters 
and emergency medical technicians--identify possible victims of human 
trafficking, and created indicator cards and posters geared to those 
professionals. We continue to conduct briefings and webinars at the 
request of local and National medical first responder groups and 
associations.
                              partnerships
    Over the past 3 years, the Blue Campaign developed a variety of 
trainings and materials, and through our partnerships we have been able 
to expand them to new audiences and support the efforts of our 
Government and private-sector partners.
    Most recently, on September 17, 2013, the Blue Campaign announced a 
partnership with Western Union. Western Union agents are in a unique 
position to recognize human trafficking and other illicit activity of 
criminal organizations and businesses that utilize alternative 
financing mechanisms to move and store money. Through this alliance, 
Western Union will provide the Blue Campaign's multilingual training 
and awareness materials to select agent locations in the Southwest 
Border region of the United States and certain other high-risk 
locations. These materials highlight the signs of human trafficking and 
how to accurately report them. Participating agents will also receive 
additional training from Western Union on how to detect a potential 
human trafficking victim and how to involve law enforcement.
    Engaging with all levels of government is a priority for the Blue 
Campaign. The Blue Campaign is pursuing partnerships with National 
associations representing State, local, Tribal and territorial elected 
and appointed officials. In July 2013, DHS entered into a partnership 
agreement with the National Association of Counties (NACo) to promote 
awareness of human trafficking through the Blue Campaign. NACo is the 
only National organization that represents county governments in the 
United States and provides essential services to the Nation's 3,069 
counties. Through this partnership, DHS will deliver webinar training, 
share resources to bring awareness about human trafficking and co-brand 
public awareness materials with both Blue Campaign and NACo logos.
    We partnered with the U.S. Department of Transportation (DOT) to 
enhance awareness and victim identification to the transportation 
industry. DOT adapted the Blue Campaign's awareness training to their 
workforce and in 2012, nearly all 55,000 of its employees have taken 
the course.
    In 2012, DHS, DOT, and Amtrak entered a partnership to train all 
20,000 Amtrak employees and Amtrak Police Department officers to 
identify and recognize indicators of human trafficking, as well as how 
to report suspected cases of human trafficking. We also work with the 
airline industry to think strategically about how it can assist in 
victim identification. CBP, together with DOT launched the Blue 
Lightning Initiative, a training program to educate airline employees 
how to identify human trafficking in airports or during flights and how 
to notify law enforcement. Since the Blue Lightning Initiative rollout, 
five airlines have committed to use the Blue Lightning Initiative: 
Delta, JetBlue, Allegiant, Silver Airways, and North American.
    The initial partnership with DOT led to further collaborations and 
joint partnerships with transportation industries. DHS and DOT provided 
the training to approximately 6,000 State and local law enforcement, 
including investigators at the Federal Motor Carrier Safety 
Administration, on the best ways to detect human trafficking on trucks 
and buses, and these trainings will continue.
    These partnerships and outreach are leading directly to more tips, 
more investigations, and improved services for victims, and will help 
us achieve our ultimate goal of supporting successful prosecutions and 
deterrence.
                   investigations and victim support
    In fiscal year 2012, ICE Homeland Security Investigations (HSI) Tip 
Line (1-866-347-2423) received more human trafficking tips than ever 
before, receiving 588 tips--up from 384 in fiscal year 2011 and 231 in 
fiscal year 2010.
    We investigate hundreds of human trafficking cases each year and 
work with the Department of Justice to ensure cases are successfully 
prosecuted. In fiscal year 2012, ICE HSI investigated more cases with a 
nexus to human trafficking than ever before, resulting in 894 initiated 
cases, 381 convictions, and seized assets of more than $1,000,000. We 
take a victim-centered approach in our investigations and have Victim 
Assistance Specialists across the ICE offices all over the United 
States. In recognition of the needs and unique challenges of 
interviewing trafficked minors and other child and special needs 
victims, DHS expanded its Forensic Interviewing Program to five full-
time Forensic Interview Specialists.
    We have observed an increase in the correlation between human 
trafficking and gang activity. We know that some gang members work 
directly with non-gang trafficking organizations. For example, gang 
members provide ``security'' enforcements at certain brothels.
    Gangs have now added human trafficking to their existing crimes of 
drugs and firearm trafficking. Gangs recruit young girls and compel 
them to commit acts of commercial sex. This has occurred right here in 
Washington, DC. ICE in collaboration with the Northern Virginia Human 
Trafficking Task Force and our Federal partners recently investigated 
and successfully prosecuted cases where MS-13 gang members in 
Washington, DC, Prince George's County, MD, and Alexandria, VA, 
recruited girls as young as 12 near schools, on the street, at house 
parties, and through social media into sex trafficking.
    These joint efforts resulted in a life sentence of a MS-13 gang 
member that sex trafficked a 12-year-old runaway whom he met at a party 
in Prince George's County, Maryland. The 12-year-old runaway asked for 
his help in finding a place to stay, and the very next day he was 
selling her for sex acts in Washington, DC and surrounding counties. 
For 3 months the MS-13 member sexually exploited the victim for money 
every day of the week. The trafficker also admitted to having sex with 
the victim and allowed MS-13 gang members to have sex with her free of 
charge.
    DHS also provides immigration relief to eligible foreign 
trafficking victims, a critical component to ensuring victim 
participation for the successful investigation and prosecution of human 
trafficking cases. There are three forms of immigration relief 
available for victims of human trafficking--Continued Presence, T 
visas, and U visas. DHS has streamlined its training about immigration 
relief for victims to increase awareness among law enforcement 
agencies. These short- and long-term relief options assist law 
enforcement in stabilizing victims so that the victim can begin to 
recover and rebuild his or her life.
    We are proud of what DHS has accomplished, but there is much to do 
still. We are working more every day to expand our partnerships, and we 
interact regularly with our stakeholders for new ideas and new 
innovative ways to combat this crime.
    In closing, we will continue to work hard to develop our 
initiatives to meet the needs of victims, law enforcement, and service 
providers. We are committed to providing quality information, 
trainings, and products that give communities the information they need 
to fight human trafficking.
    We appreciate the opportunity to represent the Blue Campaign and 
DHS before the committee.
                                 ______
                                 
                 Statement of the Department of Justice
                             March 20, 2014
    Thank you for the opportunity to present an overview of the work of 
the Department of Justice (the Department) and its Federal Bureau of 
Investigation (FBI) to combat the scourge of human trafficking. As 
evidenced by the broad spectrum of investigative, prosecutorial, 
training, outreach, victim services, and research efforts by a wide 
array of components, outlined below, the Department is fully committed 
to fighting human trafficking.
    Human trafficking, also known as trafficking in persons or modern-
day slavery, is a crime that strikes at the very heart of the American 
promise: Freedom. Today, in this country, people are bought, sold, and 
exploited like slaves each and every day. They are trapped in lives of 
misery--often beaten, starved, and forced to engage in prostitution or 
to take grueling jobs as migrant, domestic, restaurant, or factory 
workers with little or no pay.
    The most vulnerable among us, including our children, are being 
exploited both on-line and in person. Often targeted because of 
individual vulnerabilities, many have already experienced abusive or 
troubled families, have disabilities, or come from families with very 
limited resources. In the hands of their traffickers, these individuals 
will be subjected to numerous sexual assaults and continued abuse.
    The Department and its partners are working hard to identify and 
support victims and bring their abusers to justice. We provide 
significant resources, training, and technical assistance to our 
Federal, State, local, and Tribal partners.
                       enforcement: investigation
    The FBI's efforts to investigate human trafficking are coordinated 
by the Civil Rights Unit (CRU) and the Violent Crimes Against Children 
Section (VCACS). The CRU investigates forced labor, sex trafficking by 
force, fraud, or coercion and the sexual exploitation of foreign minors 
while the VCACS focuses on the commercial sexual exploitation of 
domestic children under the age of 18. Sex trafficking prosecutions 
involving children do not require proof of the use of force, fraud, or 
coercion.
Innocence Lost National Initiative
    This year marks the tenth anniversary of the FBI's most prominent 
initiative to combat the growing problem of sex trafficking of children 
within the United States. In June 2003, the FBI and the Department's 
Child Exploitation and Obscenity Section (CEOS) joined the National 
Center for Missing and Exploited Children (NCMEC) to launch the 
Innocence Lost National Initiative (ILNI). While it is difficult to 
imagine, the average age of a child targeted for prostitution in the 
United States is between 11 and 14 years old. Once under the control of 
a pimp, the proceeds of the commercial sexual exploitation of the child 
are controlled by the captor, and attempted escapes often result in 
brutal beatings or even death.
    The FBI and its ILNI partners execute Operation Cross Country--a 3-
day Nation-wide enforcement action focusing on underage victims of 
prostitution. Our most recent operation in July 2013--our seventh and 
largest such operation--concluded with the recovery of 105 commercially 
sexually-exploited children and the arrests of 150 pimps and other 
individuals.
    This most recent sweep took place in 76 cities and was carried out 
by the FBI in partnership with local, State, and Federal law 
enforcement agencies and NCMEC. Over 1,300 law enforcement officers 
across the country have been trained through the Protecting Victims of 
Child Prostitution Course at NCMEC, which supports the ILNI.
    Task force operations can begin as local actions, targeting such 
places as truck stops, casinos, street ``tracks,'' and internet 
websites, based on intelligence gathered by officers working in their 
respective jurisdictions. The FBI has developed special teams and 
protocols for prevention and enforcement actions surrounding large-
scale sporting events and other events of National interest. By 
utilizing information obtained through these operations, and by 
building a strong rapport with victims, the FBI often uncovers 
organized efforts to prostitute women and children across many States. 
These investigations can lead to local, State, or Federal charges.
    To date, the ILNI task forces have rescued more than 2,800 
children. Investigations have led to the conviction of more than 1,400 
pimps, madams, and their associates who commercially exploit children 
through prostitution. These convictions have resulted in lengthy 
sentences, including multiple life sentences and the seizure of real 
property, vehicles, and monetary assets.
    In addition to the ILNI, the FBI also coordinates the Violent 
Crimes Against Children International Task Force--a select cadre of 
international law enforcement experts working together to formulate and 
deliver a dynamic global response to crimes against children through 
the establishment and furtherance of strategic partnerships, the 
aggressive engagement of relevant law enforcement, and the extensive 
use of liaison, operational support, and coordination.
    Through this task force we are working closely with our partners 
to: Reduce the vulnerability of children to acts of sexual exploitation 
and abuse which are facilitated through the use of computers; identify 
and rescue child victims; investigate and prosecute sexual predators 
who use the internet and other on-line services to sexually exploit 
children for personal or financial gain; and strengthen the 
capabilities of Federal, State, local, and international law 
enforcement through training programs and investigative assistance.
Trafficking Exploiting Foreign Nationals
    Our CRU investigates trafficking involving foreign nationals, which 
is often aimed at recent migrants and other economically disadvantaged 
individuals, particularly women and children. Preying on the 
vulnerabilities of people seeking a better life, traffickers force 
migrants without documentation or with precarious immigration status to 
work in poor, unsafe conditions where they are exploited for 
prostitution, domestic servitude, migrant farm labor, or toil in 
restaurants and service industry jobs. Compounding the problem, the 
number of migrants subjected to these types of crimes is underreported, 
as many fear deportation or are afraid of retaliation against 
themselves or their families.
    Together with our law enforcement partners at the Department of 
Homeland Security (DHS), as well as the Department of Labor and the 
State Department's Diplomatic Security Service, we are working hard to 
combat trafficking in any form--not only because of the physical and 
psychological toll it takes on individual victims and their families, 
but also the profit generated by this exploitation fuels further 
unlawful migration and organized criminal activity.
    Through our efforts, we work with other local, State, Tribal, and 
Federal law enforcement agencies and National victim-based advocacy 
groups in joint task forces that combine resources and expertise on the 
issue. Today, the FBI participates in over 100 human trafficking task 
forces and working groups around the Nation who work shoulder-to-
shoulder in an effort to combat the exploitation of individuals who 
work in industries, such as agriculture and domestic service, and who 
are forced into prostitution and/or slave labor.
    The FBI's many field offices produce threat assessments to 
determine the nature and extent of human trafficking in their areas of 
jurisdiction. They also aggressively pursue human trafficking 
investigations and develop actionable intelligence. This valuable 
information aids us with future potential cases, and helps us to better 
understand the nature and scope of the problem. And finally, these 
offices are charged with building relationships with civic and 
community groups and non-Governmental organizations that can refer 
cases and provide valuable insights and information.
    FBI CRU's pending human trafficking investigations have increased 
from 167 in 2009 to 459 by the end of fiscal year 2012. Since 2009, our 
investigations in this area have resulted in 480 arrests, 336 
informations and indictments, and 258 convictions.
                        enforcement: prosecution
    The Department's prosecution efforts are led by two specialized 
Units, the Civil Rights Division's Human Trafficking Prosecution Unit, 
and the Criminal Division's Child Exploitation and Obscenity Section, 
which provide subject-matter expertise and partner with our 94 United 
States Attorneys' Offices (USAOs) on prosecutions Nation-wide.
    The Civil Rights Division, through its Criminal Section Human 
Trafficking Prosecution Unit (HTPU), in collaboration with USAOs 
Nation-wide, has principal responsibility for prosecuting forced labor 
and sex trafficking of adults by force, fraud, and coercion, while CEOS 
provides expertise in child exploitation crimes, including child sex 
trafficking, and works in collaboration with USAOs to investigate and 
prosecute cases arising under Federal statutes prohibiting the 
commercial sexual exploitation of children and the extraterritorial 
sexual abuse of children.
    Taken together, USAOs, HTPU, and CEOS initiated a total of 128 
Federal human trafficking prosecutions in fiscal year 2012, charging 
200 defendants. Of these, 162 defendants engaged predominately in sex 
trafficking and 38 engaged predominantly in labor trafficking, although 
several defendants engaged in both. In fiscal year 2012, the Civil 
Rights Division, in coordination with USAOs, initiated 55 prosecutions 
involving forced labor and sex trafficking of adults by force, fraud, 
or coercion. Of these, 34 were predominantly sex trafficking and 21 
were predominantly labor trafficking; several cases involved both. In 
fiscal year 2012, CEOS, in coordination with USAOs, initiated 18 
prosecutions involving the sex trafficking of children and child sex 
tourism.
    During fiscal year 2012, DOJ convicted a total of 138 traffickers 
in cases involving forced labor, sex trafficking of adults, and sex 
trafficking of children. Of these, 105 predominantly involved sex 
trafficking and 33 predominantly involved labor trafficking, although 
some cases involved both.
    The average prison sentence imposed for Federal trafficking crimes 
during fiscal year 2012 was 9 years, and terms imposed ranged from 
probation to life imprisonment. During the reporting period, Federal 
prosecutors secured life sentences against both sex and labor 
traffickers in four cases, including a sentence of life plus 20 years, 
the longest sentence ever imposed in a labor trafficking case.
Civil Rights Division
    Since the Department created the HTPU within the Criminal Section 
of the Civil Rights Division in January 2007, HTPU has played a 
significant role in coordinating the Department's human trafficking 
prosecution programs. HTPU's mission is to focus the Civil Rights 
Division's human trafficking expertise and expand its anti-trafficking 
enforcement program to increase human trafficking investigations and 
prosecutions throughout the Nation. HTPU works to enhance DOJ 
investigation and prosecution of significant human trafficking cases, 
particularly novel, complex, multi-jurisdictional, and multi-agency 
cases and those involving transnational organized crime and financial 
crimes.
    Consistent with increases in trafficking caseloads across the 
Department, in the past 4 fiscal years, from 2009 through 2012, the 
Civil Rights Division and USAOs have brought 94 labor trafficking 
cases, compared to 43 such cases over the previous 4 years, an increase 
of over 118%. This is in addition to the substantial increase in the 
number of adult sex trafficking cases prosecuted by the Civil Rights 
Division and USAOs.
    The HTPU, the Executive Office for U.S. Attorneys (EOUSA) and 
multiple USAOs have continued to lead the six anti-trafficking 
coordination teams (ACTeams) in collaboration with the FBI, DHS, and 
the Department of Labor. Following a competitive, Nation-wide selection 
process, six pilot ACTeams were launched in July 2011 in Los Angeles, 
California; El Paso, Texas; Kansas City, Missouri; Atlanta, Georgia; 
Miami, Florida; and Memphis, Tennessee. Since that time, the ACTeams, 
through enhanced coordination among Federal prosecutors and multiple 
Federal investigative agencies, have developed significant human 
trafficking investigations and prosecutions, including the first multi-
district, multi-defendant combined sex trafficking and forced labor 
case in the Western District of Texas, the first domestic servitude 
prosecution in the Western District of Missouri, and the first Eastern 
European forced labor case initiated in the Northern District of 
Georgia, in addition to numerous other significant investigations and 
prosecutions.
    Of particular interest to this committee, the Department and DHS 
have collaborated with Mexican law enforcement counterparts on the 
U.S./Mexico Human Trafficking Bilateral Enforcement Initiative, which 
has contributed significantly to restoring the rights and dignity of 
human trafficking victims through outreach, interagency coordination, 
international collaboration, and capacity building. Through the 
Initiative, the United States and Mexico have worked as partners to 
bring high-impact prosecutions under both U.S. and Mexican law to more 
effectively dismantle human trafficking networks operating across the 
U.S.-Mexico border, prosecute human traffickers, rescue human 
trafficking victims, and reunite victims with their families. 
Significant bilateral cases have been prosecuted in Atlanta, Georgia; 
Miami, Florida; and New York, New York. To advance the 
interdisciplinary Initiative, the Department and DHS have participated 
in meetings in both the United States and Mexico to ensure that 
simultaneous investigations and prosecutions enhance, rather than 
impede, each other. These efforts have already resulted in three cross-
border collaborative prosecutions, involving defendants who have been 
sentenced in Mexico and the United States to terms of imprisonment of 
up to 37.5 years, and resulting in the vindication of the rights of 
dozens of sex trafficking victims.
    Outreach and training continue to be a large part of the 
Department's efforts to combat human trafficking. HTPU attorneys 
presented numerous in-person trainings as part of the Federal Law 
Enforcement Training Center State and Local Law Enforcement Training 
Symposiums. CRT, FBI, and other Department components joined with the 
Department of State to create an Advanced Human Trafficking 
Investigator course at the FBI Training Academy in Quantico, Virginia, 
for Central American law enforcement officers. The program has trained 
investigators from El Salvador, Guatemala, Nicaragua, and Panama. DOJ, 
DHS, and DOL collaborated to develop and deliver the Advanced Human 
Trafficking Training Program to the ACTeams, bringing Federal agents 
and Federal prosecutors together for an intensive skill-building and 
strategic planning to enhance their anti-trafficking enforcement 
efforts.
Criminal Division
    The CEOS' mission is to protect children from sexual exploitation 
by investigating and prosecuting not only child sex trafficking, but 
also child pornography, and extraterritorial exploitation of children. 
CEOS conducts and participates in training for Federal, State, local, 
and international prosecutors and investigators engaged in efforts to 
enforce Federal child exploitation laws.
    For example, in 2013, CEOS's section chief presented on best 
practices for investigating and prosecuting child sex trafficking cases 
at a human trafficking seminar in Riverside, California, and 
participated in crimes against children training conference hosted by 
the International Centre for Missing and Exploited Children in Vietnam. 
Also within the past year, CEOS attorneys presented at international 
conferences in Taiwan, Mexico, Belgium, and Washington, DC, providing 
training to law enforcement, prosecutors, State officials, judges, and 
subject-matter experts from various disciplines in the areas of child 
sex tourism and trafficking in minors.
    In March 2013, Weylin Rodriguez was sentenced to life plus 5 years 
in prison following his conviction for forcing multiple minor and adult 
victims to engage in prostitution and for various firearms offenses in 
the recruitment of three minor females and two young adults to work in 
prostitution. Rodriguez kidnapped some of his victims, and lured others 
through false pretenses followed by violence. After luring his victims, 
he and two co-conspirators (aka his ``bottom girls''), advertised the 
victims for prostitution on-line, and forced the victims to solicit for 
prostitution on the streets. Rodriguez kept all the money received by 
the victims for the commercial sex acts. To prevent the victims from 
leaving his prostitution ring, Rodriguez inflicted severe physical 
beatings to create an atmosphere of fear. He also threatened the 
victims with guns on numerous occasions, and shot at a customer in 
front of a victim. Rodriguez has several prior convictions involving 
drugs, firearm, as well as a sexual offense against a minor. The case 
was prosecuted jointly by CEOS and the Middle District of Florida.
    In May 2012, James Mozie was sentenced to life imprisonment 
following his conviction in a jury trial of eight counts of child sex 
trafficking, one count of conspiracy to commit the same, and one count 
of production of child pornography. At trial, several juvenile victims 
testified that they either worked or were recruited to work as 
prostitutes for Mozie and his girlfriend, Laschell Harris, from their 
residence in Oakland Park, Florida. When customers arrived at the home, 
they paid a cover charge to the security guard working the front door. 
The females, many of them minors, worked in the house dancing for tips 
and engaging in sexual activity with male customers for money. The 
seven victims, all minors when the offenses occurred, testified that 
Mozie required them to have sex with him as part of their 
``orientation,'' which he explained was his way of ``testing the 
merchandise.'' They also testified that Mozie would take sexually 
explicit pictures of them, which he attached to text messages 
advertising the brothel. Also in 2012, Harris was sentenced to 156 
months imprisonment after pleading guilty to one count of sex 
trafficking, and co-conspirator Willie Rice, who acted as a security 
guard for Mozie, was sentenced to 48 months imprisonment after pleading 
guilty to possessing a handgun while a felon. The case was prosecuted 
jointly by CEOS and the Southern District of Florida.
Executive Office for United States Attorneys
    Consistent with the Consolidated and Further Continuing 
Appropriations Act, 2012, all USAOs established or participate in human 
trafficking task forces (HTTF), and collaborate with private partners 
in several ways. Eighty percent of the HTTFs in which USAOs are 
involved include members from NGOs. Participating private organizations 
include community groups, faith-based organizations, victim advocacy 
groups, academic organizations, medical professionals, and legal aid 
offices. These private organizations provide various forms of 
assistance to the HTTFs, including tips on women and girls who were 
being trafficked, social services for victims, and training in 
conjunction with USAOs.
            public awareness, victim services, and research
Federal Bureau of Investigation
    The Department does more than investigate and prosecute those who 
exploit victims of trafficking. For example, the FBI's Office for 
Victim Assistance, along with victims specialists from the USAOs and/or 
other non-Government victim assistance service providers, work with 
human trafficking victims to advise them of their rights and to ensure 
they get the help they need to address their short-term and long-term 
needs--such as legal and repatriation services, immigration relief, 
housing, employment, education, job training, and child care. Nearly 
400 victims have been provided services as a result of Operation Cross 
Country. With the launch of the Innocence Lost National Initiative, the 
FBI task forces have encountered significant challenges in identifying 
and providing services for these victims. Often with histories of 
poverty, homelessness, and/or exposure to violence and abuse, victims 
may have difficulties reaching out for help or determining who they can 
trust. Juveniles who become involved in sexual trafficking face myriad 
obstacles and enormous needs--including very basic needs such as safe 
housing, subsistence, and schooling--if they are able to leave that 
life. In addition, they may need substance abuse treatment, medical 
treatment for conditions like HIV/AIDS, and mental health services. 
Many face impediments to reuniting with their family of origin, so they 
need help to prepare for independent living.
Executive Office for United States Attorneys
    In order to prevent and increase the reporting of human 
trafficking, the Department's Executive Office for United States 
Attorneys developed a public awareness campaign with the cooperation of 
Polaris Project, a non-Governmental organization dedicated to combating 
human trafficking. The campaign's advertisements targeted ethnic groups 
from countries associated with human trafficking in the United States. 
An advertisement was developed, translated, and placed in selected 
newspapers in 18 cities for a period of 2 to 3 months during the fall 
of 2012. The advertisements defined human trafficking, explained that 
trafficking violates State and Federal laws, and encouraged readers who 
considered themselves to be victims of, or witnesses to, human 
trafficking to call the National Human Trafficking Hotline, which is 
operated by Polaris with a grant from the Federal Government. Polaris 
provided statistics that showed a significant increase in calls to the 
hotline from cities where the ads were placed during the periods of 
time that the ads were running in those cities.
Office of Justice Programs
    In fiscal year 2012, the Department's Bureau of Justice Assistance 
(BJA) and Office for Victims of Crime (OVC) jointly made awards to 
seven task force sites to execute a comprehensive approach to combating 
all forms of trafficking, including sex and labor trafficking of 
foreign nationals and U.S. citizens (male and female, adults and 
minors). BJA made seven awards of up to $500,000 for 24 months to 
support law enforcement agencies (one in each task force site) to 
coordinate the goals, objectives, and activities of the entire task 
force in close collaboration with the local USAO and the task force 
partner victim service organization (one in each task force site) to 
coordinate the provision of a comprehensive array of culturally and 
linguistically appropriate services to all trafficking victims 
identified within the geographic area affected by the task force. OVC 
made seven awards to victim service provider partners who participate 
on the task forces. In total, $6,609,586 was awarded by BJA and OVC.
    In addition to providing direct services, OVC trafficking victim-
service grantees across each grant program work to enhance the 
community's capacity to identify and respond appropriately to victims 
of trafficking. From July 1, 2011 to June 30, 2012, grantees trained 
28,462 professionals, representing schools and educational 
institutions, faith-based organizations and religious institutions, 
victim service providers, civic and business community organizations, 
and State, Tribal, and local law enforcement. The top five topics 
covered by grantees were: The definition of human trafficking; 
identification of human trafficking victims; procedures for reporting 
human trafficking; services available to victims; and legal assistance 
for victims of human trafficking.
    During fiscal year 2012-2013, OVC represented DOJ by serving as a 
co-chair along with DHS and the Department of Health and Human Services 
in the development of the first-ever Federal strategic action plan to 
strengthen services for trafficking victims. After extensive 
interagency collaboration, the co-chairs drafted the plan and released 
it for public comment. Over 300 comments were received and OVC is 
working to incorporate the public's input. The plan is scheduled for 
release in January 2014.
    In order to ascertain the scope and primary methods of perpetration 
of human trafficking, identify effective means of prevention, and 
maximize the impact of available victim services, the National 
Institute of Justice (NIJ) has maintained the most active research 
portfolio on trafficking in the United States, making dozens of 
research awards over the past decade. Recent NIJ awards are tackling 
the toughest questions asked about human trafficking, including 
measuring the prevalence of labor trafficking, exploring the 
perpetration of trafficking and evaluating best practices in service 
provision. For example, an on-going NIJ-funded project focuses 
specifically on one of the most under-studied aspects of human 
trafficking: The relationship between gangs and human trafficking. This 
project will measure the nature and extent of gang involvement in human 
trafficking by gathering data from four sources: Victims who are 
assisted by social service agencies in San Diego County, non-public law 
enforcement incidence and arrest records, persons identified as 
trafficking victims and perpetrators at San Diego middle and high 
schools, and the traffickers themselves.
    For fiscal year 2013, NIJ is funding a study focusing on the 
Somali-American diaspora and its involvement in two transnational 
crimes: Radicalization to violent extremism and trafficking in persons. 
This study will build scientific knowledge on these crimes with an 
emphasis on how transnational issues converge in a context of profound 
community vulnerability and active criminal networks. The co-occurrence 
of radicalization and trafficking in disadvantaged refugee and 
immigrant communities warrants an examination to better understand the 
transnational and convergence issues involved, and how they can inform 
evidence-based community practices.
        efforts to combat trafficking exploiting tribal members
    The challenges the Federal Government faces in developing and 
sustaining effective child welfare and juvenile justice systems and 
providing effective services to juveniles have been studied and 
documented at the Department and in other Federal agencies for decades. 
In April 2013, the Attorney General, acting on a recommendation from 
the Defending Childhood Task Force, called for the formation of the 
American Indian and Alaska Native Children Exposed to Violence Task 
Force (Task Force). In recognition of the unique role the Federal 
Government plays in Indian Country issues, a working group of Federal 
agencies was established as part of the Task Force. The working group 
will complement the objectives of the advisory committee of the Task 
Force, which will consist of non-Federal experts in children's exposure 
to violence. The initial focus of the working group will be actions to 
improve the Federal response to the needs of American Indian and Alaska 
Native children exposed to violence. This vulnerable population has 
been identified as being particularly susceptible to being lured by 
traffickers.
    From July 8, 2013 through July 12, 2013, the Department's Office on 
Violence Against Women (OVW) conducted a site visit to western North 
Dakota meeting with local law enforcement, Tribal leaders, victim 
advocates, the U.S. Attorney for North Dakota, State and Tribal 
coalition leaders, and service providers from both North Dakota and 
Montana. OVW is exploring providing funds to law enforcement and victim 
service providers in western North Dakota and eastern Montana to 
address domestic violence, sexual assault, stalking, and trafficking.
    In fiscal year 2012, BJA solicited proposals to address the issue 
of human trafficking on Tribal lands by developing and providing 
training to build awareness of the existence of human trafficking in 
Indian Country, and providing law enforcement and community 
stakeholders with the tools necessary to begin the process of victim 
identification, rescue and restoration, while providing appropriate 
consequences for perpetrators in a consistently applied manner. BJA 
received four applications through a competitive process and awarded 
$305,000 to the Upper Midwest Community Policing Institute (UMCPI) to 
develop and pilot the training.
    BJA will design and plan the delivery of Human Trafficking Training 
to Tribal Law Enforcement which will begin a pilot phase of training by 
the end of 2013. BJA is planning to seek additional funding to expand 
the number of sites which can be trained moving forward.
    In response to law enforcement concerns about possible human 
trafficking on the Fort Berthold Reservation in western North Dakota, 
the U.S. Attorney's Office for the District of North Dakota (USAO-ND), 
the FBI, and multiple Tribal organizations created a Human Trafficking 
Working Group to address the abuse of women and children through 
prostitution on the Fort Berthold Reservation. The work of this group 
resulted in the April 2012 conviction of a New Town, North Dakota man 
on 16 counts of sex trafficking, sexual abuse, drug trafficking, and 
witness tampering. The facts revealed at trial established that the 
defendant had conspired to distribute marijuana around the Fort 
Berthold Indian Reservation. As part of this conspiracy, the defendant 
recruited minors and young adults to be part of a gang. According to 
testimony at trial, the defendant also used physical force and coercion 
to cause an adult female he had recruited for the gang to engage in 
commercial sex acts on the Fort Berthold Indian Reservation and in 
Williston and Minot. USAO-ND believes that innovative, cooperative 
efforts, like the investigation that led to this conviction, are 
essential to battling organized criminal activity on the reservations.
                               conclusion
    The Department's efforts to combat human trafficking present a 
multi-faceted approach to a multi-faceted problem. As a result, our 
efforts span from investigation to prosecution, and are supplemented by 
an array of investigative, training, outreach, and victim services 
carried out by a wide range of components. Simply put, we are proud of 
the work we do in this area, and look forward to continuing to have a 
leading role in the Government-wide fight against human trafficking.
    We thank you again for the opportunity to submit this statement.

    Chairman McCaul. Members are reminded that additional 
statements may be submitted for the record.
    [The statement of Hon. Gene Green of Texas follows:]
                   Statement of Honorable Gene Green
                             March 20, 2014
    Thank you, Mr. Chairman for holding this hearing today and I would 
like to welcome our panelists for being here.
    Every year, according to the State Department and the Department of 
Justice, between 14- and 17,000 people are trafficked in the United 
States.
    Due to our status as a border State and our extensive 
infrastructure, Texas is a major crossroads in the United States for 
human trafficking and forced labor.
    Men, women, and children are subjected to labor trades and sexual 
violence.
    These human beings live in fear; fear of extreme poverty, fear of 
abuse, and fear of law enforcement.
    Many are those without legal status and are terrified to seek help 
from local, State, and National organizations.
    We must work to protect at-risk individuals and create safer 
neighborhoods and communities in Texas and across the United States.
    Living a shadowy existence between violence and deportation is the 
result of abuse and exploitation by traffickers and a dysfunctional 
immigration system by the U.S. Government.
    Every year, the number of individuals applying for U and T visas 
increases, therefore we must expand self-petitions and access to visas 
in an effort to reduce crime and trafficking and offer people a way out 
of this vicious cycle.
    A broken immigration system is the best tool available to a would-
be trafficker.
    A trafficker can promise jobs, educational opportunities, in short 
a better life, without fear of reprisal.
    Under the threat of harm and punishment, the victims have no 
recourse.
    It has been stated that our system must include prosecution, 
protection, and prevention.
    We, in Congress, must work to shine a light on these criminal 
practices and enterprises and offer trapped individuals a path towards 
freedom and salvation.
    I thank you for the opportunity to speak and look forward to 
hearing from our witnesses.

    Chairman McCaul. We are pleased to have two panels of very 
distinguished witnesses before us today on this important 
topic.
    Our first witness is Brian Moskowitz, the special agent in 
charge of Homeland Security Investigations in Houston, Texas, a 
position he has held since November 2012. In this capacity, Mr. 
Moskowitz is responsible for investigating efforts under the 
jurisdiction of the U.S. Immigration and Customs Enforcement in 
southeast Texas.
    Mr. Steven McCraw is the director of the Texas Department 
of Public Safety, a position he assumed in August 2009. Prior 
to his service, he served over 20 years in the Federal Bureau 
of Investigations, at which time I was honored to serve with 
him in the U.S. Attorney's Office. It is great to have you here 
today, sir.
    Sheriff Adrian Garcia, elected sheriff of Harris County, 
Texas, in 2008, became an officer with the Houston Police 
Department in 1980. During his 23-year career with HPD, he 
investigated violent crimes, developed community policing 
initiatives, and worked to strengthen the relationship between 
residents and law enforcement. Thank you, sir, for being here.
    Ms. Ann Johnson, prosecutor with the Harris County DA's 
Office, where she specializes in human trafficking, protecting 
victims, and prosecuting traffickers. During her time in 
private practice, she represented citizens with civil, 
criminal, and juvenile matters, appealed cases to the First and 
Fourteenth Courts of Appeals and the Texas Supreme Court, 
including the landmark case of In re: B.W., which created a 
framework for protecting child victims of exploitations and 
human trafficking. Thank you for being here today as well.
    Last but not least, Chief Charles McClelland was sworn in 
as chief of the Houston Police Department on April 14, 2010. He 
served over 35 years at the Houston Police Department, joining 
the department as a patrol officer in 1977 and rising through 
the ranks to his current position as chief of police. His 
management experience has touched virtually every aspect of law 
enforcement throughout his career with the Houston Police 
Department. We are very proud to have you here today, sir, as 
well.
    The witnesses' full written statements will appear in the 
record.
    The Chairman now recognizes Mr. Moskowitz for 5 minutes.

   STATEMENT OF BRIAN M. MOSKOWITZ, HOUSTON SPECIAL AGENT IN 
CHARGE, IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Moskowitz. Good morning, Chairman McCaul, Ranking 
Member Jackson Lee, and distinguished Members of the Texas 
delegation. Good morning. It is an honor to be able to 
represent the Houston office at HSI, which is the investigative 
arm of ICE, and to do so alongside some of our closest law 
enforcement partners.
    The subject of today's hearing is ``Combating Human 
Trafficking in our Major Cities,'' and I thank the committee 
for holding it here in Houston to help shine a light on a 
problem that thrives in the shadows but is often hidden in 
plain sight. The reality is that hiding in plain sight is much 
easier in the midst of a bustling major metropolitan area, 
especially one that is an international transportation hub with 
a large and diverse population, only a few hundred miles from 
the border.
    Now, this hearing is about the crime of human trafficking, 
but I think it is important to note the distinction between 
this crime and another similar-sounding but very different one, 
human smuggling. This is especially relevant in light of the 
news from yesterday. Unfortunately, the public, the media, and 
even law enforcement often use the terms as synonyms, but under 
Federal law they are not interchangeable. They are separate 
Federal crimes with very different elements.
    At its core, human trafficking is a crime against a person. 
It is about the exploitation of that person by another, usually 
through force, fraud, or coercion in either the commercial sex 
trade or as some form of labor. True human trafficking cases 
are often difficult to uncover and even more difficult to 
prosecute for a variety of reasons.
    The crime of human smuggling is a crime against the United 
States, and it generally involves the illegal movement of 
people across our borders and/or through the interior of our 
country. It is one of the most prevalent crimes HSI deals with 
in our part of Texas, and we have no lack of cases.
    HSI has developed a comprehensive investigative strategy to 
attack human trafficking that involves outreach coordination 
and coalition building. We conduct outreach and provide 
training to Federal, State, local, and international partners, 
as well as to NGO's in the private sector, regarding the 
identification and investigation of human trafficking. For 
example, here in Houston, HSI provided human trafficking 
training to over 2,100 State and local law enforcement officers 
in order to help them meet the training requirements of the 
State's trafficking law. We also trained front-line USCIS 
officers so they could help identify potential trafficking 
victims in the course of their day-to-day duties.
    While human trafficking is a global problem, most incidents 
that occur in the United States are strictly domestic in 
nature. However, there still is a large number of cases that 
involve foreign nationals, and in our area of the country, many 
of those have a nexus to Mexico.
    That is why just 2 weeks ago, I went to Mexico City for a 
series of meetings with officials from the Mexican Federal 
Police, the Mexican Attorney General's Office, and a leading 
Mexican NGO. I called for these meetings to see what more our 
two countries could do against traffickers exploiting our 
shared border. These meetings were facilitated by the HSI 
Attache's Office in Mexico and HSI's global footprint is a huge 
asset not only in our ability to combat human trafficking, but 
also in our efforts in fighting the hundreds of other Federal 
crimes that HSI enforces. There have already been benefits from 
these meetings, including the sharing of intelligence and 
suspect information, and I expect to host some of these 
officials up here in Houston in the future.
    Given the scope of the problem, no one country, let alone 
no one agency, can adequately address this issue on its own. It 
requires partnerships and coordinated efforts both inside and 
outside of Government to develop, lead, share information, work 
jointly on investigations, and provide assistance to victims of 
all ages.
    Last year, I created a dedicated human trafficking group to 
focus on this issue. Our group is one of the primary law 
enforcement agency partners in a multi-agency effort 
coordinated by the U.S. Attorney's Office called the Houston 
Trafficking and Rescue Alliance, or HTRA. The HTRA consists of 
over 40 participating agencies and community organizations with 
investigative training, outreach, and victim service 
components. Within the HTRA model, HSI special agents primarily 
focus on trafficking investigations with an international 
nexus. We also work outside the HTRA with other partner 
agencies, but we always de-conflict our cases to ensure that we 
are not duplicating efforts.
    Our Houston-based human trafficking group, which currently 
has 19 open trafficking investigations in the metropolitan 
area, is focusing its efforts on entities or areas susceptible 
to exploitation by traffickers, including ethnic massage 
parlors, cantinas, and domestic workers. We refer cases to 
either the U.S. Attorney or to the appropriate district 
attorney's office depending on the facts of the case. For 
instance, we work many of our spa-related cases with the Harris 
County District Attorney's Office and ADA Johnson.
    While not unique to human trafficking groups, we have over 
40 State and local officers, including those from DPS, the 
Harris County Sheriff's Office, and the Houston Police 
Department that have cross-designated as Customs Officers under 
Federal law and embedded within our various investigative 
groups. These valued task force officers have full access to 
our resources and information, and their collocation helps 
facilitate interagency sharing and cooperation and leverages 
expertise, authorities, and resources.
    In addition to the direct efforts of our human trafficking 
group, I believe that we also impact the trafficking problem by 
doing the things we normally do in the course of our other 
investigations. For example, there is little doubt that the 
significant volume of alien smuggling cases that we investigate 
has disrupted those who smuggle people for trafficking 
purposes. The same goes for our worksite enforcement, money 
laundering, and document and immigration benefit fraud cases. 
Unfortunately, due to the hidden nature of the crime, we simply 
may never know or be able to prove the extent of the impact 
that we have had.
    Our approach to human trafficking crimes, as well as others 
like child exploitation crimes, is victim-centric, and HSI's 
National Victim Assistance Program is crucial to this effort. 
Locally our trained victim assistance specialists not only 
assist victims after the fact, but she is also involved with 
our agents in pre-operational planning to help anticipate and 
address the needs of potential victims in advance of their 
discovery.
    Sadly, human trafficking in one form or another has been 
around for ages. It is a crime about power over others. It is 
driven by greed and the dark side of the human condition. While 
I think it is naive to think we can eliminate it, we absolutely 
can lessen its impact and its reach. We can help educate those 
who may fall prey to its grasp and bring the full weight of the 
law down on those who pursue it. We can help rescue those 
victims we find and encourage others to come forward out of the 
shadows.
    Thank you again for the opportunity to appear before you 
today. I would be pleased to answer any questions.
    [The prepared statement of Mr. Moskowitz follows:]
                Prepared Statement of Brian M. Moskowitz
                             March 20, 2014
                              introduction
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee: Thank you for the opportunity to appear before you 
today to discuss U.S. Immigration and Customs Enforcement's (ICE's) 
comprehensive efforts to combat human traffickers who exploit men, 
women, and children, and to share with you our efforts in this fight 
against a form of modern-day slavery. I am proud to lead ICE's Homeland 
Security Investigations (HSI) office here in Houston, which has a 
significant role in investigating human trafficking crimes and bringing 
perpetrators of these human rights abuses to justice.
    DHS is one of the lead Federal law enforcement agencies responsible 
for investigating and preventing human trafficking. Our investigative 
authority, screening authority, and most of our assistance programs are 
authorized under the Trafficking Victims Protection Act (TVPA) and the 
subsequent reauthorizations. The men and women of DHS are dedicated to 
combating the heinous crime of human trafficking using the programs and 
authorities provided to us by Congress and the President. The Blue 
Campaign coordinates and unites this work.
    The Blue Campaign works with our Federal Government colleagues, 
foreign governments, international organizations, law enforcement at 
all levels, non-governmental organizations (NGOs), the faith-based 
community, the private sector, and the general public to share ideas 
and resources and build a force-multiplying network of diverse but 
complementary parts. Partnerships augment our efforts by bringing 
together diverse experiences, amplifying messages, and leveraging 
resources. Together, we can effectively combat human trafficking by 
making sure that people understand the crime, recognize its indicators, 
and know how to seek help and report tips.
                 the global scope of human trafficking
    Human trafficking takes on countless hidden forms of exploitation. 
Trafficking is not limited to urban high-crime areas, but is also found 
in rural agricultural sectors as well as in private homes in affluent 
neighborhoods. We know that adult men and women are victimized, along 
with children, and that U.S. citizens are not immune to the actions of 
traffickers. Traffickers prey on vulnerable populations who have little 
or no safety net. Men, women, and children are trafficked into forced 
labor, domestic servitude, and commercial sexual exploitation in the 
United States and throughout the world. Many of these victims are lured 
from their homes with false promises of legitimate employment, and then 
forced or coerced into involuntary servitude, migrant farming, 
sweatshops, and other exploitative labor in addition to the commercial 
sex industry.
    ICE makes every effort to not only find and rescue victims, but to 
target and cripple the financial infrastructure and illicit proceeds 
that allow human trafficking organizations to perpetuate their 
exploitation. ICE utilizes all of its authorities and resources in a 
cohesive global enforcement response in order to dismantle the global 
criminal infrastructure engaged in human trafficking. ICE has developed 
a comprehensive strategy to combat these criminal organizations through 
coordination with NGOs and law enforcement, both domestically and 
abroad, to identify and provide services to trafficking victims and 
coordinate investigations.
    Given the international scope of human trafficking, ICE utilizes 
its strong international relationships through over 75 offices overseas 
located in 48 countries to identify and pursue criminal organizations. 
In order to fully address the transnational scope of these 
organizations, ICE investigations begin in the source countries where 
trafficking begins, continues into transit countries, and concludes in 
the destination countries.
           strategic approach to combating human trafficking
    To enhance our investigative capability, target human traffickers 
globally, and rescue victims, HSI has developed a comprehensive 
strategy, known as the ICE Trafficking in Persons Strategy (ICE TIPS), 
which embraces a victim-centered approach. The primary components of 
this strategy are outreach, coordination, and coalition-building.
  <bullet> Outreach--HSI domestic and attache offices conduct outreach 
        and provide training to Federal, State, local, and foreign 
        partners, and non-governmental organizations (NGOs) regarding: 
        (1) Victim services, including short-term immigration relief 
        for victims of trafficking; (2) HSI's expertise and role in 
        human trafficking investigations; and (3) ICE's leading role in 
        combating human trafficking. International outreach efforts 
        focus on building awareness and increasing host governments' 
        efforts to combat human trafficking at source and transit 
        countries.
  <bullet> Coordination--No one entity alone can adequately address the 
        problems presented by human trafficking. ICE recognizes that 
        the most effective approach to combating human trafficking 
        involves a collaborative partnership and coordination with law 
        enforcement agencies, NGOs, and private industry. ICE proudly 
        partners with these organizations to develop leads, share 
        information, and work jointly on human trafficking 
        investigations.
  <bullet> Coalition Building--HSI develops and builds on existing 
        partnerships with foreign governments, law enforcement, and 
        NGOs to form long-term strategic relationships that foster 
        collaboration in human trafficking investigations. ICE 
        participates in the Department of Justice (DOJ)-funded Human 
        Trafficking Task Forces (HTTFs) throughout the United States to 
        help unite the investigative abilities of law enforcement with 
        victim services agencies in order to provide a coordinated 
        response during trafficking investigations and victim rescues. 
        The HTTFs ensure that the requirements of law enforcement are 
        balanced against the needs of the victims discovered during the 
        course of investigations.
                        adding to these efforts
    HSI helped form a new Federal human trafficking initiative in 2011 
called Anti-Trafficking Coordination Teams (ACTeams) as part of a 
Nation-wide Human Trafficking Enhanced Enforcement Initiative designed 
to streamline Federal criminal investigations and prosecutions of human 
trafficking offenses. ACTeams bring together Federal law enforcement 
personnel from ICE, the DOJ's Federal Bureau of Investigation (FBI), 
the Department of Labor (DOL) Wage and Hour Division, and DOL's Office 
of the Inspector General, with Federal prosecutors from United States 
Attorney's Offices and DOJ to develop significant Federal human 
trafficking investigations and prosecutions.
                     the victims assistance program
    ICE is fully committed to victim-centered investigations and 
believes victims can be effective, reliable witnesses for successful 
prosecutions. The victim's testimony provides strong evidence in a 
criminal prosecution, and victims must be treated with respect and 
dignity. HSI's Victim Assistance Program (VAP) provides a critical 
resource to HSI investigations and the ensuing criminal prosecutions by 
safeguarding victims' rights and ensuring access to the services to 
which they are entitled by law, as well as providing the assistance 
they need so that they can participate actively and fully in the 
criminal justice system process.
    The VAP Victim Assistance Specialists support HSI's approximately 
6,500 special agents and train them on victims' rights, immigration 
relief for foreign national victims, human trafficking, child 
exploitation, forensic interviewing, and other victim issues. Victim 
Assistance Specialists also assist victims with resources and service 
referrals for Federal, State, and local crime victim services, as well 
as referrals to non-governmental and community-based victim service 
providers. In addition, these specialists support requests and 
disbursements of funding for urgent, short-term victim needs. They 
provide on-site victim assistance and operational planning in complex 
cases involving large numbers of rescued victims, as well as 
coordination and assistance in cases in which foreign victims are 
brought to the United States to testify. In addition to assistance for 
victims, another service provided by HSI's VAP is the Victim 
Notification Program and hotline, which provides for those prior 
victims who register notifications of the release from incarceration or 
removal of criminal alien offenders.
    Along with the Victim Assistance Specialists, VAP has four Forensic 
Interview Specialists (FIS) to conduct legally defensible, victim-
sensitive, fact-finding, forensic interviews, which are developmentally 
appropriate and take into account the victim's age, language skills, 
mental health, and learning capacity. The VAP FISs also assist with 
case coordination, operational planning, and case review both 
domestically and abroad.
                            making an impact
    Over the past 5 years, ICE has more than doubled the number of 
human trafficking investigations initiated world-wide. In fiscal year 
2013, ICE opened over 1,000 investigations with a nexus to human 
trafficking that resulted in over 1,800 criminal arrests, the largest 
numbers of human trafficking cases and criminal arrests ever recorded.
    For example, on February 15, 2011, HSI Detroit initiated an 
investigation after receiving information from local law enforcement 
and school authorities indicating that a suspect was trafficking four 
minor children from Togo for forced labor. The investigation revealed 
that the suspect had petitioned under his asylum application claiming 
the children were his own, however, investigators discovered that he 
was not the true father of the children and that he had supplied 
fraudulent birth certificates in support of their immigration petition. 
The children stated that they were forced to work in the house, 
complete all household duties, and care for the suspect's daily needs; 
and if these duties were not completed, food was withheld or the 
children were beaten and punished in various ways. HSI Detroit worked 
with Child Protective Services to ensure that all of the victims' needs 
were being met. The children were also referred to the University of 
Michigan Human Trafficking Clinic, which provided them with legal 
services and assistance with receiving their T-visas. HSI arrested the 
suspect on May 3, 2011, for five violations including human 
trafficking. The suspect later pleaded guilty to the visa fraud, mail 
fraud, and harboring aliens and was found guilty on four counts of 
forced labor following a Federal jury trial in the Eastern District of 
Michigan. On March 25, 2013, he was sentenced to 135 months 
imprisonment and ordered to pay $134,000 in restitution to the victims.
    In January 2012, HSI Sioux Falls, South Dakota, conducted an 
investigation into the sex trafficking of minor females in the Sioux 
Falls metro area. HSI agents worked jointly with Federal and local law 
enforcement partners to identify several individuals with gang ties who 
were prostituting numerous women, including minors. The investigation 
revealed that these individuals were involved in other criminal 
activities including money laundering, narcotics, and weapons 
smuggling. The investigation identified two minor female victims and 
one adult female victim who traffickers lured into their control and 
exploited for commercial sex acts. A successful sting operation led to 
the rescue of the girls and the arrest of their traffickers. One victim 
was assaulted repeatedly over the course of 8 months and forced to 
perform commercial sex acts in South Dakota, Iowa, Wisconsin, and 
Illinois. As a result of this investigation, four suspects were 
arrested and charged with Sex Trafficking of Children or by Force, 
Fraud, or Coercion, in violation of 18 U.S.C.  1591. The main suspect 
was found guilty by a jury and sentenced to three life sentences for 
Sex Trafficking by Force, Fraud, or Coercion, and Sex Trafficking of a 
Child. He was also sentenced to 20 years for Interstate Transportation 
for Prostitution. Two of the remaining suspects were found guilty and 
also sentenced; one to 30 years, and one to 33\1/2\ years. The final 
suspect is still awaiting sentencing.
      immigration relief for foreign victims of human trafficking
    DHS has streamlined its training about immigration relief for 
victims to increase awareness among law enforcement agencies. These 
short- and long-term relief options assist law enforcement in 
stabilizing victims so that the victim can begin to recover and rebuild 
his or her life. Victims of trafficking who are non-U.S. citizens can 
receive immigration relief from ICE and U.S. Citizenship and 
Immigration Services (USCIS). ICE can provide a short-term immigration 
relief known as ``Continued Presence,'' which assists certified victims 
of trafficking to remain in the United States temporarily, and USCIS 
can provide immigration relief through the T (Victims of Human 
Trafficking) and U (Victims of Criminal Activity) visas. USCIS 
adjudicates applications for non-immigrant status related to an 
individual's certification as a victim of a severe form of trafficking. 
This non-immigrant status provides longer-term forms of relief for 
trafficking victims.
                               conclusion
    ICE remains committed to utilizing its authorities and resources to 
combat human trafficking and identify and rescue the victims of this 
horrific crime. We will build upon the successes of our outreach and 
victim-centered approach, and share our lessons learned and expertise 
to expand the global fight against this horrific crime. We will 
continue to dismantle and disrupt the criminal organizations engaged in 
human trafficking until we end the threat that human trafficking poses.
    Thank you again for the opportunity to appear before you today and 
for your continued support of ICE and its law enforcement mission. I 
would be pleased to answer any questions.

    Chairman McCaul. Thank you, Brian.
    The Chairman now recognizes Mr. McCraw for 5 minutes.

 STATEMENT OF STEVEN C. MC CRAW, DIRECTOR, TEXAS DEPARTMENT OF 
                         PUBLIC SAFETY

    Mr. McCraw. Mr. Chairman, Congresswoman Jackson Lee, since 
I am going to submit my written testimony, I am just going to 
ignore it and talk a little bit about what my friend over here 
said.
    First of all, ICE does a great job. HSI does a very good 
job, an outstanding job in terms of working, collaborating. We 
have people assigned to their task force. The same thing with 
the sheriff. The same thing with the chief. In Houston, we are 
very proud of the way that the law enforcement community works 
together seamlessly whether it is attacking gangs or cartels 
and certainly human trafficking.
    I would like to say this, just to start, the point about 
trafficking versus smuggling. It is increasingly more difficult 
to tell the difference between the two. When the business model 
for the smuggler/trafficker is to ransom and rape its victims 
and hold them hostage for 3 days, for a clear purpose, to get 
more money out of them, it is hard to say that they are not 
victims or they are not being exploited. Yet, they came under 
the guise of being smuggled across, and certainly that was the 
first leg of it. We are seeing it. Six months ago, we had a 
trooper come across a house that was full of individuals. One 
escaped. By the time he went there, they had been kept for 3 
days without food and water. There had been two females that 
had been molested and sexually assaulted. Several had been 
ransomed back to family members. This happens all the time. So 
from our standpoint, we consider that a serious crime in the 
vein of human trafficking.
    As it relates to the smuggling piece, just to look in terms 
of what SAC Moskowitz has talked about is that what we are 
seeing in Texas right now over the last year--in fact, since 
2011--we have seen an increase of 94 percent of illegal aliens 
coming in that have been arrested. That is a substantial 
amount. In fact, the number is over 243,000. Disturbingly is 
that the unaccompanied children--and some of them were rescued 
yesterday or rescued by ICE this week. There were over 28,000, 
about a 221 percent increase in unaccompanied children coming 
into that have been detained, detected in the State of Texas. 
That is problematic because they are also the most likely to be 
victimized. We know there is a demand for child sex, one of the 
most despicable crimes that you can imagine. In fact, the proof 
that the depravity of man has no limits is the sexual 
exploitation of children.
    We have investigations with ICE. We have it with the FBI 
and others, with the sheriff's department, with the police 
department. We can demonstrate that they are illegal aliens 
being recruited, being lured into our major cities, but not 
just our major cities, and then converted and forced into, 
beaten into sex trafficking.
    At the same point in time, we are mindful that there is 
also a constituency out there that is being preyed upon, and 
the Congresswoman made a good point of that, and that happens 
to be missing and exploited children. In Texas, that is over 
440,000 missing children that are minors, up to 17 years old. 
In the Nation, it is over 440,000 right now that are missing 
and exploited children. We have seen it in some of the 
prostitution cases. We have talked to them. We have worked with 
other agencies--is that they do lure. As soon as they are gone, 
the Congresswoman talked about within 48 hours they are 
targets. They do have a way, and they are using social media to 
attract them. Once they do get them, they are beaten, starved, 
raped, tortured into this life.
    Crime has changed so much. In fact, it is more transitory. 
It is transnational. It is certainly more organized, and it is 
more covert than we have had to deal with in the past. So it is 
that veil of secrecy that it operates in that was mentioned 
earlier.
    Of course, how do you detect this? How do you do it? I 
agree that the approach that ICE has taken and HSI has taken 
and certainly the district attorney's office here has taken, 
the enterprise approach, going after the command and control of 
sex traffickers is an excellent way of doing it. We certainly 
participate in their task forces.
    But you also have to have an opportunity. We have 
recognized that sometimes the only hope for a child to be 
rescued from sex trafficking is by an informed and educated 
patrol officer on the street that comes in contact and through 
a series of questions is able to detect them and rescue them. 
For years, we were unable to use the patrol technique in 
interdiction to identify them.
    But we started an interdiction and protection of children's 
program and we have trained over 7,000 police officers and 
troopers State-wide and Nationally. The whole point is that in 
2012 we were able to rescue 29 females that were forced into 
prostitution, and in 2013, 39. The point is it is not just DPS 
State troopers doing that, but it is the patrol officers. Every 
patrol officer needs to be involved in the business of human 
trafficking and recognizing these things. So it is one of the 
things that we are doing with our counterparts in terms of 
looking at it.
    But I can tell you this: It is going to take a 
multidisciplinary approach. It is going to have to be 
aggressive. Because it is hidden, because you do not see it on 
statistical accomplishments, you do not see it in the uniform 
crime reports, this is not an index crime. Human trafficking is 
not there. It is always under-reported by victims. They do not 
come forward. They are afraid whether they are here as 
undocumented aliens or whether they are here and otherwise have 
been wrapped up in this industry. So it is important that we 
aggressively pursue this. We are committed to working with our 
Federal partners and certainly our local professionals in doing 
so.
    With that, I will entertain any questions or pass the mic 
off to the high sheriff.
    [The prepared statement of Mr. McCraw follows:]
                 Prepared Statement of Steven C. McCraw
                             March 20, 2014
    Chairman McCaul and Members of this committee: Thank you for the 
opportunity to testify before you today on a matter of utmost 
importance to the State of Texas and the Nation. Human trafficking is 
not only a crime; it is evil. And the pervasive sex trafficking of 
children is proof that the depravity of man has no limits.
    Every day sex traffickers entice, deceive, threaten, beat, 
imprison, rape, and force children and adults into the commercial sex 
industry, which is the most prevalent form of human trafficking in 
Texas and the Nation. These despicable criminals use a variety of ways 
to recruit their victims, including social media. We have discovered 
that the younger the child is, the greater the profit in this industry, 
and according to one academic study, on average, female sex trafficking 
victims are first victimized between 12 to 14 years of age.
    Labor trafficking is even more difficult to detect than sex 
trafficking and exists primarily in our immigrant communities. Its 
victims include both legal and illegal immigrants, who are often 
isolated, threatened, beaten, and forced to pay off unending debt.
    Human trafficking is hidden under a veil of underreporting. I can 
tell you how many vehicles were stolen in the cites of Houston, Dallas, 
and San Antonio; but no one can tell you how many times children were 
prostituted on the streets of these cities. Under severe duress, these 
victims seldom report, and when they do, it is not reflected in the 
Uniform Crime Reporting (UCR) index crime statistics.
    As you know well, Mr. Chairman, the citizens of Texas have great 
compassion for human trafficking victims and great disdain for those 
who prey upon them. The State Legislature and leadership of Texas have 
been on the forefront in combatting human trafficking. In 2003, Texas 
became one of the first States to pass human trafficking legislation. 
In subsequent sessions, legislation has been passed to assist victims 
of trafficking and to increase penalties for those who traffic in 
people, particularly children. In 2013, the Texas Legislature passed 
legislation that increased penalties for trafficking, increased victim 
identification and services, and provided resources to better detect 
and interdict human trafficking in Texas.
    The Texas Department of Public Safety (DPS) recently collaborated 
with local, State, and Federal agencies to produce the 2014 Texas Human 
Trafficking Assessment using the collective information and 
perspectives of several agencies across the State, including the 
Houston Police Department, Austin Police Department, Texas Office of 
Attorney General, Texas Department of Criminal Justice, Federal Bureau 
of Investigation, U.S. Immigration and Customs Enforcement (ICE), U.S. 
Customs and Border Protection, U.S. Department of Homeland Security, 
U.S. Department of Justice, U.S. Department of State, Human Smuggling 
and Trafficking Center, and the National Center for Missing and 
Exploited Children. This law enforcement-sensitive assessment was 
provided to the Texas Legislature oversight committees and the State 
leadership this week, and we have also provided copies to your 
committee staff. We are currently working to produce an unclassified 
version of this assessment that can be shared with the public.
    In Texas, human trafficking involves the recruitment, harboring, 
transporting, or procurement of a person for labor or services for the 
purpose of involuntary servitude, slavery, or forced commercial sex 
acts.
    Developing a comprehensive understanding of human trafficking 
requires the consideration of multiple related offenses, such as 
compelling and promotion of prostitution, sexual exploitation, forced 
labor, human smuggling, and other crimes. The victims are males and 
females of different ages, nationalities, and socioeconomic classes.
    I would like to share with you some of the findings in the 2014 
Texas Human Trafficking Assessment:
  <bullet> Sex traffickers in Texas target juvenile runaways, illegal 
        aliens, and other vulnerable victims, using force, fraud, or 
        coercion to compel them into the sex trade. Under Texas and 
        Federal law, force, fraud, and coercion are not necessary 
        elements of sex trafficking when minors are involved. Victims 
        are often manipulated by traffickers to remain with them due to 
        their emotional or financial dependency on the trafficker for 
        food, housing, and other needs. Sex trafficking is conducted by 
        single individuals, small groups, organized networks and gangs; 
        and the younger the child victim is, the more profitable.
  <bullet> Members and associates of multiple gangs have been reported 
        to be involved in sex trafficking operations in Texas. These 
        gangs include Barrio Azteca, Black Gangster Disciples, Bloods, 
        Crips, Mara Salvatrucha, Surenos, and Tango Blast. Gangs and 
        gang members are attracted to the lucrative nature of this 
        activity due to the potential for large and renewable profits 
        while the risk of detection is perceived to be lower than 
        traditional crimes.
  <bullet> Labor traffickers often recruit, transport, and employ the 
        legal and illegal immigrants they bring into the United States 
        for the purpose of forced labor and indentured servitude. These 
        immigrants originate from various countries around the world. 
        Labor trafficking victims can be exploited in both rural and 
        urban areas in a variety of industries. There is limited 
        reporting regarding labor trafficking in Texas.
  <bullet> Human smuggling is distinct from human trafficking; however, 
        there is substantial overlap in many cases. In some instances, 
        human smugglers have been hired specifically to transport sex 
        trafficking victims. In many other cases, crimes that initially 
        begin as human smuggling evolve into human trafficking or a 
        related crime; for instance, illegal aliens may voluntarily 
        enter into an agreement with an alien smuggling organization, 
        but are ultimately kidnapped, ransomed, assaulted, or otherwise 
        exploited.
  <bullet> Mexican cartels facilitate, control, or benefit from nearly 
        all human smuggling activity along the Texas-Mexico border. 
        Alien smuggling organizations are increasingly active in Texas, 
        as reflected in the increasing number of illegal alien 
        apprehensions. In fiscal year 2013, 243,550 illegal alien 
        apprehensions were reported in Texas sectors, a 94 percent 
        increase since fiscal year 2011. This figure includes 28,352 
        apprehensions of unaccompanied alien children (UAC), a 221 
        percent increase from fiscal year 2011. UACs are often brought 
        to the United States to be reunited with family members, and 
        they are particularly vulnerable to exploitation.
    Human trafficking is multidimensional, and to effectively combat it 
in our major cities and elsewhere requires a three-pronged approach: 
First is the collection, centralization, and analysis of timely data; 
second, is the seamless coordination of efforts across jurisdictions 
and disciplines; and finally, it requires the execution of proven 
strategies that are mutually reinforcing.
    In 2009, the Texas Legislature established and directed the Texas 
Human Trafficking Prevention Task Force, chaired by the Texas Attorney 
General, to make legislative recommendations to address human 
trafficking prior to each session. As a result, the 82nd and 83rd Texas 
Legislatures acted upon the task force's recommendations.
    In 2013 the task force and the Texas Office of Attorney General 
produced a human trafficking prevention manual for criminal justice 
professionals to educate law enforcement officers, prosecutors, parole 
officers, social workers, and others who may come in contact with 
victims of trafficking.
    In 2009, DPS--working with the Federal Bureau of Investigation's 
Behavioral Analysis Unit and the National Center for Missing and 
Exploited Children--developed the Interdiction for the Protection of 
Children program (IPC) to train patrol officers on the detection, 
interdiction, and rescue of child victims of sex trafficking and 
exploitation, and the proper handling of such cases. We have provided 
IPC training to more than 3,030 officers in Texas and approximately 
4,080 officers outside of Texas. We are working with the International 
Association of Chiefs of Police to expand this training across the 
country because children are being traded and transported throughout 
the Nation on a regular basis to meet the high demand for child sex--
some at ages too young to imagine. For most of these children, a 
skilled and well-informed patrol officer is their only hope of being 
rescued.
    Texas State troopers rescued 39 children in 2013, and 29 children 
in 2012. And remarkably, since 2010, DPS can account for more than 100 
IPC-related child recoveries by troopers and police officers.
    One of these rescues occurred in 2013, when a Texas State Trooper 
conducted a traffic stop and identified a child who was reported as 
missing and disclosed that she had been compelled into prostitution. 
She provided information about another child victim, which led to the 
identification and recovery of the second child from the sex industry 
as well as the arrest of the subjects.
    Importantly, IPC training enables Texas State troopers and officers 
to identify members of child sex associations, such as ``Child-
Lovers,'' ``Girl-Love,'' ``Boy-Love'' and ``Online-Pedophile 
Activism,'' who support the sexual exploitation of children. The 
training has resulted in the arrest of suspects carrying child lures, 
duct tape, lubricants, condoms, and child pornography before they could 
prey upon a child and then share the horrific video images of their 
crimes among this vile and deviant subculture.
    For example, in one of these cases, a trooper conducted a traffic 
stop of a van driven by a registered sex offender with a previous 
conviction of indecency with a child. The driver was in possession of a 
puppy, several large knives, Hello Kitty shirts, girls' underwear, 
hairbands, lubricants, rope, duct tape, and child pornography.
    Although, the possession and sharing of child pornography does not 
meet the legal definition of human trafficking, the high demand for 
these images results in child victims of commercial sex trafficking 
here and around the world. Texas currently has 80,173 registered sex 
offenders, of which 60,704--or 72 percent--involve at least one offense 
with a child victim. There are several ways in which children are 
recruited into the commercial sex industry--one of which is through the 
internet. In Texas, the Office of the Attorney General works with the 
National Center for Missing and Exploited Children and the U.S. 
Department of Justice as part of a wider network to identify, arrest, 
and prosecute adults seeking to entice children into sexual 
relationships and/or into engaging in commercial sex over the internet. 
Since this initiative began in 2008, this effort has resulted in 351 
arrests and 414 convictions related to sex crimes against children.
    In Texas, the local, State, and Federal law enforcement community 
work closely together in each of our major cities to conduct criminal 
enterprise investigations and prosecutions to target networks, 
organizations, and gangs engaged in human trafficking, primarily 
commercial sex.
    For example, agents and officers from eight different agencies 
assigned to the Houston Human Trafficking Task Force investigated an 
international sex trafficking group that resulted in the arrest and 
indictment of 14 people operating bars/brothels in the Houston area. In 
this case, young undocumented Mexican women and girls were forced to 
perform commercial sex acts through a combination of means, including 
the use of locked rooms, threats, and beatings.
    Local law enforcement agencies in Texas routinely target sex 
trafficking at sexually-oriented businesses and other locations being 
used for this purpose. Frequently these initiatives uncover larger 
conspiracies involving the sex trafficking of children in other cities.
    A significant factor of human trafficking in Texas and elsewhere is 
a porous international border with Mexico, which places hundreds of 
thousands of people destined for the United States in the hands of 
ruthless criminal organizations who exploit them on both sides of the 
Texas/Mexico border. The women and children are particularly vulnerable 
to being sexually assaulted by members and operatives of these 
organizations, and by criminal aliens already in the United States. ICE 
recently announced that they deported 860 criminal alien sex offenders 
from Texas in fiscal year 2014, of which 27 percent of these foreign 
sex offenders were convicted of sex crimes against children. ICE 
deports more than 2,000 of these sex offenders from Texas a year, and 
we will continue to assist them in any way we can.
    We are not able to discern what percentage of the crimes committed 
by criminal aliens in Texas is related to human trafficking; however, 
we do know they seek out and commit crimes in our immigrant 
communities. Between October 2008 and January 2014, 172,157 criminal 
aliens were arrested and booked into Texas jails for committing 591,500 
different non-immigration crimes, including 2,939 homicides, 7,470 
sexual assaults, 6,940 robberies, 1,026 kidnappings, 71,527 assaults 
and 4,044 terroristic threats.
    Texas-based gangs' involvement in the transportation of drugs and 
people provides them access to illegal aliens, who they extort, rape, 
and compel into prostitution. Just as gangs have learned that 
prostitution is highly profitable with perceivably low risk, so have 
other criminal organizations, many now exclusively focused on 
commercial sex and frequently leveraging social media to minimize 
detection and maximize profits.
    As long as the border with Mexico remains unsecure and the Nation's 
demand for the sexual exploitation and indentured servitude of people 
remains high, Texas will suffer the consequences of being a 
transshipment and destination center for drug and human trafficking. 
Those consequences include increases in the deaths of illegal aliens in 
remote areas, increases in felony vehicle pursuits, pseudo police 
stops, corruption, and home invasions.
    The State of Texas has committed substantial resources to assist 
our Federal law enforcement partners with its vital mission of securing 
our border with Mexico. This effort is essential to public safety, 
homeland security, and combatting human trafficking in our major cities 
and elsewhere. We will continue to proactively address significant 
threats to the people of Texas with our local and Federal partners 
rather than react to them. In Texas, there is no greater priority than 
protecting our children, so we recently established the Texas Crimes 
Against Children Center (TCACC) in Austin within the Texas Ranger 
Division at DPS as part of a multidisciplinary approach to identify and 
rescue child victims of sex trafficking and sexual assault along our 
highways and in our cities. The TCACC also provides information and 
resources related to these crimes that result in the incarceration of 
the vilest criminals in our State who seek to rob the innocence of 
children--our most precious resource.
    Lastly, I would like to say that what you measure matters. Today's 
Index Crime Rate categories do not reflect many serious crimes, such as 
the sex trafficking of a child, kidnapping, and extortion which gives 
the public a distorted view of the crime environment in which they 
live. Until the sex trafficking of a child and other related crimes are 
reflected in the Index Crime Rate or until the National Incident Based 
Reporting System (NIBRS) is fully adopted, these horrific crimes will 
not receive the visibility and prioritization they warrant. 
Nevertheless, I can assure you that in Texas, we will continue to work 
together with our many partners to address these deplorable crimes, 
pursue the suspects and protect the victims.

    Chairman McCaul. Steve, I thank you for that.
    The Chairman now recognizes Sheriff Garcia for 5 minutes.

 STATEMENT OF SHERIFF ADRIAN GARCIA, SHERIFF'S OFFICE, HARRIS 
                         COUNTY, TEXAS

    Mr. Garcia. Thank you, Mr. Chairman. I welcome this 
distinguished panel and thank you for your kind attention here.
    I am also honored to be allowed to provide some testimony 
this morning on a subject that I place in the forefront of my 
crime-fighting efforts. I give special thanks to the Chairman, 
to the gentlelady from Texas from our community, and all the 
distinguished panel for your efforts in working with me and 
others over the years to serve Harris County well.
    But I specifically want to work with you to bring a 
brighter spotlight on human trafficking. I look forward to 
working with you and others to develop an effective and 
strategic plan that should include legislative action, Federal 
resources, public/private partnerships, public education and 
awareness, and law enforcement. I believe that a comprehensive 
approach with these elements is what we need in our metropolis 
to bring this horrible industry, if possible, to an end.
    Here in Harris County, I know that our cooperative efforts 
will serve you as a model for others to follow.
    As a long-lived Houstonian, I am grateful for today's 
discussion on human trafficking because it has been in our 
midst here in the Houston-Harris County area in some form or 
another for many years, just as it has been in other parts of 
the country and in our State.
    However, it is hearings such as this that create the 
opportunity to work on a united front to save victims from 
slavery regardless of whether the victim is a female or male, 
regardless if it is internationally- or domestically-driven, 
regardless of whether the victims are in this country without 
the proper permission, regardless if the victims are cleaning, 
repairing, or building our homes and businesses, regardless if 
the victims are giving manicures or washing dishes at some 
local establishment, or regardless if they have been forced 
into sex slavery. This hearing will afford us the opportunity 
to have a clear discussion on how prevalent human trafficking 
is affecting our community and what needs to be done to address 
it.
    For example, Harris County's economic capacity attracts 
newcomers from across the Nation and from around the world. So 
new faces are not unusual here, but sometimes people who look 
like willing visitors are really here under duress and in 
places that we may naturally suspect, as well as in places that 
we may have never thought to suspect.
    Harris County's profile is much different today than it was 
in 1959 when my parents left Mexico City to make Houston our 
home. Today we are proud of the title of being considered one 
of the most internationally diverse cities in America. It is 
important that a global economy be part of our business 
profile. Unfortunately, there are enterprising persons who want 
to exploit our diversity at the cost of human tragedy and use 
our diversity to hide their evil activities.
    With a culture of tolerance and diversity, our airports and 
Port of Houston provide gateways to and from around the globe. 
So in Harris County, we speak over 100 languages every day and 
we come in all colors. We will continue to welcome those who 
want to make a contribution to our community or visit lawfully, 
but we most also remember that there are victims amongst us who 
are here illegally because of lure or force. In either case, 
they are victims. Because of the sheer size of our population 
and land mass, young runaways from down the road or three 
States away may not raise eyebrows when they arrive here 
looking to blend into our communities. As a result, it is 
important to recognize that we not only have international 
victims of human trafficking, but we have victims of human 
trafficking that are born right here in the USA.
    This is why I have said many times that human trafficking 
can hide in plain sight, as it has been said by the other 
guests. If the eyes of law enforcement were ever closed to 
this, they are certainly not now and at least not in Harris 
County and especially not within the Harris County Sheriff's 
Office. Through the saturation of our mobile phone app, I watch 
Harris County. We want people to know that we are watching for 
human trafficking and other crimes, and we need them to do so 
as well.
    The Harris County Sheriff's Office takes a multi-pronged 
approach to fighting along this crucial battlefront.
    First, we work as an integral part of the Human Trafficking 
Rescue Alliance, in which our partners, the Houston Police 
Department, the FBI, and others, work on cases that involve 
traffickers whose operations cross State and National and 
international borders. As a former prosecutor, you are well 
aware of how long and complicated these investigations are, and 
this is why, in spite of our efforts, the Trafficking Alliance 
has only been able to prosecute 75 people on charges of human 
trafficking and related crimes since 2006.
    As the sheriff of Harris County, I must state that if we 
believe that there are more victims and traffickers amongst us, 
then we must commit more resources and broaden our strategy and 
not be happy with what we are able to do with what we have 
available. If there is a victim listening to our testimony, I 
want them to know that we are trying to find them, help them, 
and put their pimps in State or Federal prisons. But this does 
require more resources.
    Second, we work in the unincorporated areas of Harris 
County on the streets, at the hotsheet motels, through 
websites, working in an undercover capacity to bust prostitutes 
or customers and their pimps. Prior to my administration in 
2008, the Harris County Sheriff's Office only had six deputies 
dealing with vice issues. All these deputies were males. Today, 
we have increased that number to 12 to address game rooms and 
prostitution activities. Of these deputies, 7 are females.
    I point this out because for too many years we have been 
effective at arresting mainly female prostitutes, women who I 
do not believe grew up with the dream of becoming a prostitute 
on the streets of Harris County. Rather, they are women or in 
many cases children who have been exploited for someone else's 
gain. For that reason, I empowered these female deputies to go 
after those men who want to buy women like cheap property. I 
have charged these female deputies with giving those men the 
taste of the shackles that these women have endured for so many 
years.
    Third, on behalf of those who work with the victims of 
human trafficking, the Human Trafficking Rescue Alliance has 
rescued more than 230 victims since its inception, and those 
victims need resources and support. That is why I applaud 
groups like Children at Risk led by the hard-hitting Dr. 
Sanborn; Free the Captives led by a powerful Julie Waters; the 
Tahirih Justice Center led by dynamic Anne Chandler; Force for 
Compassion led by the dynamic duo of Jana Rankin and Jackelyn 
Iloff, and Redeemed Ministries led by the fearless Dennis Mark. 
These groups are just a few who are stepping up to help and do 
what they can in this fight. However, these groups are 
overwhelmed and the victims need shelters, legal counsel, and 
other resources to help them in their recovery.
    Also, I have leveraged technology like our Been Missing 
website and its mobile app to our efforts to recover runaways 
and missing persons who have disappeared from our community and 
who may be under the control of pimps and drug dealers.
    I have also increased the knowledge of our staff and our 
deputies, our professional detention officers on the elements 
of human trafficking so they can do better at recognizing it.
    Although we have made progress, I ask for your help in 
creating greater awareness of this terrible industry. Whenever 
the Harris County Sheriff's Office announces the results of an 
undercover sting operation, there are some people in the 
community who say that we ought to use our resources more to go 
after violent criminals. The reality is that this is not a 
victimless crime, and a lot of people are adversely affected by 
it.
    I got the rest of the testimony, but at the end of the day, 
there are two things that I need your help with, Members of 
this distinguished panel.
    One, let us support legislation like what Congressman Poe 
has proposed for justice, for helping the victims of human 
trafficking.
    Second, we got to understand that comprehensive immigration 
reform is a part of the solution. You know, when my parents 
decided to come here, they could have turned to a smuggler, but 
instead, they had an immigration system that worked back in 
1959. If not for that system that worked at that time, my fate 
could have been very different.
    Thank you.
    [The prepared statement of Mr. Garcia follows:]
                  Prepared Statement of Adrian Garcia
                             March 20, 2014
    Thank you, Members of Congress, for inviting me to testify today 
about a subject that I have placed at the forefront of my crime-
fighting efforts. I give special thanks to you, Chairman McCaul, for 
working with me over the years--not only to serve Harris County well, 
but specifically to put a spotlight on human trafficking. I look 
forward to working with you and others to develop an effective 
strategic plan that should include legislative action, Federal 
resources, Public-Private-Partnerships, public education and awareness, 
and law enforcement. I believe that a comprehensive approach with these 
elements is what we need in our metropolis to bring this horrible 
industry to an end. Here in Harris County, I know that our cooperative 
efforts will serve as a model for others to follow.
    As a life-long Houstonian, I am grateful for today's discussion on 
human trafficking because it has been in our midst here in the Houston/
Harris County area in some form or another for many years, just as it 
has been in other parts of our State and country. However, it is 
hearings such as this that create the opportunity to work on a united 
front to save victims from slavery; regardless of whether the victim is 
a female or male; regardless of it is internationally or domestically 
driven; regardless of whether the victims are in this country without 
the proper permission; regardless if the victims are cleaning, 
repairing, or building our homes or businesses; regardless if the 
victims are giving manicures or washing dishes at some local 
establishment; or regardless if they have been forced into sex slavery.
    This hearing will afford us the opportunity to have a clear 
discussion as to how prevalent human trafficking is affecting our 
community, and what needs to be done to address it.
    For example:
  <bullet> Harris County's economic capacity attracts newcomers from 
        across the Nation and from around the world. So, new faces are 
        not unusual here but sometimes people who look like willing 
        visitors are really here under duress and in places that we may 
        naturally suspect, as well as in places that we have never 
        thought to suspect.
  <bullet> Harris County's profile is much different today than it was 
        in 1959 when my parents left Mexico City to make Houston our 
        home. Today, we are proud of the title of being considered one 
        of the most internationally diverse cities in America! It is 
        important that a global economy be a part of our business 
        profile, unfortunately there are enterprising persons want to 
        exploit our diversity at the cost of human tragedy, and use our 
        diversity to hide their evil activities.
  <bullet> With a culture of tolerance and diversity, our airports and 
        the Port of Houston provide gateways to and from around the 
        globe, so in Harris County we speak over a 100 languages every 
        day and we come in all colors. We will continue to welcome 
        those who want to make a contribution to our community or visit 
        lawfully, but we must also remember that there are victims 
        amongst us who are here illegally because of lure or force, in 
        either case, they are victims.
  <bullet> Because of the sheer size of our population and land mass, 
        young runaways from down the road or three States away may not 
        raise eyebrows when they arrive here looking to blend into our 
        communities. As a result, it is important to recognize that we 
        not only have international victims of human trafficking but we 
        have victims of human trafficking that are born right here in 
        the United States of America.
    This is why I have said many times, that human trafficking can hide 
in plain sight in Harris County. If the eyes of local law enforcement 
were ever closed to this, they certainly are not now, at least not 
within the Harris County Sheriff's Office. Through the saturation of 
our mobile phone app ``I Watch Harris County'', we want people to know 
that we are watching for human trafficking and other crimes and we need 
them to do so as well!
    The Harris County Sheriff's Office takes a multi-pronged approach 
to fighting along this crucial battlefront:
  <bullet> First, we work as integral part of the Human Trafficking 
        Rescue Alliance, in which our partners are the Houston Police 
        Department and the FBI, and the cases often involve traffickers 
        whose operations cross State or National borders. As a former 
        Federal prosecutor, you are aware how long and complicated 
        these investigations are and that is why, in spite of our 
        efforts, the Human Trafficking Rescue Alliance has only been 
        able to prosecute 75 people on charges of human trafficking and 
        related crimes since 2006.
    As the Sheriff of Harris County I must state that if we believe 
        there are more victims and traffickers amongst us, then we must 
        commit more resources and broaden our strategy, and not be 
        happy with what we are able to do with what we have available. 
        If there is a victim listening to our testimony, I want them to 
        know that we are trying to find them, help them, and put their 
        pimps in State or Federal prison. But this does require more 
        resources.
  <bullet> Secondly, we work in the unincorporated area of Harris 
        County, in the streets, in the hotsheet motels and through 
        websites, sometimes undercover, to bust prostitutes, their 
        customers, and their pimps. Prior to my administration in 2008, 
        the Harris County Sheriff's Office only had 6 deputies dealing 
        with vice issues; all of these deputies were males. Today, we 
        have increased that number to 12 deputies to address game rooms 
        and prostitution and of these deputies, 7 are females. I point 
        this out because for too many years we have been effective at 
        arresting mainly female prostitutes. Women, who I do not 
        believe grew up with the dream of becoming a prostitute on the 
        streets of Harris County, rather they are women, or in many 
        cases children who have been exploited for someone else's gain. 
        For that reason, I empowered these female deputies to go after 
        those men, who want to buy women like cheap property. I have 
        charged these female deputies with giving those men a feel of 
        the shackles that these women have endured for so many years.
  <bullet> Thirdly, I advocate on behalf of those who work with the 
        victims of human trafficking. The Human Trafficking Rescue 
        Alliance has rescued more than 230 local victims since its 
        inception, and those victims need resources and support, and 
        that is why I applaud groups like:
    <bullet> ``Free the Captives'' led by powerhouse Julie Waters;
    <bullet> ``Tahirih (Ta-ha-ray) Justice Center'' led by the dynamic, 
            Anne Chandler;
    <bullet> ``Force for Compassion'' led by the dynamic duo of Jana 
            Rankin and Jackelyn Iloff;
    <bullet> ``Redeemed Ministries'' led by the fearless, Dennis Mark.
    <bullet> These groups are just a few who are stepping up to help 
            and do what they can in this fight. However, these groups 
            are overwhelmed and the victims need shelters, legal 
            counsel, and other resources to help them in their 
            recovery.
  <bullet> Also, I have leveraged technology like our ``Been Missing'' 
        website and its mobile app to our efforts to recover runaways 
        and missing persons who have disappeared from our community, 
        and who may be under the control of pimps or drug dealers.
  <bullet> I have also increased the knowledge of all my staff, our 
        deputies, and our professional detention officers, on the 
        elements of human trafficking so that we can do better at 
        recognizing it.
    Although we have made progress, I ask for your help in creating a 
greater awareness to this terrible industry. Whenever the Harris County 
Sheriff's Office announces the results of an undercover ``sting'' 
operation against prostitution, some members of the community consider 
prostitution a victimless crime and urge us to use our resources to 
stamp out violent crimes, drug trafficking, and thefts. I need your 
help to remind the public that the there is a common thread that runs 
through all of these crimes, because rarely does any one of these 
criminal enterprises stand alone. Each fuels the other and anytime we 
can disrupt one criminal enterprise, it affects the others.
    To those who think prostitution is a victimless crime: Help remind 
them that it's a greedy industry that thrives on forced labor, drug 
addiction, and sometimes even illegal imprisonment. Many who have come 
through the Harris County Jail, arrested as prostitutes, tell us they 
were turned onto illegal drugs and were then forced into prostitution 
to finance their addictions. Still others tell us they were trapped in 
servitude, unable to access food and medicine, or even their choice of 
clothing.
    So we need to remind folks that stopping prostitution stops other 
crimes, emancipates victims, and fights against human trafficking. This 
also explains why we give the news media the mug shots of the men and 
women we arrest. We are trying to deter the next set of customers and 
suppliers. We are attacking human trafficking at its roots.
    In addition, I want to thank the Texas Legislature and Harris 
County Commissioners Court, because last year we got new regulations 
against wayward Sexually Oriented Business. Although, SOBs are legal, 
we can now take them down if they fail to comply with county licensing 
requirements. Some SOBs engender prostitution, which engenders human 
trafficking. So the regulations are an important tool for us in this 
battle.
    We even attack human trafficking from inside the Harris County 
Jail. I have worked hard to empower inmates to share information about 
crimes they are aware of in the free-world. Sometimes this information 
leads to the identification or arrest of pimps and smugglers. I have 
also started an inmate rehabilitation program, called ``Been There Done 
That'', in which a team, led by certified recovery coach who knows 
first-hand the struggles of prostitutes and drug addicts. She provides 
valuable counseling to inmates serving time for prostitution or related 
crimes. In group sessions, some of the inmates speak out about having 
been trafficked and/or sold for the production of child pornography.
    This compelling rehab program has received National publicity, and 
deservedly so. The recidivism rate for graduates of the program is very 
low.
    At the same time, Harris County's juvenile justice system has 
become more sophisticated in responding to juvenile victims of human 
trafficking. I have shared a significant amount of Asset Forfeiture 
dollars with the Harris County Juvenile Probation Department to help 
their efforts with juveniles they identify as victims of human 
trafficking within their system.
    You would be right to assume that sex slavery is not the only form 
of human trafficking in Houston. Several times a year in the 
unincorporated area of Harris County, where 1.7 million people now 
live, my deputies encounter ``stash houses'' where people smuggled 
across the border are held captive by the smugglers, forced to work in 
hard labor with scant food and bad living conditions, supposedly to pay 
off smuggling fees.
    And so I ask you to carry my message to your colleagues in Congress 
on at least these two concrete actions that can be taken:
  <bullet> First, bi-partisan legislation on the framework of the 
        ``Justice for Victims of Trafficking Act'' proposed by Sen. 
        Cornyn and Congressman Poe, would provide funding for domestic 
        trafficking deterrence and victims' support programs at the 
        Federal level. Among other things, it would also create a new 
        grant program helping States and local governments to develop 
        and implement comprehensive programs to rescue victims and 
        prosecute human traffickers.
    We welcome other categories of grant funding for technology and 
        equipment. But the real need is funding for more ``boots on the 
        ground,'' meaning personnel so that we can have the necessary 
        investigative team for the actual problem that we believe 
        exists. I am confident in saying more officers dedicated to 
        fighting human trafficking in Harris County would mean more 
        arrests of traffickers. Obviously, I believe that major cities 
        with international airports and a port, in a border State, 
        should get special consideration.
  <bullet> Secondly, I urge Congress to move on passing sensible 
        immigration reform that would give us even more ammunition 
        against sex slavery and human trafficking. Proposed legislation 
        would include more resources to secure our borders. We need an 
        immigration system that supports those who simply want earn an 
        honest living to support their family back home, an effective 
        Guest Worker Program that meets the demand of our economy could 
        be a key element in putting smugglers out of business.
    In fact, it was the ``Bracero'' Program of the 40's that provided 
        the pathway for me to be here before you, as a proud American, 
        and as your sheriff. My father helped to build the rail lines 
        and worked in the fields of California because he wanted to get 
        married and start a family back home. Because he played by the 
        rules but more importantly, because the entry process was 
        something he could depend on, was why he was able to drive 
        across the International Bridge in Brownsville, and not have to 
        swim across the Rio Grande.
    So grateful was he of the ``permission'' to be allowed to enter the 
        United States that the first thing he could think to do as he 
        crossed the bridge was to stop and get everyone out of the 
        station wagon. When my older brother asked what was wrong, he 
        instructed everyone to kneel on the side of the road as he led 
        them in prayer, saying in Spanish ``Thank you God for the 
        opportunity to come to this great country! We will be good 
        citizens, we will obey the laws, and we will work hard to give 
        back everything that this country will give us! Amen.''
    Mr. Chairman, please tell your colleagues that if not for an 
immigration system that worked back then, my father may have turned to 
a human trafficker and our fate, my fate could have been a very 
different one. Thank you.

    Chairman McCaul. Thank you, Sheriff.
    The Chairman now recognizes Ms. Johnson for 5 minutes.

 STATEMENT OF ANN JOHNSON, ASSISTANT DISTRICT ATTORNEY, OFFICE 
         OF THE DISTRICT ATTORNEY, HARRIS COUNTY, TEXAS

    Ms. Johnson. Thank you, Chairman McCaul, Ranking Member 
Sheila Jackson Lee, this distinguished panel, our local Texas 
delegation. Thank you very much for being here to visit with us 
and to hear about our local efforts. I am honored to be here 
today on behalf of Harris County District Attorney Devon 
Anderson and to share with you the efforts our office is making 
in combating human trafficking, to support victims, and to 
prosecute those exploiters.
    My work in human trafficking began, as the Chairman said, 
in representing B.W., a 13-year-old child CPS runaway who was 
being prosecuted for prostitution. When the Texas Supreme Court 
ruled in that child's favor, it created a landmark decision and 
put us on a path of affirming that Texas law will protect child 
victims of prostitution and treat them as a victim and not as 
an offender.
    Since, the Texas legislature has given us the affirmative 
defense for adults who are prosecuted for prostitution but are 
victims of human trafficking. We do not want to prosecute 
victims. We want to identify and recover those that need our 
help.
    Implementing these changes is like turning a large ship, 
and we need your support. A recent juvenile case highlights the 
type of challenges that we face. Recently a young child was 
recovered off of the truck agreeing to sex for a fee. She is 15 
years old. She is 4 months pregnant with her second child. She 
is in and out, having prior CPS and abuse history. She has a 
runaway history. She has a below-average IQ operating in the 
third- to fourth-grade level. She is also dealing with a 
significant drug dependency. The challenge for us what to do to 
help her. The additional challenge is we have identified this 
child, but the State Department tells us that we identify .4 
percent. So for every one of her, there are 200 more that we 
need your help in recovering.
    Once we find them, often they are brought to the juvenile 
justice system which cannot be the only answer. These children 
often are in need of a placement that can treat not only the 
juvenile and child protective type services, and there are few 
facilities that are equipped to handle these issues. We are in 
a constant state of searching for appropriate beds for these 
children in appropriate treatment facilities and need your 
help.
    Today, alternative courts such as the juvenile GIRLS Court 
and the adult STAR Court represent a new model in using the 
justice system to do justice, healing wounds, establishing 
strength and independence, and to ultimately reduce the rate of 
recidivism and the cost to the public. State statutes create 
the establishment of these courts, but unfortunately 
insufficient grants keep limitations on getting them put into 
place.
    In addition to victim recovery, we are doing everything 
that we can to prosecute pimps and johns. Simply removing the 
child from the streets without a consequence for the pimp or 
the john will merely create a vacuum in which they will go out 
and find another to fill the void. Children do not have to be 
forced. They may even be willing because they believe this 
individual loves them, that it is a boyfriend, and they often 
do not know that the sexual abuse that is happening to them is 
against the law.
    Human trafficking is a rapid-growing industry, a reported 
$32 billion industry worldwide. Prostitution, while it is the 
oldest profession--we are not talking about consensual sex. We 
are talking about human trafficking. This sexual industry of 
supply and demand where pimps or business owners provide 
workers, adult or children, for johns for a fee. A recent 
articled noted that a pimp in a small market makes $31,000 a 
week, largely cash. Law enforcement must have the resources to 
``follow the money'' which most often is funneled in subverted 
ways to avoid detection and make things more difficult. 
Exploiters widely avoid legal traps, but they will brag and 
advertise on-line. They may not have been hiding because past 
statistics show we have not been successful in prosecuting.
    However, the district attorney's new approach in providing 
a human trafficking specialist provides 24-hour support for law 
enforcement, communication among the agencies that you see 
here, and since this shift in focus, there have been some 230 
cases that have been brought together for review, 
investigation, and prosecution.
    We are in a constant need for being able to bring witnesses 
to appear in court because often these manipulators and 
exploiters believe that the amount of manipulation, both 
mental, financial, and physical, the way that they have groomed 
their stable to keep them in pocket means that they will not 
show up and testify against them. Sometimes they may be right. 
If we do not provide support for victims, both children and 
adults, and to strengthen our court system through that method, 
then these exploiters do win.
    With each successful prosecution, we also hand over 
rightfully and legally through offense reports and discovery 
the information about how we are tracking them, and we see, 
following so, that on the streets, they then become warnings to 
exploiters about what to avoid to keep detection from law 
enforcement. That is why as this industry evolves, as we 
continue to look and to discover and prosecute, the more they 
look to evade and evolve. Law enforcement must have the tools 
not only to remain with them but to pass up and to stay ahead.
    Human trafficking enterprises are culturally and 
operationally different. Houston is littered with sexually-
oriented businesses, massage parlors, spas that often house an 
international population, which is even more complex. Laws 
provide protection to international victims but conveying these 
concepts at raid scenes against language barriers and years of 
cultural programming is a significant challenge.
    The open line of communication among the people that you 
see here is helping, and while systematic protocols need to be 
put in place, the reality is these cases are complex, require 
urgent responses, and the ability to think within the framework 
of the law but outside the box to stay ahead.
    We need your help and we are grateful for your support.
    [The prepared statement of Ms. Johnson follows:]
                   Prepared Statement of Ann Johnson
                             March 20, 2014
    Chairman McCaul, Members of the committee--on behalf of Harris 
County District Attorney Devon Anderson and myself, thank you for the 
opportunity to appear before you with Special Agent in Charge 
Moskowitz, Director McCraw, and Sheriff Garcia to discuss what we are 
doing in Harris County to combat the epidemic of human trafficking. The 
people you see here today represent the commitment and cooperation of 
State and Federal law enforcement agencies to not only identify and 
bring to justice predators who enslave their fellow human beings, but 
also to implement a new sensitivity to the victims of human trafficking 
who are often coerced into committing criminal acts and become 
dependent on their captors.
                                my work
    In February 2013, Harris County District Attorney Mike Anderson 
hired me to be a human trafficking specialist with an emphasis on 
working to help victims and prosecute exploiters.
    My legal background prepared me for this work. After serving as a 
briefing attorney for the Fourteenth Court of Appeals, I served as an 
assistant district attorney with the Harris County District Attorney's 
Office. When I later went into private practice, local juvenile judges 
appointed me to represent children charged with criminal offenses.
    One of the cases to which I was appointed resulted in a landmark 
decision from the Texas Supreme Court. In 2007, I was appointed to 
represent on appeal a 13-year-old child--B.W.--who had been adjudicated 
delinquent for prostitution. Working with attorney Michael Choyke, we 
appealed B.W.'s case to the Texas Supreme Court and the Court not only 
reversed B.W.'s adjudication, but also expressly affirmed that all 
children under the age of 14 years are unable to legally consent to 
sex. In short, they are victims of child prostitution, not 
offenders.\1\
---------------------------------------------------------------------------
    \1\ In re B.W., 313 S.W.3d 818 (Tex. 2010).
---------------------------------------------------------------------------
    After B.W. was decided, I made many presentations regarding the 
decision and the practical and legal challenges we face in attempting 
to assist children like B.W. Juvenile court judges continued to appoint 
me to represent children in specialty dockets like the Mental Health 
Court and the Growing Independence and Restoring Lives (GIRLS) Court.
    Since returning to the District Attorney's Office in 2013, our 
office has pursued investigations and prosecutions of more than 200 
cases related to human trafficking. We have also worked with law 
enforcement officers at human trafficking crime scenes and spoken with 
children and adults charged with (or rescued from) engaging in 
prostitution. What follows is an overview of what I have learned about 
human trafficking.
                  the nature of the problem--overview
    Human trafficking is the exploitation of another human being by 
labor or sex. It is a modern-day form of slavery, impacting the most 
vulnerable among us and affecting every social group, all genders, and 
all ages.
    Human trafficking is the second-fastest growing criminal enterprise 
and, unfortunately, Houston is a primary hub. Most of the cases filed 
involve sexual exploitation. The victims are hidden in plain sight 
along our streets, concealed in massage parlors, spas, cantinas, strip 
clubs, and other enterprises in our community, or marketed on internet 
sites.
    Human trafficking is not limited to international victims. A 
majority of the victims are American children who often have mental 
deficiencies and end up on the streets on the run from abusive homes or 
unwanted placements. For survival, they allow themselves to be 
recruited by pimps who take advantage of the kind of money that can be 
made by a child in what is known as the ``Game.''
                                the game
    The Game is prostitution, a cruel lifestyle in which people are 
manipulated, controlled by drugs and violence, and ultimately trapped 
in a life of providing sex to anyone for a fee.
    The pimp's prostitutes are his or her resources. The pimp may refer 
to the prostitutes as ``hoes,'' ``girls,'' ``workers,'' and the group 
as a ``stable.''
    A hierarchy exist in the stable in which the ``bottom'' girl, who 
is closest to and ironically has been with the pimp the longest, helps 
run the Game by setting up dates and teaching the girls how to act. The 
bottom girl may beat the other girls for the pimp if they get out of 
line, or she may take the beating from the pimp, which also sends a 
message to the other girls in the stable.
    Prostitutes may come and go in and out of jail, or be traded among 
pimps. It takes work for a pimp to build up a stable. For example, a 
pimp may act as a trick in order to steal a girl from another pimp's 
stable. Because of this danger, prostitutes are instructed to never 
look a trick in the eyes. In the Game, if you look another pimp in the 
eyes, you are choosing to go with them. If so, the pimps will work out 
an arrangement in which the new pimp pays off the old pimp. Of course, 
the new pimps do not pay from their own pocket; they have the girl work 
off the debt.
    Pimps demand that girls bring in a daily quota by selling 
themselves, performing various sex acts in exchange for money. The 
buyers are known as ``tricks'' or ``johns.'' Agreeing to sex, oral or 
straight, in exchange for money is a crime. Accordingly, code language 
fools no one but it seeks to avoid legal traps. A ``date'' or ``trick'' 
meets a ``john'' or ``trick'' because she is ``working,'' ``is 
interested in having fun or getting freaky,'' and is ready to give a 
``BJ'' or ``head'' for a ``donation'' or ``roses.'' Because selling or 
having sex with a child is a greater crime, the child's age is often 
given as one of legal consent, such as 18.
    The business of prostitution is set up on ``the track,'' the local 
streets where girls walk waiting to be picked up by a date in a car or 
taken to local hourly rental motels. Johns are also attracted by 
internet ads or locations of other sexually-oriented businesses.
    Women have described being beaten by their pimp to a degree they 
were barely able to perform, and still have johns go through with the 
sex act with them despite their obvious physical injuries. Child 
victims describe telling johns their real age in hopes the johns will 
not go through with the sex act and help rescue them. However, their 
hopes are almost always dashed as the johns, including returning johns, 
go through with the sex act, provide them money, and let them go back 
to their pimp. In one case, the john requested the ``one with braces.'' 
Child victims describe using drugs as a means of numbing the abuse.
         texas and national recognition of prostituted children
    Texas studies related to children and prostitution's effect on them 
reveal some disturbing trends. For example, in 2009, the Texas House 
Committee on Human Services noted:

``Human trafficking is a modern day form of slavery . . . Texas has 20 
percent of the market in the United States, and Houston is currently 
the world's largest center for human trafficking . . . [T]he vast 
majority of domestic victims of human trafficking were minors; 
approximately 70 percent of the children fall into the sex trade . . . 
Unfortunately, most of these children are criminalized and placed with 
Child Protective Services with the result that the child does not 
receive the necessary services and often falls back under the thumb of 
traffickers.''\2\
---------------------------------------------------------------------------
    \2\ Bill Analysis, Tex. C.S.H.B. 4009, 81st Leg. (2009).

    As early as 1999, publications produced by The National Center for 
Missing and Exploited Children and the United States Department of 
Justice pointed out that ``prostitution of children is closely tied to 
life on the streets,'' that pimps ``look for young girls who are lonely 
or rebellious, with low self-esteem,'' and they ``prey 
disproportionately on young runaways.''\3\ Simply stated, once on the 
streets, children often engage in ``survival sex.''
---------------------------------------------------------------------------
    \3\ Eva J. Klain, J.D., Prostitution of Children and Child Sex 
Tourism: An Analysis of Domestic and International Responses, 
N.C.M.E.C. (April 1999).
---------------------------------------------------------------------------
    In response to Texas' challenges, the Texas Human Trafficking 
Prevention Task Force was created to study human trafficking. The Task 
Force found that identifying child victims is difficult due to a lack 
of general understanding about human trafficking among those that come 
in contact with children, the failure of child victims to self-
identify, contradictory laws and lack of legislation.\4\ The Task Force 
found:
---------------------------------------------------------------------------
    \4\ See Texas Human Trafficking Prevention Task Force Report, 
January 2011, at 12.
---------------------------------------------------------------------------
  <bullet> 11,942 juveniles were arrested as runaways in 2009.
  <bullet> Children are approached by traffickers within 48 hours of 
        running away.
  <bullet> The number of victims identified reflects only .4% of the 
        victims in existence. This means that, for every victim we 
        recover, there are 200 more just like them that we have yet to 
        identify.
  <bullet> The average age of entry into prostitution is 12 years old.
    These risk factors and statistics highlight the need for Texas to 
secure and protect children immediately upon recovery.
       the challenges to providing care for prostituted children
    Texas has two ways to provide services for and taking custody or 
possession of a child: The Texas Department of Family and Protective 
Services (Children's Protective Services, hereafter ``CPS'') may assist 
victims of abuse or neglect from birth until age 18; and the Juvenile 
Justice System may assist children engaged in delinquent (criminal) 
conduct and in conduct indicating a need for supervision for ages 10 to 
17.
    Although placement for offenders can be in physically restrictive 
and locked-down facilities, placement for victims of abuse or neglect 
or children who engage in conduct indicating a need for supervision, 
such as running away, generally cannot be placed in secure facilities. 
Thus, another challenging and recurring scenario confronted by State 
authorities is recovery of a problematic child in the early morning 
hours when the proper services are not equipped to handle the recovery 
and continued placement of the child.
the limitations of the juvenile justice system and the shift in viewing 
     prostituted children as victims and not offenders--in re b.w.
    The case of In re B.W. illustrates many of the commonalities of the 
population and typical challenges of attempting to provide them 
placement and services.
    B.W. was a 13-year-old runaway from the CPS who had been living on 
the streets for 14 months. On January 11, 2007, at 10:30 a.m. on a 
Tuesday morning, she was arrested by Houston Police Department officers 
for agreeing to oral sex for a fee of $20.00. Officers charged her 
originally as an adult because she lied about her age. Upon discovery 
that she was only 13 years old, her case was refiled in the juvenile 
system. At the time, she made an outcry that she had been living with 
her ``32-year-old boyfriend'' who was having sex with her. However, the 
record remains silent as to any investigation into the ``32-year-old 
boyfriend'' or any other person who put her in the position of selling 
herself. A psychological report indicated B.W. was an ``emotionally 
impoverished, discouraged and dependent adolescent'' who ``exhibited 
patterns of feeling sad, downhearted, unworthy.'' [S]he ``yearns for 
acceptance from others, although her hopes appear to be waning 
rapidly.'' Reports also indicated that she carried sexually transmitted 
diseases and was mentally deficient.
    B.W.'s case contained some of the common challenges we see with 
child victims of prostitution. They do not self-identify as victims and 
may not know what is happening to them is against the law. They often 
identify or see their pimps as a boyfriend or love interest and will 
lie in an attempt to avoid recovery by law enforcement.
    In deciding B.W.'s case, the Texas Supreme Court recognized for the 
first time that children do not freely choose a life of prostitution, 
but instead are manipulated and controlled by their exploiters.\5\ 
Further noting, the Court wrote:
---------------------------------------------------------------------------
    \5\ See In re B.W., 313 S.W.3d at 826.

``It is difficult to reconcile the Legislature's recognition of the 
special vulnerability of children, and its passage of laws for their 
protection, with an intent to find that children under 14 understand 
the nature and consequences of their conduct when they agree to commit 
a sex act for money, or to consider children quasi-criminal offenders 
guilty of an act that necessarily involves their own sexual 
exploitation.''\6\
---------------------------------------------------------------------------
    \6\ Id. at 821-22.

    The age limitation on juvenile justice prevents it from being the 
answer. The case of Shaniya Davis, a 5-year-old child in North 
Carolina, illustrates the impact this offense can have on children of 
any age. Media reports show haunting surveillance video of that child 
being carried by a man through a hotel hallway prior to her killing. 
The man and Shaniya's mother were prosecuted for human trafficking.
    the practical limitations of children's protective services in 
                providing care for prostituted children
    In recognizing these children as victims, CPS is the appropriate 
vehicle to provide care for these children. However, the practical and 
legal limitations of existing CPS facilities and services make CPS a 
problematic and unrealistic resource.
    Many prostituted children come from abusive homes or have already 
been taken into custody or care by the State as a victim of another 
form of abuse. In this respect, they appear to be a population CPS has 
already been unable to supervise or help. These children are 
``runners'' and take advantage of the inability of CPS to provide 
secure lock-down placement.
    Officers express extreme frustration with recovering a prostituted 
child from the streets and returning them to a proper CPS placement 
facility only to have the child leave because agency representatives 
have no ability to restrain or stop them. Worse, some children do as 
instructed by their exploiters: They not only run, they encourage 
additional girls to run with them.
    This does not happen in all facilities. Some secure and therapeutic 
placement facilities are licensed to serve both CPS dependant and 
Juvenile Justice's delinquent populations. However, a constant need 
exists for ``beds'' in these appropriate facilities.
    This challenge raises the need for more proper placement facilities 
with the capacity to triage a child's initial recovery and treat the 
child's acute medical, mental health, and drug conditions.
                          identifying children
    Once a child is on the run, it is difficult to ascertain their true 
identity. Many times, children give a false date of birth and without 
the ability to verify the information they are released or processed 
through adult jail systems undetected.
    Strategies exist to help mitigate this problem, however. For 
example, many States do not report CPS runaways to the Center for 
Missing and Exploited Children. Adding children to this database could 
assist recovery.
    Existing law enforcement protocols allow for the identification of 
persons by fingerprints out on the streets. If a child is under the 
jurisdiction of CPS, however, the State does not obtain the child's 
fingerprints. This policy should change. Collection of these 
fingerprints would aid recovery of these vulnerable children. If there 
are concerns about the child's privacy from such a policy, they can be 
resolved by adopting a policy of purging fingerprint records upon the 
child's emancipation or 18th birthday.
 juvenile justice response to providing care for prostituted children--
         growing independence and restoring lives (girls) court
    As a result of CPS deficiencies and placement challenges, law 
enforcement officials tend to use any appropriate delinquency charge to 
place the child in the secure lock-down facilities of juvenile justice.
    In July 2011, the 315th Juvenile District Court had before it a 
child victim of human trafficking, but the child was also a probationer 
being lawfully prosecuted for an offense of delinquent conduct. 
Recognizing the need to provide a victim-centered approach for child 
victims of human trafficking lawfully brought into the Juvenile Justice 
System, State District Judge Michael Schneider and Associate Judge 
Angela Ellis created the GIRLS Court.
    Everyone had the desire to handle these cases differently, but the 
team effort necessary to actually make it happen under then-existing 
circumstances was remarkable. The GIRLS Court would not have been 
created without the leadership of the judges and the willingness of the 
Harris County Juvenile Probation Department to consider the issue a 
priority in the face of budget constraints.
    The GIRLS court was created as a collaborative approach drawing 
upon the support of the judges, probation officials, other Government 
agencies, non-profit partners, the Public Defender's Office, private 
practice attorneys, and the District Attorney's Office. Many 
professionals began giving their time for weekly staffing and monthly 
review hearings with the participants and staff members, who make 
themselves available at all hours. In partnership with organizations 
such as the YMCA International, local community emergency shelters, and 
the Children's Assessment Center, existing services and specialized 
programs were created.
    Most of the children in GIRLS Court identified as human trafficking 
victims have been charged with other offenses, such as failure to 
identify themselves or possession of marijuana. This program diverts 
them from standard probation into the GIRLS Court, which targets their 
individualized needs, and places them in facilities for medical, mental 
health, or drug treatment.
    Examples of some of these children are:
  <bullet> B, a 13-year-old girl recruited out of a local mental health 
        facility by an older teen who had been trafficked and beaten 
        with a wrench and thrown from a car. B recalled heavy drug use 
        and vague memories of men having sex with her.
  <bullet> L, who was offered a ride home by a male her friend knew. He 
        drove her home for a couple of weeks and flashed money. He then 
        asked her to make money for him and threatened her mother, 
        having looked up where her mother worked to make the threat 
        seem credible, if she refused. He took L to various cities, 
        branded her with his tattoo, and began working her in strip 
        clubs to engage in prostitution.
  <bullet> P was taken to another country and left with relatives who 
        began prostituting her in cantinas around the age of 8. Once 
        here, her mother and her mother's boyfriend prostituted her in 
        various motels. She was recovered at the age of 14, but her 
        aunts pressured her not to testify against her mother.
    Upon successful completion of the program, GIRLS Court records are 
sealed to prevent the child from carrying the stigma of a criminal 
adjudication. When age-appropriate transition to adult and independent 
living is possible, the girls are transferred to other services.
    At its creation, the GIRLS Court founders confronted the one child, 
and questioned whether enough need existed to create an entire court 
and program for such victims. A shift in juvenile intake process 
provided the answer. At this time, 190 referrals have been made for 
acceptance into GIRLS Court. This population breakdown is 57% African 
American, 26% Hispanic, 16% White, and 1% Asian. The court has only 
been able to accommodate 34 participants. Of those, 12 have 
successfully completed, 3 are on runaway status, and 19 remain on 
treatment schedule in the program.
    In addition to the youth participating in the GIRLS Court, the 
Harris County Juvenile Probation Department has an assigned supervisor 
that monitors several of the human trafficking cases that present to 
the Department that are unable to participate in the GIRLS Court 
program. This supervisor assists these youth by making referrals to 
needed services like the YMCA International, group and individual 
counseling, and psycho-educational training about human trafficking. 
This supervisor currently has a caseload of 74 youth.
    GIRLS Court participants speak of wanting to become attorneys or 
probation officers in order to impact and rescue others like them. 
Success is when the girls perceive, voluntarily, that they are no 
longer controlled or supervised by the program but see themselves as 
part of the solution. GIRLS Court represents a common-sense solution 
and a collaborative approach with the vision of breaking the cycle of 
abuse and recidivism.
    the revolving door of prostituted adults and possible solutions
    The Texas Legislature has also taken important steps toward 
encouraging reform in the area of adult prostitution.
    Like many others, my thinking about prostitution shifted with 
understanding. As a proud native Houstonian, I did not know what human 
trafficking was, much less know (or want to believe) that our city was 
a hub for it. Yet, strip clubs, parlors, and gentleman's clubs are 
commonplace in our city and there is little talk of the probable 
criminal activity occurring inside.
    Prostitution is glamorized with portrayals in movies like Pretty 
Woman. Unlike the appearance of Julia Roberts, these women are rarely 
``attractive''; instead, they wear the scars of drug use and violent 
times on the streets.
    In response to our wanting to ensure they knew the activity was 
illegal, recommendations for repeat offenders were increased. State 
laws allow for the enhancement of misdemeanor charges to felony charges 
and incarceration in State jail and prison facilities.\7\
---------------------------------------------------------------------------
    \7\ See Texas Penal Code  43.02.
---------------------------------------------------------------------------
    The Texas Legislature recently recognized that incarceration of 
such offenders is costly; the average annual cost to house an offender 
in ``State jail is $15,500'' and an annual cost of ``$18,538 for State 
prison.''\8\ In contrast, prostitution rehabilitation programs are 
``identified as a viable, cost-effective, rehabilitative alternative to 
incarceration, at a much lower cost to the taxpayer of only $4,300 per 
year.'' The ``high recidivism rate among this population signifies 
incarceration'' has not been effective to break the cycle, which 
``often come from long histories of abuse, neglect, and addiction.''\9\
---------------------------------------------------------------------------
    \8\ See 83(R) Texas Legislative Session, Texas Senate Bill 484, 
Bill Analysis, 2013.
    \9\ Id.
---------------------------------------------------------------------------
    Many examples exist of adult prostitution defendants trapped in the 
costly revolving door of criminal conduct:
  <bullet> V is a 58-year-old arrested 40 times, 32 for prostitution, 4 
        for pimping.
  <bullet> C is a 48-year-old woman arrested 59 times, 49 for 
        prostitution, the others for drug-related offenses and 
        endangering by ``leaving her small infant children.''
  <bullet> M is a 39-year-old with 39 offenses throughout 4 States 
        since the age of 18.
    Unfortunately, prior prostitution convictions may hinder these 
women from believing that they have any alternative. Some even 
understand that taking a conviction will result in a life-long criminal 
history for a crime of moral turpitude, yet they are willing to do it 
for their pimp, either out of fear or perceived love.
    Most of these women are stuck in a life they were brought into as 
children. For example, a 19-year-old described being in the Game since 
running from CPS at the age of 13. She described in matter-of-fact 
terms running naked to the door for the mailman at the age of 3, with 
her father running naked behind her, having sexually assaulted her. In 
and out of the CPS system and jail, and having been traded or moved 
from pimp to pimp, she is looking for something better. Today, she has 
no reliable place to turn to when she walks out of the Harris County 
Jail.
    A program illustrating the type of success possible is the Harris 
County STAR (Strength Through Addiction Recovery) Court. The collateral 
success is evident from the work of Kathy Griffin, a graduate of STAR 
Court and human trafficking survivor tirelessly dedicated to helping 
other prostituted people accomplish the same. She started Been There 
Done That, a program assisting prostituted people incarcerated in the 
Harris County Jail, with the support of Sheriff Adrian Garcia. Her 
ability to empathize speaks to them in a language they understand and 
opens doors to recovery.
    To that end, Texas passed legislation requiring all counties to 
adopt a program similar to GIRLS Court for juveniles and to create 
Prostitution Prevention Courts for adults. However, unfunded mandates 
or insufficient grants often result in either taking funds from another 
child or program in need or the failure to implement programs for lack 
of funds. The concern is that such policies will result in a 
disincentive to ``discover'' the population in order to avoid the 
budget problem. Federal assistance for such programs is needed.
       human trafficking as an international criminal enterprise
    Human trafficking business enterprises are set up like layers of an 
onion. They are extremely organized and attempt to operate in the most 
untraceable form, on a cash basis. They separate and divide 
responsibilities and attempt to create distance and plausible 
deniability, not only within cities, but across the country. We see 
international girls brought across State lines and rotated among major 
cities.
    A multi-billion-dollar industry, human trafficking as a business 
enterprise is also hidden in plain view. Concealed larger prostitution 
operations are found in massage parlors and spas. A typical location 
might operate within a strip center. You cannot see inside. The windows 
are blacked out, but a sign flashes ``open.'' The workers, 
predominately women, are kept inside and surveillance cameras monitor 
the exterior and interior. Cameras may be monitored off-site allowing 
others to remotely wipe digital recording and equipment systems as they 
see raid teams approach.
    Workers often do not leave the facility: The business premises 
often include a kitchen, shower, and a room lined with beds where 
workers sleep. Workers provide sexual services to whoever walks in the 
door, 24 hours a day, 7 days a week. A storage area holds workers' 
suitcases, some still marked with travel tags from recent flights and 
workers already hold a ticket for their next destination. They describe 
being recruited by one person on the phone, picked up by another at the 
airport, and being dropped off at the business. Others stop by to pick 
up the cash and they describe the management as very smart, warning: 
``You will not find them.'' Ledgers and bank records show thousands of 
dollars in cash being deposited and funneled through multiple accounts 
throughout the United States or wired abroad.
    These women may have a debt to pay or may have been promised a 
legitimate job, but when they arrive, an outfit, such as suggestive 
lingerie, is provided and they are instructed that in order to make 
more money they have to give ``extra'' services. One woman let us know 
that she did not want to commit prostitution, but that she lost a 
legitimate job and a debt holder against her family, out of this 
country, connected her with the spa to make sure she could keep paying.
    These workers often may have lawfully entered the United States on 
a student or work visa. Some have false identification or no 
identification. Often they speak no or limited English. Prostitution 
enterprise raid operations uncovered internet advertisements listing: 
``4 young Asian Staff to pick from,'' ``all new Asian staff,'' and ``we 
have NEW GIRLS every week!''
    The pressures of being in a criminal enterprise, coupled with 
cultural pressures, play a role in their not speaking out against their 
exploiters to law enforcement.
 law enforcement's challenges and the need for increased collaboration 
                        to prosecute exploiters
    The Texas Human Trafficking Prevention Task Force recognized Texas 
must do more to reduce the supply and demand by prosecuting both the 
pimps and johns who exploit them. For example, in 2009, only 10 people 
were sitting in prison--State-wide--for having pimped children.
    The Harris County District Attorney's Office is answering that 
call. Today, Mike Anderson's commitment continues with the leadership 
of Harris County District Attorney Devon Anderson. District Attorney 
Anderson is in the unique position of being a former prosecutor, a 
former Judge presiding over the STAR Court, and one of the founding 
attorneys representing children on GIRLS Court. She has unique 
sensitivity to the complicated nature of the offenses and their 
victims, as well as first-hand experience with these Courts.
    While Houston is a hub, our problem is not entirely local. We see 
pimps from other cities bring their girls to Houston, especially for 
big venue events such as All Star and championship games. Human 
trafficking crosses State and international lines and increased 
communication among all governmental agencies is needed.
    Our dedicated position allows a central location where both local, 
State, and Federal prosecutors and law enforcement are able to reach 
out 24 hours a day with cases for review, investigation, and 
prosecution. Implementing such an approach is time-consuming and 
requires training and outreach and additional work by District Attorney 
Office prosecutors and investigators.
    The approach is leading to identification of co-defendants and 
victims who are passed among pimps or transported from other counties 
or States. We are also recovering additional evidence resulting in 
increased prosecutions of johns, pimps, and owners.
    While these connections are being made among individuals, 
systematic protocols are needed to enable better collaboration. An 
example of this need is the recovery of a 15-year-old child victim who 
was placed in a non-secure CPS facility and ran because law enforcement 
was unable to correctly identify the child and was unable to 
communicate with another county. If proper methods of identification 
and communication had been in place, officers would have been able to 
identify that child and know the child was lawfully under supervision 
by another juvenile justice system. That child would have been taken to 
a secure juvenile justice facility to hold until the proper county 
could pick up the child.
    Another example involves an international defendant/potential 
victim and witness in pending court proceedings in Harris County who 
was subject to a court subpoena to testify against a business owner. 
Despite communication with one Federal agency, she and another 
international defendant/potential victim and witness were allowed to 
leave the country, with one taken to the airport by Federal authorities 
after a bail bond was posted by a person connected to the prostitution 
enterprise. Increased communication and collaboration of the multiple 
interests of local, State, and Federal authorities is critical.
    When given an opportunity to prosecute at a State level, Texas has 
strict statutes against human trafficking, sexual assaults, compelling 
prostitution, and aggravated promotion of prostitution. High punishment 
ranges allow juries the flexibility to see that justice is done.\10\
---------------------------------------------------------------------------
    \10\ See Texas Penal Code Chapters 20, 21, 22, and 43.
---------------------------------------------------------------------------
    Juries are responsive to these cases. For example, our office 
prosecuted Mark Anthony Kentish for pimping a 15-year-old child and a 
jury found him guilty and assessed his punishment at 45 years in 
prison. This case and investigation started with a routine traffic stop 
by a new patrol officer, but because he had been trained to spot signs 
of human trafficking, he handled the case appropriately and recovered 
the child.
    Resources are needed to train law enforcement to better identify 
whether a challenging suspect is actually a victim. Misidentifying 
victims as offenders affirms training by exploiters that society will 
see these girls and women as ``nothing more than a whore'' who ``won't 
be believed.'' Removing the person being prostituted without any 
consequence to the pimp simply creates a vacuum in which the pimp will 
go out and find another human being to fill the void.
    We are making progress and using every tool available to send a 
message that Harris County will no longer tolerate being a hub of this 
modern-day form of slavery and to let exploiters know there is a 
significant cost of engaging in this business. However, typical 
evidentiary challenges exist similar to other criminal enterprises: 
Exploiters use false identification, burner phones, vanilla prepaid 
credit cards, or ``straw buyers'' to subvert identification 
requirements. There are internet sites for johns in which they 
anonymously rate and discuss the sexual services.
    Training and resources for local, State, and Federal law 
enforcement officers is critical to identify operational methods and 
collect evidence for prosecution.
 recovery by law enforcement and collaboration of all in the criminal 
                             justice system
    Irrespective of their location, recovery of these victims by law 
enforcement means that many of the people we are trying to recover come 
to our attention as defendants. Criminal laws against prostitution and 
local and county ordinances against sexually-oriented businesses 
provide a vehicle for officers to make an arrest or recovery of 
victims. Last year, some 190 such cases against sexually-oriented 
businesses have been filed in Harris County. These ordinances and cases 
also help efforts by County Attorney Vince Ryan and the County 
Attorney's Office to shut down business enterprises through civil 
nuisance lawsuits.
    The hope is the arrest gives the potential victim an opportunity to 
be physically removed from enslavement and an opportunity to reach out 
to law enforcement for help. However, the complicated nature of viewing 
those recovered as both offender and victim makes this work difficult. 
For example, a 17-year-old child in Texas legally may be prosecuted in 
misdemeanor court as an adult yet also be the child victim of a pimp 
who is compelling prostitution of one under the age of 18 years old. 
The difference between knowing if someone over 18 years of age is 
willingly breaking the law and committing prostitution or is being 
compelled by force or threat is dependent upon the strength and quality 
of the investigation and the victim's willingness to self-disclose.
    Law enforcement knows as well that, upon arrest, pimps or owners 
attempt to bond out their girls to keep them working or ``in pocket'' 
while charges are pending. Additionally, once the right to counsel 
attaches, communication with the defendant/potential victim is only 
accomplished with the assistance of counsel. At that point, 
communication with law enforcement is either aided or hindered. Some 
defense attorneys play a key role by understanding and advocating the 
significance of a criminal charge, availability of defenses, services, 
and certain legal status protections, such as U and T Visas, allowing 
cooperation. In other instances, however, counsel might be hired by the 
exploiter.
    Significant resources exist to assist victims. Trying to convince 
someone to cooperate and their not agreeing to do so is like watching a 
person drown while holding a life preserver. In one circumstance, a 
defendant was accompanied to court by a ``driver'' and ``translator'' 
who advised the attorney that she wanted to plea guilty. However, when 
questioned by the judge and a court interpreter, that was not what she 
wanted. Yet, she remained unwilling to cooperate with law enforcement. 
The cultural, financial, and other pressures on these girls and women 
not to cooperate makes it critical that we have the evidence to make 
the cases without their cooperation, where possible.
                 raising community awareness and action
    Some suggest that the increased awareness of human trafficking as a 
problem is actually an attempt to prohibit consensual sex. That 
argument falsely implies that both parties are consenting. The reality 
is that one party is not consenting when that party is a child, is 
mentally deficient, or is meeting a financial quota for another in fear 
of physical abuse or threat of harm to themselves or others. 
Identifying the distinction is the challenge we all have accepted.
    This issue is complex and addressing and combating it requires in-
depth investigations and prosecution of exploiters, along with services 
for the victims. Accomplishing these tasks successfully requires the 
assistance and cooperation of multiple governmental agencies, non-
profits, and our community at large. Increasing awareness of the damage 
that human trafficking is doing to communities is a key.
    Here in Houston, many organizations have joined this fight. Houston 
Rescue and Restore, Children at Risk, the Catholic Charities, Free the 
Captives, and YMCA International are among many local organizations 
that help us raise awareness of the problem, bring compassion to 
victims, and join us in seeking solutions.
    With our continued work with local, State, and Federal law 
enforcement to protect victims and prosecute exploiters, we will bring 
these cases to local juries and give them the opportunity to set the 
standard for our community. We believe strongly that they will not want 
Houston, Harris County, Texas, to continue as the major hub for human 
trafficking and that these juries will see that justice is done.
    Our work is just beginning, Congressmen, and we need your help.

    Chairman McCaul. Thank you, Ms. Johnson. You are truly 
doing the Lord's work, and we appreciate that.
    The Chairman now recognizes Chief McClelland for 5 minutes.

STATEMENT OF CHARLES A. MC CLELLAND, JR., CHIEF, HOUSTON POLICE 
                   DEPARTMENT, HOUSTON, TEXAS

    Mr. McClelland. Thank you very much, Chairman McCaul. 
Certainly I want to thank the Ranking Member, Congresswoman 
Sheila Jackson Lee for this important panel and this important 
topic and allowing me the opportunity to represent the Houston 
Police Department and what we are doing here.
    I will submit my testimony, my written statement as my 
testimony. But I would like to touch on a few topics related to 
this issue that I think that are very, very important.
    No. 1: What is the size and scope of the problem here in 
Houston in Texas?
    No. 2: Why is Houston an attractive hub for human 
trafficking?
    No. 3: What are we doing here in the Houston Police 
Department in Houston to address this issue?
    A couple of success stories and how can the Federal 
Government help.
    According to the National Human Trafficking Resource 
Center, Texas is the No. 2 State, behind California, when it 
comes to reported cases and allegations of human trafficking. 
Houston is the No. 1 city for those reports. Houston is the 
largest city in Texas. It has close proximity to Mexico. It has 
a large airport, international airport, large seaport, 
international seaport. The I-10 corridor stretches from the 
West Coast of the United States to the East Coast. U.S. 59 
stretches from Mexico to Canada. It has a large population of 
runaways. It is a diverse community. We have a robust economy 
that is attractive for labor and also a large sex industry. 
Those are some of the reasons why Houston is a hub and very, 
very attractive for human traffickers.
    What are we doing here in Houston? Well, several things. 
The Houston Police Department has dedicated an entire unit that 
started March 1. It is dedicated to human trafficking only. 
Now, the Vice Division has always addressed human trafficking 
and those that are being exploited in the sex industry. Every 
Houston police officer is being trained to recognize and 
investigate incidents of human trafficking here in this city. 
We have members of the Houston Police Department on Federal, 
State, and local task forces, liaisons to the U.S. Attorney's 
Office, liaisons to the Harris County District Attorney's 
Office. We have their cooperation and certainly we liaison with 
all of the nonprofit groups that assist us in rescuing these 
victims of human trafficking.
    To educate the public. The city of Houston started a 
website, Shine a Light on Houston, to educate just individuals 
in the community, signs and evidence of human trafficking and 
how to report that to law enforcement.
    Now, a couple of success stories that I would like to talk 
about that tell you the depth of this problem and also like 
some of the challenges for law enforcement.
    There is a city about 100 miles south of Houston several 
months ago that needed some investigative work on massage 
parlors. They did not have the resources and they asked for 
assistance from the Houston Police Department. After an 
extensive investigation, we discovered that many of these 
massage parlors were located in small municipalities just south 
of Houston. It was young female Chinese nationals that were 
being exploited, being trafficked, and the proceeds were coming 
back to Houston to multiple banks here in this city. We were 
able to intervene, rescue those victims, and break up that 
operation. But my point to that story is it crosses all 
jurisdictional lines, boundaries, State lines, and 
internationally.
    The second case I would like to talk about is an 18-year-
old that was rescued by the Vice Division. She was being 
exploited and trafficked in hotels around this city and came to 
the city from another city out of State. She was stabbed and 
raped by her john. Although her injuries were not life-
threatening, but she certainly needed medical attention, but 
her pimp refused to get her medical attention until she had 
made her nightly quota of the money that he expected her to 
bring in.
    Now, what can the Federal Government do to help us here 
locally?
    No. 1, I think we need a National and regional database of 
suspects and individuals that are involved in human 
trafficking. Although we have collaboration and data sharing, 
we need something that is web-based like the law enforcement 
on-line system, and I think that the Federal Government should 
take the lead in that to make sure that individuals who are on 
these task forces and who are charged every single day to 
interdict and intervene in these cases have access to 
information across the country.
    No. 2, there are many resources that are available to 
juveniles that are being trafficked. The average victim starts 
their life and a victim of human trafficking at the age of 12. 
Many of the individuals that we rescue and come in contact with 
sometimes are 18 to 21. There are very little resources to 
support adults in that age range. Most of the resources and 
nonprofits certainly have more resources geared toward 
juveniles. So that is something that is a gap in our system 
that needs to be tightened up.
    Last, I would urge all of you to support and pass 
legislation proposed by Senator Cornyn and Congressman Ted Poe, 
the Justice for Victims of Trafficking Act. It is very, very 
important that we do that so we can have seamless enforcement 
across the country.
    Thank you very much.
    [The prepared statement of Mr. McClelland follows:]
            Prepared Statement of Charles A. McClelland, Jr.
                             March 20, 2014
    Chairman McCaul and Members of the committee, I would like to thank 
you for the opportunity to appear before you today and discuss this 
extremely important issue which challenges us all on every level--
global, National, State and local.
    For several years now, statistics on human trafficking have 
consistently shown the State of Texas to rank at or near the top of 
reported incidents to the National Human Trafficking Resource Center 
(NHTRC). Additionally, the city of Houston is most commonly referred to 
as a ``hub'' for human trafficking with reports to the NHTRC Hotline in 
Houston far exceeding those of any other city in Texas.
    There are many factors here in Houston that come together to make 
this city a ``perfect storm'' for human trafficking, including but not 
limited to:
  <bullet> Major international airport;
  <bullet> Major international shipping port;
  <bullet> Largest city in Texas and closest to the Mexican border;
  <bullet> I-10 corridor which stretches from the East to the West 
        Coasts;
  <bullet> US-59 corridor which runs from Mexico to Canada;
  <bullet> Popular location for minors to runaway;
  <bullet> Large sex industry with limited regulations;
  <bullet> Constantly expanding population creating a constant need for 
        labor.
    In order to help combat this scourge on our community, I recently 
authorized the formation of the Houston Police Department's Human 
Trafficking Unit (HTU) within the Vice Division. The formation of the 
HTU was intended to consolidate the Department's resources into a 
single unit for better tracking, quicker response, and more thorough, 
focused investigations involving human trafficking. In addition to the 
HTU personnel working within the Vice Division, this new unit also 
consists of:
  <bullet> 2 officers assigned to the Houston Innocence Lost Task Force 
        (HILTF) which investigates domestic human trafficking cases, 
        and
  <bullet> 2 officers assigned to the Harris County Human Trafficking 
        Task Force (HTTF) which investigates international human 
        trafficking cases.
    Additionally, the HTU is currently in discussions with U.S. 
Department of Homeland Security's (ICE) Human Trafficking Unit to share 
resources and data. HPD's efforts to combat human trafficking are NOT 
just limited to the formation of the new HTU. The entire Vice Division, 
which is made up of over 65 Classified and civilian personnel has been 
reorganized to focus on investigating and combatting human trafficking. 
On a broader scale, all HPD Classified officers throughout the 
Department have, or are currently being trained to identify and 
investigate human trafficking, both in the sex industry and the labor 
industry. Finally, the HPD is working diligently to establish and 
nurture relationships not only with area law enforcement agencies but 
with rescue and support organizations such as Polaris, the YMCA, 
Catholic Charities, and the Houston Rescue and Restore Coalition.
    For years, the city of Houston has fought countless legal battles 
with various sexually-oriented businesses in an effort to regulate this 
industry. Late last year, Mayor Annise Parker, with the aid of the 
city's legal department took a bold step and entered into a settlement 
agreement of multiple long-standing lawsuits with several area strip 
clubs. As part of that settlement agreement, these strip clubs can no 
longer operate ``private'' rooms which are well-known to be the 
locations where various criminal acts including prostitution and 
narcotics take place, and where under-aged girls are hidden away and 
victimized. This agreement is still in its infancy and considered 
controversial by some, but the efforts to force members of the sex 
industry to take responsibility for helping to eradicate human 
trafficking on their own properties has, so far, shown many positive 
results.
    The Houston Police Department's dedication to combatting human 
trafficking can best be illustrated in two very recent cases. The first 
case involved a request for assistance by a local police agency about 
100 miles south of Houston to aid in the investigation of a possible 
human trafficking ring operating a couple of massage parlors in two 
separate municipalities. The investigation resulted in the dismantling 
of an organized group that was trafficking female Chinese nationals for 
prostitution. The operations were being conducted in these two cities 
while the money was funneled through multiple banks accounts in 
Houston. This case serves as a great example of the need for law 
enforcement to work on a ``regional'' level to combat human trafficking 
in their jurisdictions.
    The second recent case involved an 18-year-old female victim of 
human trafficking who contacted the NHTRC hotline asking for help to 
escape her violent pimp. The young victim had been forced to have sex 
with a ``john'' who ended up stabbing her and leaving without paying 
her any money. While her injuries were not life-threatening, she did 
require medical attention for her injuries; however, the pimp refused 
to take her to get medical treatment until she earned him more money to 
make up for the money that the previous ``john'' did not pay. Vice HTU 
personnel received the information from NHTRC personnel, and were able 
to contact, locate, and rescue the young female, and also arrest the 
pimp and charge him with felony compelling prostitution. The young 
victim was reunited with family members that day by Vice HTU. This case 
serves as a great example of how law enforcement and non-governmental 
organizations can successfully work together to not only rescue the 
victims of human trafficking, but to also arrest the perpetrators of 
this crime and to get them off the street and away from the other 
victims we know are still out there.
    I would like to close my testimony by responding to a question that 
was posed to me by Congresswoman Sheila Jackson Lee--What can the Feds 
do to help? I have three responses to this very important question.
    First, one of the biggest limitations on the ability of area law 
enforcement agencies to successfully combat human trafficking in and 
around Houston is our lack of ``data sharing.'' The persons and/or 
groups that are committing these crimes are not limited by our 
jurisdictional boundaries. We (local law enforcement) need the Feds to 
build a Human Trafficking Regional Database in LEO (Law Enforcement On-
Line), accessible only to Vice/HT Task Force personnel to store, share, 
and search data on all aspects of Houston-area Human Trafficking 
investigations. LEO is a web-based program that is accessible to 
Federal, State, and local law enforcement officers and can be ``silo-
ed'' or restricted to only certain law enforcement personnel. This 
would allow Human Trafficking investigators from all over the Houston 
area to have immediate access to not only their Department's data, but 
the data from other area agencies to better coordinate their 
investigations with each other in a much more effective and efficient 
manner. The technology to accomplish this is already there, and I am 
asking for the Feds to take the lead in this matter.
    Second, most statistics indicate that the average age of a female 
when she is first victimized into Human Trafficking is 12 years old. 
For this fact alone, it is obvious why the majority of Federal 
investigations/prosecutions of human trafficking involve ``minors'' 
(those under 18yoa). However, many of the females that my officers are 
encountering on the streets, in the massage parlors and strip clubs, 
and on the internet sites are typically age 18-21. We know from 
experience that while these young women may be adults now, they have in 
all likelihood been under the control of a pimp/trafficker for many 
years. We need to take definitive steps to ensure that this group of 
``victims'' does not fall through the cracks because we are focusing on 
the minors by ensuring that the laws we pass and the support/assistance 
we establish is also available to these young women.
    Finally, there is proposed legislation in Washington being 
sponsored by Houston area Congressmen including Senator John Cornyn and 
Congressman Ted Poe, ``Justice for Victims of Trafficking Act.'' This 
is very important legislation and is worthy of your consideration and 
support.
    Again, I would like to thank Chairman McCaul and each of the 
committee Members for coming to Houston to address this very important 
issue. I thank you for your time, for your efforts and most of all, for 
your leadership.

    Chairman McCaul. Thank you, Chief, for that powerful 
testimony.
    The Chairman now recognizes himself for 5 minutes for 
questions.
    I want to first take this opportunity to commend the 
Houston Police Department, ICE, HSI, a great Federal/local law 
enforcement operation in shutting down a stash house that held 
over 100 people in that stash house hostage essentially under 
very, very horrific conditions. I just want to give this 
opportunity both to you, Mr. Moskowitz and Chief McClelland, 
to, if you can, tell us what you can about what happened 
yesterday.
    Mr. Moskowitz. Thank you, Mr. Chairman, and I appreciate 
your comments and I will be sure to pass on your appreciation 
to the probably 20 or 30 agents that responded and worked 
through the night, may still be working hopefully not until 
they wake up, though, and get some rest.
    But this is a case that started for us, for HSI, yesterday 
afternoon based on the long-standing relationship that our 
agency has with Chief McClelland's agents and detectives. I 
will let him talk about what they were doing.
    But basically they came to us as part of their 
investigation after they entered a home that was filled with 
what they believed to be people unlawfully in the country. We 
responded and spent all night interviewing, processing the 
scene. We identified and recovered 115 people from outside the 
United States, as well as five subjects that are going to be 
charged in Federal court for a variety of Federal offenses, 
including hostage taking, unlawful possession of a firearm, 
conspiracy to harbor illegal aliens, and that is happening as 
we speak. So as I know you were a former assistant U.S. 
attorney, I would not want to get Mr. Magidson upset with me by 
talking about----
    Chairman McCaul. Nor do I.
    Mr. Moskowitz [continuing]. The criminal investigation that 
is on-going. So I know you all appreciate that.
    But needless to say, at this point, based on a preliminary 
assessment, this is what I talked about in my statement. This 
is an alien smuggling organization. This is human smuggling at 
this point.
    Now, does that mean that at some point in the future the 
people who were smuggled in could wind up as trafficking 
victims? Absolutely. That possibility always exist, although we 
may never know it.
    But in this case, we have rescued those folks. We are 
processing them. They are given an opportunity to seek guidance 
and help and assistance and legal counsel. They will be told 
about the options under Federal law for relief to potential 
victims.
    Now, again, they are not trafficking victims. They are not 
eligible at this stage for what we call continued presence, 
which is something that we give as ICE, or a T visa which is 
for severe victims of trafficking, but this U visa option will 
be explained to them. Now, I realize there are challenges with 
that. That is a process that is handled by USCIS, but that is 
all going on as we speak.
    So I am going to turn it over to the Chief.
    Chairman McCaul. Please relay our sincere thanks to your 
men and women.
    Chief.
    Mr. McClelland. Well, thank you very much. Certainly I am 
very, very proud of the men and women of the Houston Police 
Department who responded to this incident.
    Although this is an on-going investigation, the information 
did come to the Houston Police Department that someone's life 
was in jeopardy and this was a kidnapping case. In instances 
such as this, we act immediately on tips or information 
involving kidnapping, which triggered a coordinated response 
from the Houston Police Department. Those cases are immediately 
investigated by the Homicide Division and they coordinate it 
with the Vice Division, our Criminal Intelligence Division, who 
do electronic surveillance and other things to support the Vice 
and Homicide Division. In this particular case, we received 
credible information and obtained a location where we believed 
that someone's life was in jeopardy, and we entered a structure 
under exigent circumstances.
    This is the result of what we found, over 100 people 
stacked on top of each other literally, living in locked-in 
squalor. The individuals could not get outside of the 
structure. It had deadbolt locks that was locked from the 
outside. So they were just being captive as human hostages or 
slaves.
    Although I agree with Brian, this is certainly a smuggling 
case and many of these individuals could end up in a 
trafficking situation. But this is a typical smuggling case. 
There are many times and oftentimes that we get information and 
tips that lead to the results of finding someone that is being 
held hostage, normally not 100, but sometimes 2 to 3 to 4 to 5, 
but the MO is the same. The trafficker or smuggler is paid half 
the money up front to get the person into the country and the 
other half of the payment is to take place but the coyote or 
the smuggler always raises the price.
    Chairman McCaul. A job well done.
    Mr. McCraw, you and I have spent a lot of time at the 
border. I know last time the Rio Grande sector. Down there I 
saw the smuggling of illegals across the border, many children 
in very horrific conditions. Many of them actually do not make 
it. They are told Houston is that way, and they have no 
guidance and they die in the desert.
    I understand there is a difference between smuggling and 
trafficking, but I thought your testimony was powerful in terms 
of there is not always a clear-line distinction. Sometimes the 
lines are blurred and what may start out as smuggling, as the 
Chief mentioned, can evolve into a trafficking situation where 
they are exploited for labor and, unfortunately, for sex. Could 
you comment on that?
    Mr. McCraw. Yes. We do not really care. At the end of the 
day, they are victims.
    I will agree that there are some prearranged agreements, 
and the coyotes will follow through. It is a quid pro quo 
business. It is a clear smuggling event. The challenge you 
have, especially when you have unaccompanied children or 
children they are moving forward, they may be a part of an 
overt conspiracy to move them into sex slavery. So you do not 
know. When they are being smuggled, you do not know what the 
ultimate goal is in terms of them coming in.
    But I will say this. Any time when the business model of 
the smuggler is to hold them hostage--literally hostage, as the 
chief said--and ransom them back to family members, threaten 
them with cutting off parts and so forth and so on, and then 
either beating and, on many occasions, sexually assaulting the 
females that they are holding in place, is that smuggling or is 
that trafficking? Whatever it is is wrong, and certainly they 
are victims and they ought to have the same rights as any 
victims in those situations. It is important to prosecute to 
the fullest extent possible those individuals that were 
involved in that smuggling/trafficking aspect.
    Chairman McCaul. I could not agree with you more. I think 
part of the exercise here is to determine what can we at the 
Federal level do to help. Chief McClelland, you outlined a 
couple of excellent points.
    Agent Moskowitz, what can we do to help you in your 
efforts?
    Mr. Moskowitz. I mean, I think the most important aspect of 
this crime for us really centers around that victim and the 
education and awareness of this crime. I think the reason you 
are seeing a lot more attention to this is because our 
collective agencies and departments have done a good job of 
educating the public that this is a problem, and the more you 
look, the more you find. But working here to build awareness 
through public campaigns--that plays an important role or 
working overseas with countries where this crime originates in 
many places, developing awareness down there as to the crime, 
and than talking about what rights people have are important 
things. This is really again victim-centric.
    I understand what Steve is saying about I do not care, but 
in our world and the laws that you passed, we are bound by 
those definitions. So as horrific as some of these things are, 
if you are chained to a wall and beaten, unless it meets the 
elements in the laws that you passed, it is not trafficking 
under the Federal level and our hands are tied. So we need to 
change the definition.
    Chairman McCaul. Maybe that is something we need to 
address. We will take a look at it.
    Last, I will just conclude. I know we have a lot of other 
Members here. The 2017 Super Bowl is coming up. I visited with 
the New Jersey police on the Super Bowl up there, security 
measures. Obviously, it attracts a lot of these trafficker 
types, and I would hope that, in working with you, we can 
prepare for that to minimize that from happening in the Houston 
area at that time.
    So with that, the Chairman now recognizes the Ranking 
Member, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you to the witnesses for provocative testimony.
    I am not sure if I am between outrage and optimism, outrage 
because of the horridness of human trafficking.
    First, let me thank you, all of you, in your respective 
positions.
    But frankly, this was placed at our desks, and I believe 
that this is an important statement, that there is a journal 
that says ``Slavery Today.'' Frankly, if I might just share 
with you, according to the International Labor Organization, 
United Nations agency, almost 21 million people world-wide are 
victims of modern-day slavery in the form of forced labor or 
commercial sexual exploitation, with the majority of these 
victims being women and girls.
    With respect to the United States, the Federal Government 
believes there are 17,500 persons trafficked into the country, 
but the numbers are low because they do not know how to account 
for them.
    I think, Chief, if I was correct in hearing your point or 
Ms. Johnson, the point was that we get less than .4 percent. Is 
that correct? The State Department says that we get less than 
.4 percent. So the numbers exponentially are growing.
    My optimism is I do believe that we can find a way to end 
this, and it does include the fine work of ICE and all of you, 
but it does include resources and education.
    So let me try to pose.
    As I indicated, I thank the Chairman. I do believe that 
Homeland Security has a mark in this, and it looks as if we are 
gleaning some of the ways that we can collaborate on 
legislation already offered.
    So let me pose a question to ICE. Sometimes this multi-
billion business is weapons, narcotics, and trafficking. Can 
you just say how this interweaves with--your responsibility 
obviously is the internal enforcement when individuals come to 
do harm here in the United States. How do you see that playing 
on each other and how should we be looking to separate and to 
have a concerted effort against breaking up these conglomerates 
that fund these kinds of illicit activities?
    Mr. Moskowitz. I think, first of all, I want to start off 
by saying that as part of our DNA, as part of our training, as 
part of what we do every day, the welfare of the victim is 
paramount. So all our agents, regardless of whether they are 
investigating international drug smuggling organizations, 
international weapons smuggling, organized crime, money 
laundering, they have had exposure and awareness to the concept 
of victim first. So because ICE and HSI is an entity that 
enforces hundreds of various Federal laws in some of the areas 
I just mentioned and many others, by the things we do every 
day, we are dismantling the organizations that are responsible 
for these crimes.
    So whether an organization today is moving heroin into the 
United States or sending illicit technology overseas or 
trafficking in counterfeit parts, we know that criminal 
organizations are profit-driven and seek the path of least 
resistance. So an organization, especially in the drug and 
human smuggling area, could morph over to human trafficking 
endeavors. So our approach is going after organizations. So if 
we disrupt them and we make it too difficult in one area, we 
would expect a shift to an area that they feel is less of a 
threat to them.
    So we need to keep the pressure on, and that is why we work 
all these programs. We have investigations in all those areas I 
just mentioned with the hope that it will disrupt the networks 
and the organizations. The same routes that you use to smuggle 
people in who are just trying to get here for whatever reason 
are the same routes that drug couriers use. It is the same 
routes that traffickers use. It is the same routes that people 
may be using to bring money into the country or out of the 
country.
    Ms. Jackson Lee. So you see that they are interrelated. It 
is a conglomerate that generates and feeds on each other and it 
helps promote human trafficking if someone is dealing drugs or 
weapons, et cetera. They can use the monies and build their 
industry.
    Mr. Moskowitz. With respect to the part of human 
trafficking that is driven by money. We have not really touched 
on this, but there are aspects of human trafficking that have 
nothing to do with money. It is about those smaller individual 
cases of maybe power or control. That is not going to solve 
that part. But the part that is driven by organizations that 
are for profit, yes.
    Ms. Jackson Lee. Let me go to Ms. Johnson and Chief. You 
saw me hold up a slavery journal. I think as I was listening to 
Mr. Moskowitz and my good friend, Mr. McCraw, there was a 
coming together. But I think there is some true accuracy that 
human trafficking, smuggling--they get interrelated. There may 
be definitions, but they get interrelated.
    So let me take it to the next level. We do not like to say 
that word in the United States, ``slavery,'' but as someone is 
held and held and held and can only do what their dictator 
tells them to do or Chinese young women in massage parlors--
give me an assessment of that. I do not want to play with 
words, but we are almost at that category in some instances. 
The reason is we need to explain the horror of what is going 
on. Ms. Johnson.
    Ms. Johnson. I think one of the important things that we 
have seen in local Texas studies is that even people that were 
selling drugs, got out of selling drugs and started selling 
people because when you sell a drug, it is gone. When you sell 
a person, as long as you do not beat her to a point she cannot 
perform, she can keep on performing and keep making you money. 
That is the kind of offenses that we see, whether they are 
children or adults. They are mentally and emotionally 
manipulated into a point of believing that they do not have an 
out. Often they are groomed to believe that when they see an 
officer, that they should run from them rather to him.
    That is the important type of shift that we are trying to 
have publicly, is to let these victims know that they are 
probably coming to the attention of these officers in part of a 
criminal offense, of which they might naturally be seen as a 
defendant. But they need to know that these officers are being 
trained to recognize them differently. The law locally and the 
prosecutors also desperately want to help them out, which is 
why we want them to reach out to us so that we can help protect 
them.
    These spas are set up so that there is a room with just 
beds, and they stay there----
    Ms. Jackson Lee. There is no end.
    Ms. Johnson [continuing].Twenty-four/seven. Whoever knocks 
on the door who has money, whatever they ask for is what is to 
be provided. They physically might be able to leave the door, 
but somehow there is some restriction against them that they 
cannot get away. Hopefully the officers being there and taking 
them out can start to be the light at the end of the tunnel if 
we can have that breakthrough of communicating with them to let 
them know that they are now in a safe place and that we are 
here to try to provide them some help. It is an awful big 
challenge, and we are grateful for your support in it.
    Ms. Jackson Lee. Chief, if you would, let me just accept 
your challenge and indicate to you that we are going to be 
drafting that universal DNA--I have a DNA bill that is very 
important. I think we can also find collaborative effort on the 
U visa problem where it gets taken away the minute someone says 
no, and they might be a child and might not comprehend.
    I think Ms. Johnson just stated it. You are held. You 
cannot go. You are being used over and over again. It is almost 
like slavery.
    Mr. McClelland. Yes, ma'am. Even a more difficult form of 
human trafficking is individuals who were brought to this 
country with some type of legal status and they have a passport 
and they are in domestic servitude-type situations where their 
passports are taken, they are paid no money, and the people 
that exploited them and brought them to this country physically 
abuse them, sexually abuse them until somehow they finally 
escape, seek help. But that is a very, very difficult challenge 
for law enforcement because it is not visible. It is not as 
visible as those that may work in the sex trade or the adult 
entertainment industry, but it is still a form of slavery.
    Ms. Jackson Lee. Let me get these last questions. I thank 
the Chairman very much. Thank you very much, Chief.
    Sheriff Garcia, you might want to expand just a little bit 
on the comprehensive immigration reform, how that would help 
contain human trafficking.
    Mr. McCraw, you have eloquently spoken about it is just a 
shame about children: 440,000 children, some of whom can be in 
human trafficking. If you would comment.
    I thank both witnesses for their answers.
    Mr. Garcia. Thank you, Congresswoman Lee for your 
leadership.
    In my opinion, there has been a lot of discussion from 
people who are very, very close to the ground, the activist 
communities who are speaking on behalf of DREAMers, on behalf 
of undocumented people in our community that we know exist 
here.
    One of the prevailing things that I continue to hear is 
that folks under-report crime precisely because there is a 
prevailing discussion that law enforcement wants to find you if 
you are undocumented, not because you are a victim, not because 
you are a witness to a crime, but because you are undocumented. 
That hurts our efforts. We are in the law enforcement business 
and our business is strictly dependent on good information and 
people who are willing to testify.
    As long as that debate continues out there, as long as 
there is a question as to what is or what is not the focus of 
law enforcement, there is, in my opinion, the probability that 
people will try to make a business decision as to whether or 
not they come forward and make themselves available to law 
enforcement and what Pandora's box that could open up for them 
in their circumstance.
    So I think that comprehensive immigration reform, sensible 
immigration reform, whatever it may be, is imperative. The 
current proposals that are here I think speak to one of the 
challenges that we have and that is securing the border. There 
is revenue that would be allotted to help and secure that, but 
we've got to work many different facets towards the middle.
    Then last, I want to also just touch on one thing that I do 
not think has been said enough, and that is that we are 
speaking essentially the pressures that we are receiving into 
our homeland. But let us not forget that some of the folks that 
are victims to sex slavery and victims to--or runaways, as 
Director McCraw has talked about, that these folks do not 
necessarily stay victims within the boundaries of the United 
States. They could be exported to other parts of the world.
    Ms. Jackson Lee. Mr. McCraw.
    Mr. McCraw. Yes, ma'am. Well, obviously, you know, all 
victims are tragic, certainly in the sex industry in 
particular. Children, obviously, are easier to entice and lure, 
especially the missing children. Moreover, there is a demand 
for sex with children. The younger, the more expensive, the 
more they can charge. That is one of the reasons why they are 
targeted. That is one of the reasons why social media is being 
used because the traffickers can range from single actors, some 
individuals that focus just on sex trafficking, and the gangs 
have figured out that in the business of trafficking, just like 
was said by the assistant district attorney, is that this a 
commodity. It not like you steal a car, you sell some drugs. It 
repays itself daily. Yet the victim, if you can control that 
victim, you are at less risk in terms of being arrested.
    You know, all of it is a priority, but when you look at it 
in terms of--from the standpoint of prioritization of what we 
have to, it is to get to the extent possible--leverage all the 
resources. It cannot just be investigations. It cannot be just 
education. It cannot be just patrol. It has to be all the 
disciplines to be able to do some of these things. 
Coordination, obviously, and cooperation help in that.
    I appreciate the opportunity to address this committee 
today. Thank you, ma'am.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes my good 
friend, Ted Poe, who has introduced two bills on this issue, 
both of which I am proud to cosponsor.
    Mr. Poe. Thank you, Mr. Chairman.
    I want to thank all of you all for being here today. We got 
the best of the best, as far as I am concerned. You know, there 
is no place better than being in Houston, Harris County, Texas, 
and I think our law enforcement does the best job Nation-wide. 
I believe that. I have seen other places, but I have seen you 
all too. So thank you.
    This is a massive issue. Let me try to narrow it down and 
then get some comments from you. We have three really 
participants.
    We have got the trafficker who is in it for the money. As 
you have said, Mr. McCraw, and as Ms. Johnson has said, there 
is more money in it now than ever before, better than drugs for 
them because the drugs are gone, and the consequences are 
greater of you selling drugs. The consequences are less if you 
are this trafficker, whether you are a national or 
international. We got that person. We want to deal with him. 
Ms. Johnson, you are taking care of those folks.
    Then you have on the other end the victim, and in the 
middle, you have the demand. I want to address the victim and 
the demand.
    We have a mind-set in this country that we treat 
prostitutes, especially child prostitutes, as criminals. They 
are put in the juvenile justice system when they are arrested. 
The reason? You all do not have any place to take them. There 
are no beds. I understand from Shared Hope there are 5,000 
animal shelters in the Nation. That is great. Nothing wrong 
with animal shelters. I got one of my Dalmatians from the 
Dalmatian Rescue. But in their most recent report, they have 
less than 500 beds for child-trafficked victims in the whole 
country. So we got to treat these kids as victims of crime and 
not prostitutes.
    I am no psychiatrist, but I did spend a lot of time on the 
bench and prosecuting the crooks too. But you take that victim 
and you put them in jail, even though they are not a criminal 
and we know they are not a criminal, that does not help them 
down the road. They are already labeled. With all of our 
openness and records and all, that child is going to have a 
criminal record, and they are always going to have a criminal 
record. So we have to work on that end and rescue them first. 
So, hopefully, we can do that working with you all.
    I have seen the victims in Central America. I think in this 
latest raid, almost all of the people that were brought in 
yesterday were from Central America. They are not from Mexico. 
I have been to Peru, South America. In fact, I met a girl, 13, 
that was trafficked in Peru. Her name was Lily. She gave me 
this armband so I would not forget her. She was trafficked in 
her own country, then to Guatemala, Honduras. They have 
trafficking issues there. Many of those girls show up in the 
United States. Some of them do not, but many of them do.
    Then we have the issue of girls in the United States who 
are runaways, throwaways, and stolen-away that we have to deal 
with. But they are all victims of crime, and we have to 
recognize them.
    They are hard victims to work with. These are very 
difficult people. God bless folks like Dr. Sanborn over there 
who is trying to help these kids.
    But that should be our National focus and mind-set with the 
community that these are victims of crime. I agree with you, 
Mr. McCraw. It does not make any difference where they are 
from. That should not be the first question we are asking them. 
We should ask what happened to them and try to rescue them.
    On the victims, we have to communicate this concept of the 
U visa, and if we have to fix it and make it better, Sheriff, 
because as you know, these traffickers and these slave owners 
will tell these young people I will get you deported if you 
call the police. They cannot get them deported. In fact, they 
are the ones who are going to get deported after they go to 
prison. But they believe it. They do not call. It is a cultural 
thing. We have to change that so they call the police and then 
law enforcement works with the Feds and we make sure that they 
are not going to get deported for reporting a crime of human 
slavery.
    So we need to work on that. Your advice on how we can do 
that is important to this committee.
    But last, I do want some comments from you. Talk about the 
demand. That is the issue I think. It is an economic issue for 
the trafficker, but there is a demand. I do not call them 
``johns.'' I mean, John, you know, he was a good guy. He is 
from the Bible. Why do we call them ``johns''? We ought to call 
them child abusers because that is what they are. They are the 
child abuser. I think the weak link in the law is the child 
abuser, going after them.
    In many jurisdictions, we do not print their names. We just 
put their initials. Hey, it is time to expose them, and they 
need to go to prison and they need to be exposed. I think part 
of their sentence ought to be--talking about backpage. We ought 
to be putting their photographs on backpage after they are 
convicted so the world knows who these child abusers are.
    But the bill that the Chairman has been gracious to talk 
about that I have sponsored goes after the demand and gives 
them equal punishment to the trafficker, but also makes them 
pay the rent on the courthouse in the sense that these Federal 
judges can fine them fees that goes into a fund that helps the 
victims of the crime so they have services that they do not get 
at this time.
    So any input, Sheriff, on just the general dynamics of 
trying to focus on the demand and then after the trafficker as 
well?
    Mr. Garcia. Congressman, thank you. You are on point. We 
would not have this conversation if there was not a demand for 
the commodity of human bodies in this horrible industry.
    You know, part of the strategy that we use is as soon as we 
do an operation, we post and we share with the media the mug 
shots of all the people that we are arresting, hoping to 
prevent the next set of horrific circumstances.
    This is why I have been concerned about the fact that when 
we--as a law enforcement agency, you talk about a runaway. You 
know, it is not going after a bank robber. It is not going 
after a drug dealer. It is not going after a human trafficker. 
But we are dealing with sort of a peripheral issue. I think we 
have to elevate the severity of what a runaway is and the fact 
that a runaway gone longer than 24 hours becomes exponentially 
more at risk of becoming a prostitute, boy or girl, and a drug 
addict. Either way, they are likely to end up in the same 
place, either in horrible hands or in a county jail.
    So I think we have to really reinvent the challenge that 
runaways--how they fit into this whole circumstance. I think 
this will help us address the issue of demand. The faster we 
can recover these folks that have disappeared out of our 
communities, the quicker we can take commodities off the 
streets and make it difficult for people who have that desire.
    But all your help in prosecuting them and getting these 
folks, the buyers, the pimps, the people who are making money 
off of someone else's tragedy, anything we can do to get them 
off the streets and in shackles is all the better.
    Mr. Poe. Lock them up.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank you. That was very powerful.
    The Chairman recognizes Mr. Al Green of Texas.
    Mr. Al Green of Texas. Thank you, Mr. Chairman. I thank you 
and the Ranking Member--and I say it sincerely--for hosting 
this hearing today. It is exceedingly important that the 
empirical evidence that has been shared by expert witnesses be 
made available to the public, and I am grateful that you have 
done this.
    I am also grateful that you have a history of working 
across lines, and while I would like to embellish, I will not 
because it may not help you for me to say a lot of kind things 
about you.
    [Laughter.]
    Mr. Al Green of Texas. I do have to thank one other group 
of folk, the people from the news media. They are 
indispensable. They really are. We absolutely need the message 
to get to the masses. There is no better way. I think that we 
can use all of the other social methodologies by which we could 
communicate, but it really is good to see it on the evening 
news, codified in the newspaper. It really is. So I thank you 
as well.
    Sheriff, you talked about the young people who are 
runaways. I want to just add a human touch to this because the 
chief has mentioned the runaways as well. But we are talking 
about 12-year-old babies--12-year-old babies. We are not 
talking about some person who really understands the 
consequences of actions. I commend you, Ms. Johnson, Attorney 
Johnson, for what you have done to help these young babies. 
These are babies. If one-third of all runaways are lured into 
sex trafficking within 48 hours, we are talking about a lot of 
12-year-old babies.
    Now, I want to join my friend Judge Poe. He and I practiced 
law together for many years. But I just believe that he is 
eminently correct about the punishment. People who traffic 
babies have got to go to jail, and they have got to stay there 
a while, a long time. We cannot allow this to become just 
another crime because the harm is irreparable. It does not end 
when you extricate, rescue that child. The scars are there for 
years and years to come. So we have got to do what we can to 
make sure that the proper level of punishment is accorded these 
persons who engage in these dastardly deeds I might add.
    I want to mention the article that I read in ``The 
Chronicle,'' and I am going to mention it from ``The 
Chronicle'' so that I do not put Mr. Moskowitz or anybody else 
who may have briefed in anything other than good standing. But 
I mention this article because in the article there is this 
language. It says, ``Dozens flooded out into the fresh air and 
sunlight.'' This is what happened when they approached. This is 
what this hearing is all about. We want every person who is 
being trafficked, every person who is being ensnarled, every 
person who is in involuntary servitude to get out and into the 
sunlight. Let us give them that chance.
    Then it goes on to say that there is a ``keep out'' sign 
above the front door. You talk about hiding in plain sight. 
This is the supreme, superb, ultimate example of hiding in 
plain sight. The neighbors said they did not see anything going 
on, had no suspicions as to this type of activity occurring.
    But I want to say this. It was in my Congressional 
district. It was in my Congressional district. I want to go out 
there and see this. I want to see what this building looks 
like. I am going to see what hiding in plain sight looks like 
in a neighborhood. I take this personally. We have got to do 
something because these are my people. I do not care how they 
got here. They are my people now. I am responsible for them 
now. I am going to defend and protect them now. I want the law 
to protect them now. The Constitution of the United States of 
America protects anybody in this country. I want them 
protected. I am going to do all that I can to help them.
    Now to a quick question. As you can see, Judge Poe and I 
can get carried away here. I think he is the greater preacher, 
however, to be quite honest.
    [Laughter.]
    Mr. Al Green of Texas. I want you to talk for just a 
moment, if you would. I know that my time is running out, but 
just about the T visa. Sheriff, if you would, you have had 
encounters and you can elaborate, but if there are others who 
want to chime in. The T visa because I think it is an important 
aspect of being able to prosecute a case, Ms. Johnson, an 
important aspect of being able to prosecute. So I will start 
with the sheriff and welcome anyone else who would like to 
comment.
    Mr. Garcia. Thank you, Congressman.
    The visa issue that I mentioned earlier is a circumstance 
that is a great resource to help victims of human trafficking 
or victims who are here undocumented and are a victim of a 
crime. The challenge, though, is particularly in circumstances 
like what we saw yesterday. We are processing those folks 
today. We are talking to them. We are interviewing them, and we 
are asking the question, you know, will you testify, will you 
get a witness against your oppressors?
    Understanding all the things you have read in that news 
article about how horrific the circumstances were, 115 people, 
one toilet, incredible stench in that house, and then who 
knows, as it has been discussed and mentioned, how aggressive 
the oppressors are, threatening their lives, maybe have already 
physically abused them, maybe have already sexually assaulted 
them several times, maybe have already threatened them by they 
are going to kill their families back home, they know where 
they live, cooperate or everybody dies. I mean, that is the 
real threat that these victims exist under. Then immediately 
after their rescue, we are asking them, will you testify, will 
you put this guy in jail?
    Knowing or not knowing what is ever between their ears and 
the experiences that they have lived, the answers oftentimes 
from these traumatized folks is not likely to be a quick yes, 
anything I can do, I am ready to testify, put me on the stand, 
I am there. It is not likely to be that. As a result, there is 
a high probability that the support of the visa process could 
be delayed. In some cases, it could be denied. There is a need 
to improve the process in the event that they say no today or 
do not answer in the affirmative today, that later on the 
question mark on whether that visa can be applicable to them 
can be turned over and facilitated for them.
    Mr. Al Green of Texas. Thank you.
    Because of my time--I am over my time, Mr. Chairman--I will 
yield back and perhaps in some other way you will be able to 
respond. But thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes Mr. 
Farenthold.
    Mr. Farenthold. Thank you very much, Chairman McCaul.
    I am going to avoid getting up on the soapbox because I 
think some of my colleagues have done a far better job than I 
could.
    But I do want to investigate some of these issues and some 
of the things that we can do about it, more with some 
questions.
    On this panel, you have actually got several Members of the 
two committees that probably have the most jurisdiction: 
Homeland Security and Judiciary. Judge Poe, Ms. Jackson Lee, 
and I serve on Judiciary. That gives us criminal jurisdiction 
and immigration jurisdiction.
    So, Brian, I want to follow up on what Mr. Green was 
talking about with the T and U visas. Do we have adequate 
training for our personnel in briefing the victims on that? Is 
the problem with these visas a legal problem or is it a 
training and application problem?
    Mr. Moskowitz. First of all, just to stress that both the T 
and the U visa are administered by DHS, but by USCIS, not my 
agency ICE.
    Mr. Farenthold. You guys are the ones that are bringing 
them the people that are going to want to take advantage of 
these. From a Federal level, you and the FBI are probably the 
big boys in bringing them.
    Mr. Moskowitz. Yes, we are probably the primary users of 
it.
    So there is a difference in the T and the U visa. First of 
all, the T visa. It is for long-term immigration relief, and 
the victim self-petitions. So it is the victim who comes 
forward. It does not require a law enforcement certification as 
opposed to the U visa where a chief or the sheriff has to say, 
yes, this person is a victim. They are not saying they should 
get the visa or not, just yes, they are a victim from our 
standpoint. The person has to comply with reasonable requests 
of law enforcement to help. If that is granted by USCIS, they 
get to stay here, a work permit, and access to benefits and 
such.
    The U visa again is very similar. It is for a wider variety 
of crimes.
    The key with the T visa, as the law is written, is you must 
be a victim of a severe form of trafficking under the 
definition of the Trafficking Victim Protection Act. So that is 
the key.
    Mr. Farenthold. So we can potentially broaden that 
definition and it might be helpful.
    Mr. Moskowitz. It certainly would be within your 
discretion.
    Mr. Farenthold. All right. So under the U visas, we have 
heard that part of the problem is you are asked to make that 
decision whether or not you want to testify. For instance, in 
this stash house that you all got yesterday, they are probably 
asking that question today or tomorrow, and that has not given 
the folks time to get over the emotional scars, much less 
consult with an attorney or even their consulate officials.
    Mr. Moskowitz. Now, if we are talking about people from out 
of the country, they are through the process, the entire 
process--I mean, you mentioned training. All of our folks are 
trained whether it is HSI or ERO. They are trained in this 
process. Throughout the detention facilities where these people 
are held are signs and access to free phones where they can----
    Mr. Farenthold. But you need some time to deal with it, I 
guess is the point I was talking about.
    I am going to try to stay reasonably within my time, and I 
have several other questions I want to ask. I will go to Chief 
McClelland. I will give the sheriff an opportunity to answer as 
well.
    While I was sitting up here, I went on-line to one of the 
more notorious on-line classified sites and went and looked at 
some of the adult services. I counted four listings in Corpus 
Christi in the last 24 hours or with today's date on them and 
99 in the Houston area. In finding these criminals and the 
victims, it does not look like you need to do much more than go 
on-line. I mean, why aren't we just sending people out? I mean, 
you have advertised for these services that certainly hint at 
being illegal. Why can you not just go out, either send an 
undercover officer out there, or go say, hey, let us look 
around and find the bedroom full of people being held there? Do 
you not have the resources to do that? Or is there a legal 
impediment to doing that?
    Mr. McClelland. Well, yes, one is a resource issue. In 
other cases, it is an information issue. But certainly the 
social networking has made it much more challenging for law 
enforcement to interdict people that are being trafficked in 
the sex industry. No doubt about that. It is certainly more 
challenging.
    But also culturally as a society, it has been somewhat 
accepting, and the penalties for the individuals that exploit 
folks that are trafficking in the sex industry is relatively 
low because people have looked at it as a victimless crime and 
they do not understand the violence associated with it. If 
these were people that were on the news every day for murdering 
someone, yes, they would be getting felonies and they would be 
going to jail and prison for long periods of time.
    Mr. Farenthold. So who is making the choice of those 
allocation of resources?
    Mr. McClelland. Well, it is a prioritization with myself, 
the sheriff----
    Mr. Farenthold. Obviously, you want to go after a murderer 
first, but you hear the tragedies associated with these women 
and you wonder how many deaths you might be able to prevent. I 
do not mean to be criticizing your department.
    Mr. McClelland. No, no, no.
    Mr. Farenthold. I am trying to find out what we can do to 
help.
    Mr. McClelland. Well, certainly resources, the database, 
and a more defined law. I mean, you can hear the confusion here 
and the close link that you have with smuggling, trafficking, 
and people going across jurisdictional lines.
    Mr. Farenthold. I am already out of time, but if the 
Chairman will indulge me long enough to get the sheriff's 
answer to that same question, I would appreciate it.
    Mr. Garcia. Thank you.
    The chief is correct. The social media websites in 
particular and how those respective domains operate--one day 
the IP addresses are available. The next day they have been 
turned off. You know, it is challenging. We do need better laws 
to help address this.
    But it also brings me back to the issue of how runaways and 
missing persons play into that particular side of the equation. 
We have to do better at maybe making resources available for us 
to use facial recognition technology much more effectively 
because they are putting pictures up on the site. Maybe that 
could be a way to address this.
    But there is nothing more than I want to do everything I 
can to put these folks out of business. That is why I have 
increased specifically the number of female deputies in my vice 
operations. I made it a huge priority, looking to do more. I 
have given $300,000 of my asset forfeitures to the Harris 
County Juvenile Probation Department so they can start a 
juvenile human trafficking unit. It is a priority. It is 
important. We got to step up.
    Mr. Farenthold. All right. Thank you very much.
    Chairman McCaul. I want to thank the witnesses for their 
valuable testimony and insight to the policymakers and 
lawmakers to, as you put it so well, put them out of business.
    So with that, this panel is dismissed, and the clerk will 
prepare the witness table for our second panel.
    We welcome our second panel to today's hearing and thank 
you for your participation here today in this important matter.
    First, Dr. Robert Sanborn is president and CEO of Children 
at Risk. Under his leadership, Children at Risk expanded its 
influence in the realm of child welfare advocacy, including the 
launch of the Public Policy and Law Center, Children at Risk 
Institute, and the Center to End Trafficking and Exploitation 
of Children.
    Dr. Reena Isaac is an assistant professor of pediatrics 
with Baylor College of Medicine, and is a consulting physician 
at Texas Children's Hospital, Child Protection Program. Dr. 
Isaac serves as a physician advisor for Houston Rescue and 
Restore Coalition, whose goal is to eliminate human trafficking 
by empowering the community to take action to rescue and 
restore victims.
    Ms. Cheryl Briggs is a restored survivor of domestic minor 
sex trafficking and is the founder of the Mission at Serenity 
Ranch. Ms. Briggs also serves as a mentor for the Harris County 
Juvenile Probation Department, Human Trafficking Diversion 
Court. In January 2014, Ms. Briggs opened My Daughter's House, 
a safe house that provides long-term transitional housing for 
young women who have been rescued from trafficking situations 
and/or forced participation in the commercialized sex industry. 
Thank you, Ms. Briggs, so much for being here today and telling 
your story.
    Last but not least, Ms. Kathryn Griffin-Townsend is the 
founder of We've Been There Done That, a reentry program 
established with the goal of rehabilitating women who have 
lived through sex trafficking, prostitution, and associated 
drug addiction. A former cocaine addict and prostitute, Ms. 
Griffin-Townsend credits rehabilitation programs with changing 
her life.
    The witnesses' full statements will appear in the record.
    The Chairman now recognizes Dr. Sanborn for his testimony.

STATEMENT OF ROBERT SANBORN, ED.D., PRESIDENT AND CEO, CHILDREN 
                            AT RISK

    Mr. Sanborn. Thank you, Chairman McCaul, and I want to 
thank all of the Members here for their support of this issue.
    I also want to recognize Congressman Poe for the End Sex 
Trafficking Act and the Justice for Victims Act. Both of them 
are so important for our fight against trafficking, and 
certainly, Mr. Chairman, your support for that act.
    You know, a lot of people have talked today about why 
Houston is such a hub for trafficking. I think one of the 
things that we are not talking about is that for all the 
reasons that people have talked about, the geographic location 
and a large city, all of those are true. There are a lot of 
reasons why I love Houston just like the rest of you. But one 
of the reasons that we do not talk--one of the things we do not 
talk about is that in Houston we tend to turn a blind eye 
towards sexually-oriented businesses. We have over 300 
sexually-oriented businesses here in Houston. Less than 20 of 
those are licensed. Yet, there are more here than in any other 
city in the Nation. We are turning a blind eye and we are 
saying boys will be boys in many ways.
    It gets back to demand, which you talked about, Congressman 
Poe. We are not doing the things necessary to make sure that 
those who engage in these services pay a high price for 
engaging. We make it very easy for men in our society and 
certainly men in Houston to be able to go on the internet, to 
go to backpage.com, which I challenge any of you to do, not on 
your Congressional computers, though----
    [Laughter.]
    Mr. Sanborn [continuing]. And find out what is happening on 
backpage.com. You will see the real pictures of real girls that 
are being trafficked.
    Congressman Farenthold, you talked about seeing this 
morning 99 in Houston, 3 in Corpus Christi. By the end of the 
evening, we will have up to 300 here in Houston of those 
posted, and you will see that many of those are children.
    When we talk about trafficking in Texas and across the 
Nation, many times we are talking about child sex trafficking. 
At Children at Risk, we work in many areas for children, 
education and hunger and so forth, but the most heartbreaking 
area is certainly in the area of child trafficking. Over the 
last three legislative sessions, we have been able to pass and 
help in the passage of about 28 bills that have given law 
enforcement the tools necessary to go after traffickers--law 
enforcement and prosecutors--starting with allowing the 
Attorney General to create a State-wide task force. This 
awareness is very, very important.
    A couple years ago, a prominent person in town said, Bob, 
how are we going to sort of give a knockout punch to 
trafficking. The answer--I said there are really four steps.
    One is we need to create all the awareness that we can. 
People need to understand that trafficking is a problem. We are 
beginning to do that. I do not think we are where we need to be 
because a lot of the information--Hollywood has jumped on it. 
They really have done a lot, but not all of it is correct. 
There is more that we need to do around awareness.
    The second thing that we need to do is public policy. We 
need to pass more laws that allow prosecutors and law 
enforcement to go after traffickers. We are just at the tip of 
the iceberg on that.
    The third is we really need to treat our victims. 
Congressman Poe, you mentioned there are just too few beds. We 
have opened up a place recently in Houston. Ms. Briggs has a 
place that she has opened, and there is a couple that are 
opening up around the country. We did a lot of research at 
Children at Risk to create a blueprint for some of these safe 
houses, but we need to do a lot more to make sure that we have 
places for our victims.
    But then finally, it is going after that demand, which is 
the thing that we are doing the least about, going after those 
men that feel like it is perfectly fine to buy young women or 
young girls. These are the things that we can do. We actually 
have here--this is a crime against humanity, and this is a 
crime against humanity in our own town, perpetuated by our 
next-door neighbors. I think we forget to realize that, that 
this is something happening with the guy next door. We are not 
doing enough for these johns, these people purchasing these 
victims to pay the high price.
    The good news is that we are fighting in Texas. We are 
fighting to end trafficking. We are passing as much legislation 
as we can.
    The bad news is that this is a crime driven by this male 
population, and while there are lots of people lined up to work 
against trafficking, there are just too many others that are 
lined up to hurt us.
    When we look across the State of Texas, our Attorney 
General has identified 800 victims in the last 5 years. Half of 
those were children. Houston is the No. 1 source for calls to 
the Human Trafficking Hotline. We had the big Mondragon human 
trafficking ring where 120 women and children were rescued a 
number of years ago. In Dallas, a 12-year-old was found dancing 
at the all-nude Dallas Diamonds Cabaret. In Corpus Christi, a 
14-year-old found dancing at the Club Cheetah. In Houston, at 
the Taboo Modeling Studio North, a human trafficking den, we 
found four 16-year-olds.
    We have visited some of these spots, unfortunately, and 
what we find is that we go into these places and we see women 
paraded in front of us, women lined along the walls, all with 
blank faces, all not knowing why they are there. This is 
something that all of us need to work very, very hard to end 
because it is heartbreaking, and it is eminently solvable but 
we are not doing enough to solve it.
    Thank you very much.
    [The prepared statement of Mr. Sanborn follows:]
                  Prepared Statement of Robert Sanborn
                             March 20, 2014
                              introduction
    Texas is both a hub for human trafficking and a leader in the fight 
against it. The Department of Justice estimates that 1 in 4 human 
trafficking victims will pass through Texas at some point during their 
ordeal. Indeed, some of the very factors that make Texas such an 
extraordinary State also make it a hotbed of human trafficking: A 
diverse population, numerous airports, interstate highways and 
international ports, prominent professional sports teams, a popular 
host site to many National conferences and conventions, and a bustling 
economy. These attributes, while points of pride, also bring demand for 
human trafficking to our State and allow traffickers to more easily 
hide and transport their victims and elude law enforcement.
    The federal Trafficking Victims Protection Act of 2000 (TVPA) 
defines human trafficking as the ``recruitment, harboring, 
transportation, providing or obtaining of a person by means of force, 
fraud, or coercion for the purpose of a commercial sex act or labor 
services.''\1\ Force often takes the form of physical abduction, rapes, 
beatings, and torture, including the withholding of food, clothing, and 
other basic necessities. Fraud manifests through offers of a better 
life, the opportunity to work to make money to support their families, 
or the chance to obtain an education, which then prove false as victims 
are trapped and forced to work without pay. In the case of sex 
trafficking, it also often takes the form of psychological manipulation 
and the appearance of a romantic relationship. Victims, many of whom 
were abused prior in their homes before being trafficked, are led to 
believe that they are worthless and that no one else besides their 
trafficker will love them, and that they have no choice but to submit 
to sexual exploitation. Coercion can involve exploitation of an 
immigrant's unfamiliarity with the language and laws of the United 
States, verbal and psychological abuse, threats of harm to the victim 
or the victim's family and friends, threats of deportation, isolation, 
confiscation of travel and identification documents, and the imposition 
of debt through inflated fees to the sexually-oriented business or 
trafficking network.\2\ Force, fraud, and coercion are used together to 
keep a victim subjugated. However, according to the TVPA, force, fraud, 
or coercion need not be proven to convict a person of trafficking when 
the victim is a child.\3\
---------------------------------------------------------------------------
    \1\ 22 U.S.C.  7101 et seq. (2002).
    \2\ Id.
    \3\ Id.
---------------------------------------------------------------------------
    Human trafficking involves two kinds of victims: Domestic or 
international; and comes in two general forms: Labor or sex 
trafficking. Domestic victims are most commonly subject to sex 
trafficking, while labor trafficking is more prominent among 
international victims. However, there is overlap between these 
categories, with international victims also being subject to sex 
trafficking, and domestic victims sometimes involved in labor 
trafficking. Additionally, labor trafficking can become sex trafficking 
and vice versa. For instance, a young woman may be forced to work as a 
waitress or dancer at a strip club or cantina, and then be transitioned 
into sexual exploitation as well.
    In Texas, the Office of the Attorney General reports that between 
2007 and 2012, it identified almost 700 human trafficking-related 
incidences, involving almost 800 victims. About half the victims were 
not U.S. citizens, while the other half were Americans being trafficked 
domestically. Almost half of the victims were children.
    Vishalie's story epitomizes the experience of many international 
victims of human trafficking. Vishalie was a young woman from India who 
came to the United States to work as a nanny to support her widowed 
mother and four younger siblings. She answered a newspaper 
advertisement in India offering a chance to work in the United States 
and make enough money to send home. She was offered a job but the terms 
changed without notice as soon as she arrived in the United States. Her 
passport was confiscated, and she was sent to work for another family 
in New Jersey. She was forced to work long hours as a nanny and 
domestic servant, but did not receive any pay and was not permitted to 
leave the home alone.
    A typical situation for a domestic victim might sound like Sarah's 
story. Sarah was a 17-year-old girl who ran away from home in rural 
Ohio because her mother and stepfather were alcoholics and she was 
neglected at home.\4\ She was approached by a 30-year-old man while 
walking to the store alone who asked her why she looked so upset, and 
offered to take her to get her nails done to cheer her up.\5\ She 
agreed, and over the next couple of months, he took her out to eat, 
gave her compliments, and acted like a caring boyfriend.\6\ He asked 
her to move in with him, but after a month of living together he said 
he could not afford the rent and asked her to engage in commercial sex 
with older men to pay the bills.\7\ Sarah was uncomfortable, but was 
adamantly against returning home and wanted to please him, so she 
allowed him to begin prostituting her.\8\
---------------------------------------------------------------------------
    \4\ Survivor Stories--Sarah, POLARIS PROJECT, http://
www.polarisproject.org/what-we-do/client-services/survivor-stories/465-
sarah-domestic-minor-sex-trafficking (last visited Dec. 11, 2012).
    \5\ Id.
    \6\ Id.
    \7\ Id.
    \8\ Id.
---------------------------------------------------------------------------
    A number of prominent busts involving human trafficking illustrate 
the problem in Texas. The Maria Bonita Cantina in Houston, Texas, which 
was owned and operated by Gerardo Salazar Tecuapacho, was busted in 
2005. Salazar earned the nickname ``El Gallo'' by branding his female 
victims with his trademark rooster. Salazar lured young women from 
Mexico to leave their homes to travel to Houston under false pretenses 
of love, marriage, and legitimate job opportunities. Upon arrival in 
Houston, the women were forced into a life of sexual slavery in the 
cantina. In 2005, one of Salazar's teenage victims called a domestic 
violence hotline and told rescuers that she had been brutally beaten 
and sold in the cantina. Upon indictment, Salazar fled to Mexico where 
he was eventually arrested and remains while the United States seeks 
extradition.
    Also in 2005, Maximino Mondragon was convicted in the bust of one 
of the Nation's largest sex trafficking rings. For over a decade, 
Mondragon ran a ring of cantinas in northwest Houston where he held 
women and girls lured to this country with the promise of legitimate 
employment, but quickly forced into prostitution upon their arrival. 
The women and girls were held captive by constant surveillance and 
threats of violence to themselves and their families back in Latin 
America if they attempted to escape. Mondragon controlled the women and 
girls' money, their clothes, their movements, and even subjected the 
women to forced abortions. A total of 120 women were rescued from 
Mondragon's cantinas by law enforcement. Mondragon was sentenced to 13 
years in prison and ordered to pay $1.7 million in restitution to his 
victims.\9\
---------------------------------------------------------------------------
    \9\ Lise Olsen, Houston Sex-Trafficking Ringleader Gets 13 Years in 
Prison, Hous. Chron. (Apr. 27, 2009), http://www.chron.com/news/
article/Houston-sex-trafficking-ringleader-gets-13-years-1735028.php 
(last visited Nov. 1, 2012).
---------------------------------------------------------------------------
    In 2007, Diamonds Cabaret, an all-nude strip club in Dallas, Texas, 
was allowed to stay open even after police found they had hired a 12-
year-old girl as a stripper.\10\ The girl had run away from home and 
was picked up by a trafficker and a Diamonds Cabaret dancer. They 
offered her a place to stay, but told her she had to earn her keep, and 
drove her to the strip club. The club hired her even though she was 
unable to show valid identification. The girl eventually ran away from 
her trafficker as he slept, and he ultimately faced Federal charges for 
felony sexual performance of a child. However, Diamonds Cabaret 
remained open due to a loophole in the Dallas ordinances, which had no 
provision allowing officials to shut it down for employing a minor.\11\
---------------------------------------------------------------------------
    \10\ Lost Girl, Newsweek, Apr. 3, 2008, http://
www.thedailybeast.com/newsweek/2008/04/03/lost-girl.html (last visited 
Nov. 1, 2012).
    \11\ Id.
---------------------------------------------------------------------------
    In another domestic case involving a minor victim, Club Cheetah in 
Corpus Christi, Texas, which hired a 14-year-old trafficking victim as 
a nude dancer, sued the girl and her family after she was rescued from 
her trafficker.\12\ The girl was kidnapped from a San Antonio homeless 
shelter, sexually assaulted, and then sold for sex at Club Cheetah.\13\ 
Her trafficker pleaded guilty to four counts of aggravated sexual 
assault in 2010, but Club Cheetah, rather than face criminal penalties, 
sued the girl and her family in civil court.\14\ The club claimed the 
girl caused damages including loss of revenue, a Texas Alcoholic 
Beverage Commission investigation, and loss of standing and reputation 
in the community, and asked for $25,000 in damages, court costs, and 
attorney's fees.\15\ The girl's family countersued the club for 
negligence, seeking damages for her bodily injury and sickness 
including lost peace of mind, depression, neurosis, nervousness, weight 
loss, nightmares, irritability, upset stomach, sleep loss, and 
anxiety.\16\ Club Cheetah eventually withdrew their suit in response to 
the girl's family's countersuit.\17\
---------------------------------------------------------------------------
    \12\ Janine Reyes, Adult Club Sues Alleged Victim, Teen and Family 
Countersue in Court, KRISTV.COM, Feb. 29, 2012, http://www.kristv.com/
news/adult-club-sues-alleged-victim-teen-and-family-countersue-in-
court/ (last visited Nov. 1, 2012).
    \13\ Id.
    \14\ Id.
    \15\ Id.
    \16\ Id.
    \17\ Id.
---------------------------------------------------------------------------
    In a particularly large trafficking bust in Houston, Texas in 2009, 
an investigation by the Innocence Lost Task Force of the FBI and the 
Houston Police Department as part of the Innocence Lost National 
Initiative resulted in the arrest and charging of five men and one 
woman with a number of crimes, including conspiracy to traffic women 
and children for the purposes of commercial sex; sex trafficking of 
children; and sex trafficking by force, fraud, and coercion.\18\ The 
victims were brought to Houston from other States, including Florida, 
Kansas, Arizona, and Nevada in one of three business fronts owned and 
operated by the gang, which included a business operating under the 
name ``Taboo Modeling Studio North.'' Four 16-year-old minors were 
among the victims rescued from these operations, including one teenager 
abducted while walking down the street in Kansas. All of the victims 
were American citizens, and were beaten routinely and not permitted to 
keep the profits from their exploitation.
---------------------------------------------------------------------------
    \18\ U.S. Attorney's Office S. Dist. of Tex., Remaining Defendants 
Convicted in District's Largest Sex Trafficking Case (Oct. 4, 2012) 
available at http://www.fbi.gov/houston/press-releases/2012/remaining-
defendants-convicted-in-districts-largest-domestic-sex-trafficking-case 
(last visited Nov. 1, 2012).
---------------------------------------------------------------------------
    In all situations of human trafficking, whether international or 
domestic, most victims do not know where to turn to for help. Even when 
law enforcement gets involved and they are removed from their 
traffickers, services for victims are severely lacking, and too-often 
victims are treated as criminals themselves.
                      sexually-oriented businesses
    As the second-largest and fastest-growing criminal industry in the 
world, the singular purpose of trafficking in persons is to generate 
illicit profits for the traffickers.\19\ How do traffickers translate 
their control of the trafficking victim into profits? There are many 
different methods, but one of the most prevalent is through sexually-
oriented businesses. These businesses dovetail perfectly with the 
trafficker's intent to profit from the exploitation of victims, as they 
provide a ready-made market. While some sexually-oriented businesses, 
such as strip clubs, are easily identifiable as sexually-oriented, 
others are established as ``massage parlors,'' ``modeling studios,'' or 
other non-sexual business entities in an effort to disguise their true 
identities as brothels and venues for labor and sex trafficking.
---------------------------------------------------------------------------
    \19\ Houston Rescue & Restore Coalition, What is Human 
Trafficking?, http://www.houstonrr.org/human-trafficking/what-is-human-
trafficking/ (last visited Nov. 1, 2012).
---------------------------------------------------------------------------
    Traffickers sometimes directly own a sexually-oriented business, or 
simply make financial arrangements with the owners and managers as a 
way to facilitate the marketing and exploitation of their victims. 
Essentially, businesses provide the venue for the traffickers to market 
and sell their products, and traffickers then pay a portion of their 
profits to the business owners and operators. Also complicit in these 
illegal business ventures are the clients, or ``johns,'' who patronize 
the establishments for the purpose of commercial sex. Like any 
commercial enterprise, human trafficking is fueled by the law of supply 
and demand--but for the customers willing to pay for commercial sex, 
these illegal businesses would not be in existence.
    It is important to note that not all sexually-oriented businesses 
are illicit fronts for commercial sex and human trafficking. State and 
local laws expressly authorize the establishment of sexually-oriented 
businesses, and legitimate sexually-oriented businesses that are 
properly licensed and operating within the parameters of regulation 
exist throughout the country. The problems associated with human 
trafficking arise when sexually-oriented businesses operate beyond the 
scope of legal boundaries, serving as venues for prostitution and other 
illegal activities. The prevalence of these illegal sexually-oriented 
businesses varies from State to State, and even between localities 
within States. For instance, in Texas' Greater Houston area, while 
there are over 300 sexually-oriented businesses, fewer than 20 are 
licensed as such. Not all of these 300-plus businesses are involved in 
the illegal commercial sex trade; some may not meet the requirements of 
the county or city ordinance and therefore do not seek licensure, while 
others are indeed illicit fronts for commercial sex.\20\ Several of 
these unlicensed businesses have been identified and shut down after 
multiple instances of prostitution, sexual assault, and human 
trafficking have occurred. However, many continue to operate unchecked. 
Treasures, one of the most well-known and notorious strip clubs in 
Houston, is not licensed as a sexually-oriented business, and has been 
cited dozens of times for prostitution, drug use, and public lewdness. 
Despite efforts by the city to shut it down as a public nuisance, the 
club has avoided closure.
---------------------------------------------------------------------------
    \20\ CHILDREN AT RISK, Study on Sexually Oriented Businesses in the 
Greater Houston Area, August 2012, http://childrenatrisk.org/wp-
content/uploads/2010/11/State-of-Human-Trafficking-in-Texas-FINAL.pdf 
(last visited Dec. 17, 2012).
---------------------------------------------------------------------------
    Sexually-oriented businesses come in a wide variety of models and 
are continually mutating to avoid regulations and detection from law 
enforcement. Some of the most common forms of sexually-oriented 
businesses include: Cantinas, strip clubs, massage parlors, modeling 
studios, tea houses, and hostess lounges. Often, sexually-oriented 
businesses operate within racial or ethnic networks that share similar 
characteristics in terms of their operating structure and the 
trafficker and victim profiles. For instance, Asian sexually-oriented 
businesses such as massage parlors, hostess clubs, and tea rooms may be 
connected by a criminal organization that runs a variety of sexually-
oriented businesses and rotates women between facilities. Latino 
sexually-oriented businesses take the form of residential brothels, 
escort services, and cantinas. Both Asian and Latino sex trafficking 
networks primarily exploit immigrant women and girls, capitalizing on 
their undocumented status, unfamiliarity with the country, and economic 
desperation. Notwithstanding the prevalence of racially exclusive 
trafficking networks, often domestic and international networks 
comingle. Strip clubs, for example, may provide an avenue for organized 
crime enterprises to funnel trafficking victims from Eastern Europe, 
while also serving as a venue for domestic trafficking.
    The internet provides an easy means for traffickers to directly 
prostitute their victims and to advertise their sexually-oriented 
businesses. Human trafficking also thrives on relatively unregulated 
internet sites such as Backpage.com, Eros.com, Rubmaps.com, and 
Craiglist.com, and the internet is the No. 1 platform where 
traffickers, pimps, and johns buy and sell women and girls for sex.\21\ 
Ads may appear to be posted by an individual who is operating 
independently but are often created by, or at the direction of, a 
trafficker.\22\ Sexually-oriented businesses, particularly massage 
parlors, heavily advertise on the internet. On any given day in 
Houston, just one internet site could feature over 300 ads for sex and 
almost 200 ads for sexually-oriented businesses. While impossible to 
confirm exact numbers, it is safe to say that a large proportion of 
these ads feature victims of human trafficking, and at least 3 dozen 
ads per day feature girls who appear to be under 18.
---------------------------------------------------------------------------
    \21\ Polaris Project, Human Trafficking-Internet Based, http://
www.polarisproject.org/human-trafficking/sex-trafficking-in-the-us/
internet-based (last visited Nov. 1, 2012).
    \22\ Id.
---------------------------------------------------------------------------
                  the fight against human trafficking
    While Texas does face significant challenges regarding the 
prevalence of human trafficking within our borders, we are also in many 
ways leaders in the fight against human trafficking. The Texas 
Legislature has been resolute and effective in passing laws to combat 
trafficking, and since 2007, has enacted 28 anti-trafficking bills. 
Many of these laws strengthen the penalties for traffickers and johns 
in order to deter and punish those who would exploit victims. Recently, 
the State legislature has also focused on providing services for 
victims, to ensure that they have the resources available to them to 
recover and rebuild their lives.
    The training of law enforcement is crucial and has been very 
successful as a result of a 2009 bill that mandated training in human 
trafficking for all newly-licensed police officers and all officers 
wishing to advance in rank. The training ensures that law enforcement 
is better able to detect human trafficking and more adequately prepared 
to deal with victims. A bill passed just last year in the 83rd Session 
builds on this success by requiring that the Texas Education Agency, 
the Department of Family and Protective Services, and the Health and 
Human Services Commission create curriculum to train doctors, nurses, 
emergency medical services personnel, teachers, school counselors and 
administrators, and child welfare workers to identify and assist 
victims of human trafficking. It is critically important that these 
professionals receive education around human trafficking because they 
are often the first points of contact for victims to receive help. 
Without the proper training, we run the risk that these victims will 
fall through the cracks and not be identified and rescued.
    As Texas focuses more on the needs of victims of human trafficking, 
it is apparent that not enough residential shelters exist to provide 
comprehensive services to these victims, not only in Texas but across 
the country. Funding is desperately needed to assist in the 
establishment of such shelters, which can be quite costly considering 
the wide range of medical, emotional, educational, and economic needs 
victims present. However, as more and more individuals and 
organizations become aware of the victims' needs and seek to start 
shelters, it is imperative that standards are in place for facilities 
that provide services to victims. Texas addressed this need in 2013 by 
passing a bill that mandates minimum standards to ensure that such 
shelters address the special needs of trafficking victims and provide 
adequate services. Such standards are needed across the country.
    Texas, like a number of other States including Washington and New 
Jersey, have attempted to regulate internet sites that provide a venue 
for human traffickers to exploit their victims, but have been severely 
limited in their ability to hold internet service providers liable by 
the Federal Communications Decency Act (``CDA''). While the purpose of 
the CDA is to preserve the dynamic nature of the internet and to 
protect internet service providers from liability for the content 
posted on their sites by users, it is proving to constitute a 
significant barrier to States seeking to regulate websites that profit 
from and promote human trafficking. We need Congressional action to 
amend the CDA to eliminate the loophole that allows trafficking to 
flourish on the internet, immune from State regulation by Federal law.
                               conclusion
    Sadly, many of the reasons that Texas is a great place to live also 
make it vulnerable to the proliferation of human trafficking. 
International and domestic trafficking are both widespread in Texas, 
aided by the presence of many unregulated sexually-oriented businesses 
and the ease the internet provides for traffickers to exploit their 
victims. However, the Texas Legislature has been aggressive and 
diligent in passing legislation aimed at eliminating trafficking from 
the State. More still needs to be done on a National level to address 
funding and standards for safe houses for victims, and to curb the use 
of the internet as a marketplace for trafficking. Yet we are confident 
as awareness grows of this horrible and widespread crime, our National 
leaders will be in the forefront of the fight against it.

    Chairman McCaul. Thank you, Doctor. Thank you for your 
passion on this issue.
    Dr. Isaac, you are recognized for 5 minutes.

    STATEMENT OF REENA ISAAC, M.D., ASSISTANT PROFESSOR OF 
PEDIATRICS, BAYLOR COLLEGE OF MEDICINE AND ATTENDING PHYSICIAN, 
  CHILD ABUSE PEDIATRICS SECTION OF THE EMERGENCY DEPARTMENT, 
                   TEXAS CHILDREN'S HOSPITAL

    Dr. Isaac. Thank you, Chairman McCaul, Ranking Member 
Sheila Jackson Lee, and committee Members.
    Health care providers are one of the few groups of 
professionals likely to interface with victims of human 
trafficking while they are still in the control of the 
criminals who profit from them. A study in 2005 found that 28 
percent of the victims came into contact with the health care 
system at least one time during their captivity. This 
represents a critical opportunity for identification and 
intervention. Health care providers are in a unique position to 
screen for victims of trafficking and provide important medical 
and psychological care for victims, as well as introduce 
critical services and supports that may enable them rescue and 
reintegration back into society.
    It is estimated that 100,000 children are in the sex trade 
in the United States each year. Children at highest risk for 
victimization are the homeless youth, throwaway, and runaway 
children, children with low self-esteem, children who are 
neglected and abused, or any child that seeks love. Recognizing 
these children as high-risk may serve as an important 
prevention strategy and an area where health care professionals 
may also be in a position to intervene and redirect.
    One of the challenges of the health care worker is 
identifying this vulnerable and silent population. Some of the 
recognized barriers to detecting victims include isolation from 
others, victim reluctance to disclose the abuse, continual 
surveillance by traffickers, lack of awareness of even being a 
victim, and basic distrust of adults and mistrust of 
authorities. Given this understanding, victims do not readily 
self-identify themselves as victims and training on recognizing 
the signs is crucial, and development of skills to facilitate 
identification is necessary.
    Given the scope and breadth of the problems faced by this 
marginalized population, it has become clear that the issue of 
human trafficking is not only a human rights issue but also a 
global health issue. Some of the issues that we see with these 
survivors are issues related to mental health, physical trauma, 
reproductive issues, substance abuse, and infectious diseases.
    Some of the mental health problems in children may 
including low self-esteem, suicidal thoughts, and poor academic 
achievement. Drug addiction and substance abuse may also 
manifest during their years of captivity. In one study 
involving trafficked women, it was revealed that 69 percent 
suffered from post-traumatic stress disorder.
    Physical trauma can result from forced manual labor or from 
the direct physical violence by the trafficker or clients in an 
effort to control and dominate the victim.
    Victims of the sex trafficking industry are at high risk 
for acquiring multiple sexually transmitted diseases, including 
HIV infection. Pregnancy, complications from unsafe termination 
procedures, and complicated infections of the genital tract may 
also present.
    Seeking to respond to the call for additional training of 
health care professionals, a local grassroots, nonprofit 
organization, The Houston Rescue and Restore Coalition, adopted 
a curriculum-planning project named Health Professionals and 
Human Trafficking: Look Beneath the Surface, H.E.A.R. Your 
Patient. This program known locally as the H.E.A.R. Project 
provides not only the knowledge and awareness of human 
trafficking to health care professionals, but also builds the 
skills for identification and referral of potential victims of 
human trafficking. This project, which began in 2010, has been 
instrumental in successfully training hundreds of medical 
professionals in the Houston area and is in the process of 
evolving into a multimedia training program with the 
expectation for a much larger reach Nationally.
    In addition to the identification of victims, health care 
professionals can be instrumental in the criminal investigation 
and prosecution of traffickers and clients in the collection of 
the patient's historical information required for diagnosis and 
treatment and forensic evidence. Medical professionals with 
particular expertise in child abuse and child sexual abuse may 
serve as expert witnesses in the courtroom. In these 
capacities, the profession can provide a voice to the 
voiceless.
    The victims of these crimes have experienced incredible 
physical, emotional, and psychological traumas. Instead of a 
childhood filled with laughter and promise, child victims, many 
of whom have been forced across borders from their familiar 
homelands into our Nation, have been subjected to and 
experienced unimaginable horrors that strip them of their own 
identities and the very beauty of what it means to be human.
    I would propose to the committee to consider the allowance 
of funding to enhance collaborative training of health care 
professionals in our efforts to identify and intervene on 
behalf of these victims.
    I thank the committee for this opportunity to speak on 
behalf of the medical professionals involved in the care of 
these children.
    [The prepared statement of Dr. Isaac follows:]
                   Prepared Statement of Reena Isaac
                             March 20, 2014
    Health care providers are one of the few groups of professionals 
likely to interface with victims of human trafficking while they are 
still under the control of the criminals who profit from them. A study 
in 2005 found that 28% of victims came into contact with the health 
care system at least one time during their captivity. This represents a 
critical opportunity for identification and intervention. Health care 
providers are in a unique position to screen for victims of trafficking 
and provide important medical and psychological care for victims, as 
well, as introduce critical services and supports that may enable them 
rescue and re-integration back into society. Front-line medical care 
centers such as emergency departments, primary care pediatric centers, 
family practice offices, reproductive health clinics, public health 
clinics, are most likely to interface with victims seeking acute and 
basic medical care. Efforts to optimize these opportunities for 
intervention require additional training for identification of victims 
by medical and nursing personnel, as well as, instruction on available 
community resources for support, services, and protection of the 
victim.
    Human trafficking encompasses many different aspects: International 
vs. domestic victims, adult vs. child victims, and labor vs. sex 
trafficking victims. It is estimated that 100,000 children are in the 
sex trade in the United States each year. Children at highest risk for 
victimization are the homeless youth, throwaway and runaway children, 
children with low self-esteem, children who are neglected and abused, 
or any child that seeks love. Recognizing these children as high risk 
may serve as an important prevention strategy and an area where health 
care professionals may also be in a position to intervene and redirect.
    One of the challenges for the health care worker is identifying 
this vulnerable, silent population. Some of the recognized barriers to 
detecting victims include: (1) Isolation from others, (2) victim 
reluctance to disclose abuse, (3) continual surveillance by 
traffickers, (4) lack of awareness of being a victim, and (5) basic 
distrust of adults and mistrust of authorities. Given this 
understanding, victims do not readily self-identify themselves as 
victims and training on recognizing the signs is crucial and 
development of skills to facilitate identification is necessary.
    The trafficking victim-patient carries a unique set of health care 
needs that, once identified, can be properly assessed and addressed. 
Given the scope and breadth of the problems faced by this marginalized 
population, it has become clear that the issue of human trafficking is 
not only a human rights issue but also a global public health issue. 
The role of the health care professional is an important one on many 
levels.
    The possible signs and symptoms in a trafficked victim's 
presentation that may alert health professionals are vast:
    Mental health.--Children with exposure to trauma typically 
experience affective, behavioral, and cognitive problems. Increased 
incidences of acute anxiety and stress disorder, affective disorders, 
conduct disorders, and personality disorders have also been recognized. 
Other mental health problems may include low self-esteem, suicidal 
ideation, poor academic achievement, and poor interpersonal 
relationship quality. Drug addiction and substance abuse may also 
manifest during their years in captivity. Research of 130 trafficked 
women revealed that 69% suffered from post-traumatic stress disorder. 
Sex trafficking and sexual exploitation appear to carry a greater 
increased risk for adverse health outcomes than with a homelessness or 
runaway status alone.
    Physical trauma.--Physical trauma can result from forced manual 
labor or from direct physical violence by the trafficker or clients in 
an effort to control and dominate the victim. Any form of bodily injury 
may be a result of extreme physical stress. Traffickers may beat, kick, 
choke, burn, or cut victims, as a way to control and manipulate them. 
Cigarette burns, fractures, bruises, and burns are common injuries of 
physical violence. Tattoos found on the body may serve to identify the 
victim as property of a particular trafficker, in effect branding the 
victim as a mere product of commerce.
    Reproductive and genitourinary issues.--Children, adolescents, and 
adults who are victims of the sex trafficking industry are at high risk 
for acquiring multiple sexually transmitted diseases, including HIV 
infection. Sexually exploited adolescents are at greater risk of HIV 
infection than adults due, in part, to the greater levels of violence 
toward minor victims and the anatomic variances between the two. 
Pregnancy, complications from unsafe termination procedures, and 
complicated infections of the genital tract may also present.
    Substance abuse.--Traffickers may introduce drug use for their 
victims to keep them compliant or passive during their time of 
captivity. Children with pre-existing addictions may be recruited into 
exploitation in their attempt to obtain drugs. Other victims may use 
drugs and alcohol to help them cope with the stress of their lives.
    Infectious diseases.--In addition to being at risk for acquiring 
sexually transmitted infections, human trafficking victims may be 
forced to live and work under unsanitary conditions, placing them at 
risk for various infections including tuberculosis.
    Seeking to respond to the call by both National and Houston-based 
community needs assessments for additional training of health care 
professionals in the identification and intervention of human 
trafficking victims, a local grassroots non-profit organization, The 
Houston Rescue and Restore Coalition (HRRC) adopted a curriculum-
planning project that was constructed and organized by a graduate 
student researcher from the UT School of Public Health and guided in 
the medical approach and practical delivery by a Texas Children's 
Hospital physician advisor and other professionals. This program, 
Health Professionals and Human Trafficking: Look Beneath the Surface, 
H.E.A.R. Your Patient, provides not only the knowledge and awareness of 
human trafficking to health professionals, but also builds the skills 
of identification and referral of a potential victim of human 
trafficking.
    The components of the program include: Section 1: Fundamental 
information on human trafficking (definition, types, prevalence, myths, 
challenges, importance of health professionals). Section 2: The 
building of the skill set required to approach and critically assess 
details of a case that may involve a potential victim of human 
trafficking is fostered. A case study introduces the challenges and 
potential indicators for a suspected victim. The introduction of the 
H.E.A.R. acronym is incorporated. The acronym outlines the steps of how 
to properly identify a victim and refer and report.
    H: Human Trafficking and Health Professionals
    E: Examine History, Examine Body, Examine Emotion
    A: Ask specific questions:
    ``Is anyone forcing you to do anything you do not want to do?''
    ``Can you leave your job or situation if you want?''
    ``Have you or your family been threatened if you try to leave?''
    R: Review options, Refer, Report.
    Section 3: Three case studies with different scenarios with various 
barriers in which the learners must appropriately identify, refer, and 
report their patients. Currently the project has evolved into having 
these case studies as video vignettes to further visually depict the 
challenges of these cases in a health care setting. Information 
regarding the available supports and services for the identified 
survivor's basic needs and safety are provided. In the cases involving 
children, human trafficking is a form of child abuse for those victims 
under the age of 18 and any suspicion of its activity involves the 
mandated reporting to law enforcement and child protection agencies.
    This project which began in 2010 has been instrumental in 
successfully training hundreds of medical and nursing professionals in 
the Houston area and is in the process of evolving into a multi-media 
training program with the expectation for a much larger reach 
Nationally. The global community has become aware of the numerous 
challenges faced by human trafficking victims. Once contact is made 
between the victim and health care professionals, the opportunity then 
exists to identify, treat, and assist the victims. Once their medical 
and psychological needs are assessed and treatment offered, many of the 
other recognized immediate needs of these persons including the basics 
of housing, food, medical needs, safety, and legal services can 
addressed.
    In addition to the identification of victims, health care 
professionals can be instrumental in the criminal investigation and 
prosecution of traffickers and clients in the collection of patient 
historical information (required for diagnosis and treatment) and 
forensic evidence. Meticulous documentation of findings and, in some 
cases, photo-documentation of injuries may assist in bolstering a case 
for criminal investigation and prosecution. Medical professionals may 
be asked to provide medical knowledge of the science, medical record 
review, or provide information of their personal evaluation of the 
child. Medical professionals with particular expertise in child abuse 
and child sexual abuse may serve as expert witnesses in the court room. 
In these capacities, the profession can provide a voice to the 
voiceless.
    The medical and nursing communities are important stakeholders in 
the role of identifying and victims of this hidden population. The 
front-line physicians and nurses, and specialized forensic physicians 
and nurses, and sexual assault nurse examiners are solid and available 
community resources throughout the country and may play a vital role in 
the prevention, protection, and prosecution of these cases by 
collaborating and communicating with the other dedicated professionals 
in a multidisciplinary manner and bringing these children back into the 
light.
    The victims of these crimes have experienced incredible physical, 
emotional, and psychological traumas. Instead of a childhood filled 
with laughter and promise, child victims, many of whom having been 
forced to cross borders from their familiar homelands into our Nation, 
have been subjected to and experienced unimaginable horrors that strip 
them of their own identities and the very beauty of what it means to be 
human. I would propose for the committee to consider the allowance of 
funding to enhance collaborative training of health care professionals 
in our efforts to identify and intervene on behalf of these victims. A 
small allocation of the monetary proceeds of seized assets of disrupted 
trafficking rings can perhaps be one area where such funding could 
assist in the continued development and delivery of needed training 
programs as I have described. I thank the committee for this 
opportunity to speak on behalf of the medical professionals involved in 
the care of these children.

    Chairman McCaul. Thank you, Dr. Isaac.
    The Chairman now recognizes Ms. Briggs.

    STATEMENT OF CHERYL BRIGGS, FOUNDER AND CHIEF EXECUTIVE 
               OFFICER, MISSION AT SERENITY RANCH

    Ms. Briggs. I would like to thank the Chairman and the 
committee for the honor to speak here today, along with the 
distinguished panelists.
    In 2009, I was going to Sam Houston State University and I 
was trying to obtain my undergraduate degree. I had a sociology 
class. In that class, our assignment for that semester was to 
do a paper on a sociology issue in current news. So I was in 
the library researching, and about a couple hours into it, I 
found these words ``human trafficking.'' Probably like 
everybody else in this room before they were educated more, I 
thought those poor people from other countries, those children 
in Thailand and Bangkok and Asia. That is what I thought of.
    When I began to read more, I thought--I was drawn to it. 
Then I thought, wait a minute. This ain't new. This happened to 
me when I was a teenager in the 1970's. So it may have looked a 
little bit different because we did not have the internet. We 
did not have craigslist, backpage. We did not have any of that 
kind of stuff in the 1970's in the dinosaur age.
    So as a survivor, I believe that we offer a unique insight 
into the victimization and rehabilitation process that these 
children and these victims deserve. I feel like, in working 
with different agencies, that collaboration is absolutely 
vital.
    I must say this, Congressman Poe. The first time I heard 
you speak was at the Crime Stoppers conference a couple years 
ago. At that time, you mentioned human trafficking, and at that 
time, you mentioned especially about the international victims. 
So I see that you have been under an education process that 
includes our own citizens.
    So the Justice for Victims of Trafficking Act--I really 
think that there are some important points in that that I agree 
with strongly, and that is, that No. 1, it creates a fund for 
domestic victims to allow them the opportunity to get treatment 
on the same level as every other victim, international or 
domestic. There are no victims who are more important than the 
other, who are more hurt than the other. They are all victims. 
So also allowing them to be certified as a victim of severe 
human trafficking actually speeds up the process for them to 
get the services that they need in a timely manner.
    I also believe that--and the other thing was the importance 
of--it was all addressed on the demand side, but it is the 
importance of knowing that you increase the definition of 
trafficker by adding the word ``solicitation,'' which then also 
opens the door for--I call them rapists that are purchasing sex 
from these children and these people. It allows them to be 
included in that Federal statute.
    So in working with domestic minor trafficking victims, it 
is very imperative that we protect the most vulnerable in our 
society and that would be our children and our mentally ill and 
our handicapped. As far as the children go, there are many, 
many people in our country who really, really with all their 
heart want to help these people. The problem is that because 
they have no survivor involved in their organization or on a 
consultation basis that helps understand certain things that 
you cannot understand unless you have been a victim and how to 
transition from that victim to survivor.
    It took me 30 long years to get that done, and it was 
piecing together services throughout my life for domestic 
violence, drug addiction, and many, many things. When I was 
trafficked at 13\1/2\, I was given an IV drug addiction to MDA 
which is a component, main component, of the drug Ecstasy 
today. It is a hallucinogenic and opiate combination, and the 
reason that I was drugged was so I would be very pliable and 
good for child pornography. So I am also glad that we are 
adding child pornography to those definitions.
    I would like to say that I want to address the supply and 
demand. So human trafficking is like any other economic system. 
It is supply-and-demand. We have mentioned this several times 
today. But what I wanted to point out was Dr. Melissa Farley 
with Prostitution Research Center in San Francisco did a study 
in Sweden on the prostitution problem there. Now, in Sweden, 
prostitution is illegal. But the Swedish government decided 
that they would take a new approach, and I think it is 
something that we can learn from. That is, when someone was 
arrested for prostitution, they were offered services that 
helped them change their life because like Adrian Garcia said, 
nobody grows up and goes, you know, I think I am going to be a 
prostitute because I do not want to pay taxes. I mean, nobody 
says that. We want to grow up and be princesses. We want to 
grow up and be doctors and lawyers. But there are so many kids 
that do not get that opportunity. Children do not run to; they 
run from. So 80 percent of the children on the streets are 
there, the same reason I was because of the abuse at home that 
you can no longer take. It hurts less to be abused by someone 
you do not love.
    I would also like to say that in that Swedish model, they 
actually cut trafficking in half in 1 year because you cannot 
sell a 14-year-old girl if there is not someone standing there 
with the money to buy her. If the johns are afraid, the rapists 
are afraid of being publicly humiliated--and Judge Poe did this 
when he was a judge--was that public shame. Hey, I am a thief. 
I stole from the store. We need to learn from that, because 
guess what? That is appropriate. We have been using social 
shame in civilization since the beginning of time.
    The deal is, though, once that social shame is over, then 
they need to be able to get the resources that they also need 
to heal. Maybe they are addicted to pornography. Maybe they 
were abused. Hurt people hurt people. So we never know where 
that line is going to end.
    I do not know how much time I have left, but I also wanted 
to comment on the picture that we sometimes paint. It was 
mentioned before about the child or the woman or the man and 
the boy that is chained to a bed and walked through a cold 
shower once a day, fed a bologna sandwich, and abused by people 
after people after people, very broken, malnourished, beaten 
people. I think we need to be very careful about that picture 
that we paint because that may happen in a very small 
percentage of cases.
    What you need to look out for is someone like me. What you 
need to look out for is your granddaughter. What you need to 
look out for is your neighbor, a girl in Sunday school. That is 
what you need to look out for, because guess what? There are 
children in our high schools that are being trafficked by kids 
in high school. They think they are in love with a man--with a 
boy, and they have their first sexual experience with him, and 
guess what? He is videotaping it. Then he says to her: Listen, 
I got you on tape. Your parents are going to hate you. You are 
going to be humiliated. I am going to show it to everybody 
unless you do this.
    Now, there was a friend of mine. Her name is Teresa Flores 
out of Ohio, and she wrote a book called ``The Slave Next 
Door.'' How, she was trafficked. She was in an upper middle 
class family in Ohio I believe or Detroit, one of the two. But 
that happened to her. It was a good home. There was no abuse 
going on at all. There was nothing to indicate to anybody. But 
she went to school by day. She was an honor roll student. When 
the lights went out at night, they were outside her window and 
she went out the window and she did what she had to do all 
night long because she was afraid of the shame and rejection. 
So we end up allowing these victims to carry the shame that 
does not belong to them.
    The last thing I think that I really want to address is 
that there are many things that we can improve on in the State 
of Texas and in our Nation. But what I would like to see is 
that I would like to see more restored survivor involvement in 
the process because, like I said, it is kind of like an 
alcoholic. You really cannot understand another--alcoholic 
understands another alcoholic. It is the same system no matter 
how you go, what social group you are looking at. It is about 
the process of identification. It is about sharing a common 
pain. It is about our humanity. We cannot continue to let this 
happen. So why are 100,000 kids a year on the street? Where are 
those emergency shelters for those kids so they have a safe 
place to go, maybe a protected center? Because, guess what? 
They get put in CPS, and 80 percent of those kids are at higher 
risk of being victimized.
    I was in CPS. I was in foster care. I was in a detention 
center. I was in the Youth Commission. They never ever could 
fix the problem. They just shipped me to somebody else to do it 
because they did not understand it.
    So if there is anything that I or Kathryn or other 
survivors that are working in this field can do to help you do 
what you need to be able to do that I do not have the authority 
to do, please let me know because I am making myself available.
    I want to thank you so much.
    [The prepared statement of Ms. Briggs follows:]
                  Prepared Statement of Cheryl Briggs
                             March 20, 2014
    As a survivor of Domestic Minor Sex Trafficking (DMST), I feel I 
have a unique insight on the victimization and rehabilitation process 
that non-survivors may not have. From this standpoint, I know the 
specialized services a victim needs to transform to survivor.
    The proposed Justice for Victims of Trafficking Act, currently in 
Congress seeks to clarify portions of the Trafficked Victims Protection 
Act (TVPA) in changing the definition of trafficking to include 
solicitation by buyers of trafficking victims. It also creates a 
Domestic Trafficking Victims Fund (DTVF) and allows domestic victims to 
obtain certification as a victim of severe human trafficking and 
thereby, providing a victim quicker access to funds and services. This 
fund will increase Federal resources for domestic trafficking victims 
up to $30 million per year, among many other important points.
    While there have been recommended Best Practices developed for 
DMST, there are no required minimal standards of care. While the 
majority of residential treatment programs for minors are licensed by 
the Health and Human Services Commission, this in no way qualifies the 
facility for offering trafficking services. I feel that it is of upmost 
importance that minimal standards be developed and required for any 
agency receiving Federal or State funding. This population especially 
minors are very vulnerable to manipulation, exploitation, and are at 
great risk of re-victimization by agencies that want to help that are 
not qualified to do so. We have an obligation to protect the most 
vulnerable in our society and assure that services provided are 
adequate, sufficient, and timely.
    The final point I would like to make is human trafficking, like any 
other industry, runs on an economics of supply and demand. It has been 
proven through studies by Dr. Melissa Farley of the Prostitution and 
Research Center in San Francisco, through a study in Sweden, that 
providing prostituted women with services and prosecuting ``johns'', 
decreased the number of trafficking victims by half. If we focus not 
only on the criminal enterprises in which trafficking occurs but the 
purchasers of the victims themselves, we would greatly reduce the 
supply. If through fear of public shame and/or increased prosecution of 
statutes, ``johns'' became afraid, that would create less demand which 
would automatically reflect in a decrease supply.

    Chairman McCaul. Well, thank you.
    [Applause.]
    Chairman McCaul. Thank you for that powerful testimony, and 
we do look forward to working with you.
    The Chairman now recognizes Ms. Griffin-Townsend.

  STATEMENT OF KATHRYN GRIFFIN-TOWNSEND, FOUNDER, WE'VE BEEN 
THERE DONE THAT REENTRY PROGRAM, HARRIS COUNTY SHERIFF'S OFFICE

    Ms. Griffin-Townsend. Chairman McCaul, Ranking Member 
Jackson Lee, and all of the Members of the committee, thank you 
for holding this very important hearing today here in Houston, 
Texas, which is the epicenter of America as we look at human 
trafficking.
    Congresswoman Lee, your leadership today reaffirms American 
values of freedom and equality by addressing this issue in the 
United States Congress, which strengthens hope for victims of 
human trafficking who continue to fight for justice. Thank you. 
I thank all of you.
    I want to also welcome and thank Chairman McCaul for 
allowing me to begin to tell you about this story. I am a 
survivor of domestic human trafficking, and now I am free to 
live life.
    I have had the distinct honor for more than a decade to 
work with a certain slice of our population. I am referring to 
those men, women, and children who have fallen prey to 
international and domestic human trafficking, prostitution, and 
sexual slavery. This truly has been a difficult endeavor. 
However, thankfully through evidence-based rehabilitation, this 
difficult task has resulted in tremendous success for those 
whom we have helped.
    Allow me to describe briefly the process. The 
rehabilitation of those who have been sold for sex is a very 
long trauma-based process, and it can take up to 4 years. 
Nearly always, survivors and victims of human trafficking and 
sex slavery suffer from some form of abuse. While substance 
abuse, sexual abuse, mental abuse, and/or physical abuse are 
most prevalent, many other psychological dysfunctions and 
cognitive issues may also be present. Through my experiences, I 
have found that all of these issues are best resolved by 
treating them with a specific protocol.
    First, their trust must be gained while allowing the victim 
time to understand that they are not alone in their plight and 
that someone else that has been there and done that and others 
are truly invested in their best interest and not patronizing 
the victim to take advantage of them again. Only then can true 
change begin by moving the victim even closer to becoming the 
valuable productive citizen in society they at this stage 
simply just do not know how to be. Many in this population have 
never had the opportunity to know that they count in this life. 
Codependency, abandonment issues, and the ``poor old me'' 
syndrome plagues this population. Fears such as homelessness 
and the stigmas that attach themselves to this population are 
devastating. Guilt and shame attach to the lives of these 
individuals as easily as gum attaches itself to the bottom of 
your shoe.
    For this group, rehabilitation is a must. We at the Harris 
County Sheriff's Office, under the leadership of Sheriff Adrian 
Garcia, have opened up a new world of hope and success for the 
thousands who come through the We've Been There Done That 
program.
    As participants in the reentry program, these victims are 
protected by being kept away from their drug dealers, pimps, 
sugar daddies, johns, and predators long enough to begin the 
deprogramming of the damage they have suffered. This is a 
population that is accustomed to constantly being on the run, 
chased from one predator to another, as a lion would chase a 
deer until they fall again and again in a perpetual loop of 
tragedy. It is easier to deprogram these clients while they are 
in a facility, not necessarily a jail facility, but a secure 
facility where they do not have access to drugs, pimps, sugar 
daddies, johns, and predators where finally they have a chance 
to catch their breath and begin to heal.
    As a recovery coach, I am able to offer continuous coaching 
to these individuals for up to 5 years or as long as they need 
or the individual would want me to coach them. The need for 
case managers is essential. As desperately needed are housing 
facilities that can nourish these clients for up to 2 years 
until they are strong enough and have developed adequate skills 
to live on their own while still remaining in a rehabilitation 
program.
    The We've Been There Done That program offers this 
population a program of a minimum of 90 days to 180 days, and 
it is in the county jail where they receive the intensive 
deprogramming that is needed to separate them from the 
environment that they have been trapped within. After this, 
they are placed in facilities that can help manage their 
specific needs such as substance abuse, mental abuse, 
homelessness, et cetera.
    Thanks to our student interns from the University of 
Houston Downtown Criminal Justice Program--they have been a 
great asset to us volunteering to assist with case management 
in the Harris County jail. Their work helps us to assure that 
the clients, when they leave our custody, have exit plans, 
recovery plans, and their life plans are mapped out for them.
    Another component of the program is providing services to 
those victims who have been caught up in criminal activity 
because I follow them into the State jail where I continue to 
work with them, and there I offer a continued support even 
after they have been released.
    You see not all who have begun the process are willing to 
go into inpatient facilities. Some of them would like to remain 
employed and support their children or family while they are 
attending an outpatient treatment option. But based on my 
experience, the preliminary results indicate treatment 
drastically increases the success rate, which we have been 
collecting data here in the last 6 months at the Harris County 
jail.
    It needs to be noted that some of this population will 
experience bumps in the road. It is to be expected. It is 
absolutely essential that we fund beds for those who have been 
identified as victims of international or domestic human 
trafficking. You see this group is quite familiar with conning, 
manipulation, lying, stealing, and cheating. But my experience 
has shown me that the majority of them express guilt about the 
crimes they committed or were forced to commit and they want to 
stop this endless loop. They just do not know how. Hurt people 
hurt people.
    What does human trafficking look like? Success stories that 
have come out. They were children as sex slaves and aged out 
and ended up and fell into adult prostitution, substance abuse, 
homelessness, and were stuck on the ``poor old me'' syndrome. 
All of these wonderful people are now productive citizens that 
have returned back into our society.
    [Applause.]
    Ms. Griffin-Townsend. That is the good alumni from Harris 
County.
    [Laughter.]
    Ms. Griffin-Townsend. Not all victims have criminal 
histories, though.
    They come from every race, gender, age, and ethnicity 
imaginable. The fact is the face of international and domestic 
human trafficking has multiple faces, and unfortunately, we are 
introduced to too many different faces on a daily basis. Many 
victims do not even realize they have been victims of human 
trafficking. Allow me to reiterate. Hurt people hurt other 
people.
    Thirty-day substance abuse treatment programs are simply 
not long enough to address social, physical, psychological, and 
developmental traumas that torment this population. Let me tell 
you. It takes a lot more than some care packages and some food 
and clothes. Their need for deprogramming, treatment, and 
assistance is obligatory. It is mandatory if they are to 
survive.
    Our goal is to stop the recidivism of human trafficking 
victims from recycling into the criminal justice system and 
return these rehabilitated victims to the general population as 
productive members of society with the same inalienable rights 
that those who have not ever been victimized too often take for 
granted.
    I am committed for the rest of my life to stay on this 
battlefield, educating, rehabilitating, and teaching the world 
to appreciate this population while helping as many as I can 
escape the bondage of human trafficking for the freedom to live 
free.
    I am begging all of you. Please open your hearts and your 
minds and to help us fight this great fight by helping us to 
save victims in this silent war. People should not be for sale.
    I am available to speak with anyone who would be interested 
in first-hand information involving this human trafficking 
epidemic.
    Thank you for your time, and I look forward to speaking to 
you all on this issue.
    God bless you and may God bless the United States of 
America.
    [The prepared statement of Ms. Griffin-Townsend follows:]
             Prepared Statement of Kathryn Griffin-Townsend
                             March 20, 2014
    First, thank you for the opportunity to address this committee.
    I have had the distinct honor for more than a decade to work with a 
certain slice of our population. I am referring to those men, women, 
and children who have fallen prey to international and domestic human 
trafficking, prostitution, and sexual slavery. This truly has been a 
difficult endeavor, however, thankfully, through evidence-based 
rehabilitation this difficult task has resulted in tremendous success 
for those who have been helped.
    Allow me to describe briefly the process; the rehabilitation of 
those who have been sold for sex is a very long trauma-based process, 
and it can take up to 4 years. Nearly always, survivors and victims of 
human trafficking and sex slavery suffer from some form of abuse. While 
substance abuse, sexual abuse, mental abuse, and/or physical abuse are 
the most prevalent, many other psychological dysfunctions and cognitive 
issues may be present themselves as well. Through my experiences, I 
have found that all of these issues work best by treating them with a 
specific protocol.
    First, their trust must be gained by allowing them time to 
understand that they are not alone in their plight and that someone 
else is truly invested in their best interest and not simply 
patronizing them in order to once again take advantage of them. Only 
then can true change begin moving them ever closer to becoming the 
valuable productive citizen in society they at this stage simply don't 
know how to be. Many in this population have never had an opportunity 
to know that they count in this life. Codependency, abandonment issues, 
and ``poor-old-me'' syndrome becomes major issues for many and plagues 
this population. Fears such as homelessness and the stigmas that attach 
themselves to this population are devastating. Guilt and shame attaches 
itself to the lives of these individuals as easily as gum clings to 
your shoe.
    For this group, rehabilitation is a must. We at the Harris County 
Sheriff's Office under the leadership of Sheriff Adrian Garcia, have 
opened up a new world of hope and success for the thousands who have 
come through the We've Been There Done That program.
    I'm sure we agree that it appears that we are punishing victims all 
over again, but that is simply not the case.
    By them present in our reentry program they are instead being 
protected by being kept away from their drug dealers, pimps, sugar 
daddies, johns, and predators long enough to begin deprogramming the 
damage they have suffered. This is a population that is used to 
constantly being on the run, chased from one predator to another as a 
lion would chase a deer until they fall again and again in a perpetual 
loop of tragedy. It is easier to deprogram these clients while they are 
in a facility where they do not have access to drugs, pimps, sugar 
daddies, johns, and predators, finally they have the chance to catch a 
breath and begin to heal.
    As their recovery coach, I am able to offer continuous coaching to 
these individuals for up to 5 years or as long as the individual would 
like for me to coach them. The need for case managers is essential. 
Also desperately needed are facilities that can house these clients for 
up to 2 years until they are strong enough and have developed adequate 
skills to live on their own, while still remaining in an active 
rehabilitation program.
    The We've Been There Done That program offers this population a 
program of a minimum of 90 to 180 days in the county jail where they 
can receive the intensive deprograming that is needed to separate them 
from the environment they have been trapped within. After this, they 
are placed in facilities that help manage their specific needs, i.e., 
substance abuse, mental abuse, homelessness, etc . . .
    Student interns from the University of Houston--Downtown Criminal 
Justice Program have also been a great asset to us volunteering to 
assist with case management in the Harris County jail. Their work with 
our clients assure when they leave our custody they have exit plans, 
recovery plans, and their life plans are mapped out for them.
    Another component of the program is providing services to those 
victims who have been caught up in criminal activity by following them 
to State jail where I continue to work with them there and offer 
continued support even after they have been released.
    Not all who have begun the process are willing to go into in-
patient facilities. Some wish to remain employed and support their 
children or family while still attending out-patient treatment options. 
Based upon my experience I have found that treatment is providing a 
success rate of up to 85 percent.
    It needs to be noted that some of this population will experience a 
few bumps in their road to success, we also must understand that is to 
be expected. It is absolutely essential that we fund beds for those who 
have been identified as victims of international or domestic human 
trafficking. This group is far too familiar with conning, manipulation, 
lying, stealing, and cheating. My experience has shown that the 
majority of them express sincere guilt about crimes they were forced to 
commit and want to stop this endless loop but don't know how.
    Hurt people hurt other people. What does human trafficking look 
like? Not all of these victims have criminal histories. They come from 
every race, gender, age, and ethnicity imaginable. The fact is, the 
face of international and domestic human trafficking has multiple 
faces, and unfortunately, we are introduced to many different faces on 
a daily basis. Many victims do not even realize they have been victims 
of human trafficking. Allow me to reiterate; hurt people, hurt other 
people.
    Thirty-day substance abuse treatment programs are simply not long 
enough to address the social, physical, psychological, and 
developmental traumas that torment this population. It takes a lot more 
than just giving them C.A.R.E. packages of clothing and food. Their 
need for deprogramming, treatment, and assistance is not obligatory, it 
is mandatory if they are to survive.
    Our goal is to stop victims of human trafficking from recidivating 
back into the criminal justice system and to put them back in the 
population as productive members with the same unalienable rights those 
of us who have not victimized too often take for granted.
    I am committed for the rest of my life to stay on this battlefield, 
educating, rehabilitating, and teaching the world to appreciate this 
population while helping as many as I can escape the bondage of human 
trafficking for the freedom to live free.
    I am begging all of you to open up your hearts and minds and to 
help us fight this great fight, help us to save prisoners in this 
silent war. People should not be for sale.
    I am available to speak with anyone who would be interested in 
first-hand information involving this epidemic. Thank you for your time 
and I look forward to speaking with all of you on this issue.
    God bless you and may God bless the United States of America.

    [Applause.]
    Chairman McCaul. Well, God bless you too. God bless you.
    Ms. Griffin-Townsend. Thank you.
    Chairman McCaul. Thank you for the courage to come forward, 
both you and Ms. Briggs and the victims--the courage to come 
forward to tell these stories that are so powerful.
    Ms. Griffin-Townsend. Chairman, can I give this to you all?
    Chairman McCaul. Yes.
    Ms. Jackson Lee. For the record?
    Chairman McCaul. For the record.
    Ms. Griffin-Townsend. This was me as a victim. This is me 
as a victor.
    [Applause.]
    Chairman McCaul. So without objection, this will be entered 
into the record with unanimous consent.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman McCaul. Thank you for that and that will be in the 
Congressional record.
    Ms. Griffin-Townsend. Oh, my God.
    [Laughter.]
    Chairman McCaul. So be careful what you ask for.
    [Laughter.]
    Ms. Griffin-Townsend. Bruised but not broken. Okay.
    Chairman McCaul. You know, when I was deputy attorney 
general for criminal justice, I started the Internet Crimes 
Against Children Task Force. That is when I first started to 
get exposed to this, to see these horrific exploitations, child 
pornography. I think we have done some great work since then. 
But this issue really goes way beyond that. It is a powerful, 
powerful, destructive issue.
    I want to again thank you for coming forward.
    I have five kids, four daughters, teenage daughters, not 
always easy at times. I have two 12-year-old identical twin 
girls. When I hear the stories, when you look at the average 
age, and I look at these stats, and the average age of these 
children is 12, 13, 14 years old. The idea that they are being 
run through these houses and sex exploitation is I think--and I 
know everybody on this panel agrees--one of the most, I think, 
destructive, horrific acts known to mankind. We want to do 
everything we can in the Congress in a completely bipartisan 
way to stop it.
    Ms. Briggs, you made an interesting comment. Children do 
not run to; they run from. I wanted to first ask both of you, 
but first Ms. Griffin-Townsend. You know, part of the problem 
is bringing them out of the shadows, out of the darkness and 
into the light, into a protected environment where they can go 
to law enforcement so that as my good friend, Judge Poe, 
states, we can put them behind bars, the people that perpetrate 
these horrific crimes.
    How can we do a better job of getting them out of the 
shadows?
    Ms. Griffin-Townsend. Mr. Chairman, the sad part about the 
children that end up falling prey to this population--a lot of 
them think that these are their boyfriends and they have been 
convinced and brainwashed and coerced to believing that these 
men and women love them. I am finding that children, when 
sexually molested, are--it is all molestation because they are 
kids and these are adults that are doing it--they think that 
that makes them adult. It is very hard. I have worked with so 
many kids because they do not want to give up the pimp 
boyfriend--a lot of them--because, see, there are so many 
hidden handcuffs and chains. A lot of them do not have the 
physical chains. They are invisible. This is the population 
that I come across all the time. Everybody is not kept in a 
basement. Everybody is not fed crumbs of bread and walked 
around on dog leashes like some of the people that I have had 
to work with to rehabilitate.
    When you said you had twin daughters, I cringed because the 
thought and the fact of two 12-year-old twins--that is double 
the money. There is a big market for your babies. The cold part 
of it is they could get to your babies because of your position 
and try to extort you just to get them back and then they will 
feel, well, he is a politician, so he is not going to want 
anything to be exposed. Oh, my God. Believe it or not. 
Everybody sitting up there on that panel that has children are 
at greater risk because they feel they can get more money for 
your babies.
    Then a lot of people have thought for a long time is just 
the throwaways, like the doctor was saying. It is anybody, and 
little boys bring more money than little girls.
    Then we think about it. Why does it happen? If stuff is 
happening in the home--and when I say hurt people hurt other 
people, a lot of the parents were broken, and there are just 
generational curses that have been passed on and these secrets, 
and children run away from that. Then they meet somebody and 
they will tell them I love you, I am going to suit you up and 
boot you up, and you are going to have this, and you are going 
to have that. I promise to put you in a video, the internet, 
and these selfie pictures and Face Time, Instagram. Oh, my God. 
We are battling a lot of stuff.
    Then you get addicted just as bad to the games. They will 
sit them down and give them PlayStations, which will traumatize 
them, paralyze them, and hypnotize them to tell them I am going 
to buy you this game and they sit there for hours. Well, that 
is what a lot of them were used to because parents are letting 
these technology games raise the children. Oh, my God. I could 
go on and on, Chairman.
    I just wanted to come home and let you know this is 
happening next door, in your house, around the corner. It is 
everywhere.
    Chairman McCaul. Thank you.
    Ms. Briggs, I want to give you the opportunity to say 
something.
    Ms. Briggs. I think that education, not necessarily of the 
children, but the children's parents is absolutely vital and 
critical. I do not think we have to reinvent the wheel. We have 
the DARE program in our schools already, and we need to add an 
element of human trafficking education from kindergarten 
through 12th grade. This has to be a topic that we are willing 
to talk about.
    When I was a child, my mother was a domestic violence 
victim. There were no shelters to help her. So when she left, 
she had $13, and she left to try to find a safe place to go so 
that at some point she could get us kids because she had no 
support. So now everybody talks about domestic violence. We are 
talking about child abuse. We are talking about incest, and all 
that stuff is no longer a family issue. This has to go right up 
there through that process.
    I think the other thing is that when did it become okay to 
have throwaway children. I mean, that whole term just kind of 
like makes my stomach sick because what does that indicate, and 
we continue to identify them as throwaway children. There are 
no throwaway people. Not in America there is not supposed to 
be.
    You know, we need emergency shelters for these runaways 
where they can not get necessarily put in the juvenile justice 
system or CPS. Maybe we need some emergency protected safe 
houses for these kids at least to be able to have an 
opportunity to make contact with someone who might help 
identify the problem they were having at home before they left.
    Now, the other thing that I think is very crucial for us to 
know is that I was on the internet and I was watching a little 
video. An FBI agent. There was a guy. He just got sentenced I 
think to two Federal life sentences for human trafficking in 
Federal court. So we know no parole, no good time, no nothing. 
So he was going to be in prison for the rest of his life. When 
he got done and he was coming out of the courtroom, there was 
an FBI agent and he had a camera set up, and he said, hey, you 
mind? Will you talk to me? The guy said, sure. What are you 
going to do? Give me life? So she said, you know, I got a 
question. She said, where do you get your girls? He goes, I go 
to the mall. He said I walked up to a little girl and I said, 
baby, you have beautiful eyes. If she says thank you, I just 
keep walking. I walk up to the next little girl and I go, baby, 
your hair is amazing. If she looks down and looks up and says, 
you really think so, he said I will leave the mall with that 
child willingly.
    So this is not even about stranger danger. I can sit in The 
Woodlands where I live at the mall on any Sunday around 11:30 
and watch car after car after car after car drop off their 
children to a safe mall in a safe neighborhood. But the more 
sophisticated that this crime becomes, the more education they 
get on what children need at specific ages. What are the 
struggles of development they are going through? Identity 
crisis. They reject everything their family is. They want to 
figure out who they are and they know how to work that.
    So as parents, we think, okay, well, my daughter is in the 
bedroom. She is safe. She is in my house. But guess what? She 
is on the internet unsupervised where there are 50,000 
predators looking for her in any day. They look for that little 
girl who is having a hard time or that little boy.
    Thank you for mentioning little boys because in the United 
States we have less than 20 beds for minor boys, and minor boys 
are trafficked for sex between 9 and 11. The only place that 
they really have to go as they begin to grow up into teens is 
the LGBT community. I thank God that they are there. But these 
children need to be in a place that is not pushing them or 
influencing them in any direction. They are children. They do 
not have to make that decision today. They are carrying shame 
from the rapes and the homosexual rapes and acts that happened 
upon them that they were told that they deserved, that they 
were made for, that they were good at. So, No. 1, even though 
we always talk about girls and women, we need to never forget 
these are boys as well. These are men as well.
    The average lifespan of a child prostitute is 7 years. When 
they make it to 18, it is a miracle.
    The other thing is--one more thing is that what I have 
encountered over and over again working with the adult 
population is that I have had a lot of women in different 
places that I go and do awareness presentations. The main thing 
they say to me is, you know, Cheryl, she is 18 and she is 
standing on the corner. Ain't nobody holding a gun to her head. 
Now, if that was me and I was being trafficked, I would just 
start running and go get some help. I just say, yeah, where 
would you go?
    Well, guess what? There are things called psychological 
guns. If your life is about pain and rape and beatings and 
exploitation, but the only good thing that you can do to 
continue to do that is save your little sister from being 
taken, that is honor. If the only thing that that victim can do 
is keep her family safe, she will endure it. That is honor. 
That is the only honor she has in her life. But she sacrifices. 
In many situations, they sacrifice for somebody else. Now, that 
does not mean they are compliant.
    I remember the moment when I had the realization--and I may 
cry when I say this. When I was 13\1/2\ and I was where I was 
at and I remember thinking nobody is coming for me. Nobody 
knows where to look. Nobody is coming. What I want to say to 
you is when we have worked with rescued victims, the first 
thing I want them to hear is we did not forget about you. We 
are here. We came.
    So it is not stranger danger. It is your children in the 
mall half-dressed, and a guy wants something. He goes, hey, I 
was at that concert. Where were you sitting? Did you not like 
the laser light show? It is all about non-threatening behavior. 
They are trained in how to manipulate our children and they 
exploit them.
    So we have to start this education at K-12, and we have to 
have the parents involved. We got to quit thinking that it is 
the underprivileged minority children that it is happening to. 
It is everybody.
    [Applause.]
    Chairman McCaul. Well, my time has expired. But thank you 
so much for coming forward with that story.
    I just want to end with Dr. Isaac. My time has expired, but 
I would like to follow up with you in terms of--perhaps later. 
You are kind of on the front lines with these kids coming 
through the hospitals, how to properly identify them and help 
them get out of this cycle that Ms. Briggs talks about where 
they can get out of that cycle and go to law enforcement.
    So anyway, with that, the Chairman now recognizes the 
Ranking Member, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, I think this has been one of 
the most powerful hearings that any of us as Members of 
Congress have had the privilege in serving the people of the 
United States of America to be a part of. We do a lot of work 
in Washington, DC, and sometimes the images are not of 
collaboration. I hope this story right here in Houston, Texas 
that travels all the way to the United States Congress 
highlights the Members and the collaborative voice of outrage, 
of tears. Although, Ms. Briggs, you may not hear it in our 
voice, see it, but it is a painful experience, but it is an 
important experience through you and through the other 
witnesses to learn the truth and then be able to act vigorously 
without ceasing to find answers.
    Again, Mr. Chairman, I would like to offer up and mention 
Jacqueline Simosky.
    But I would like to ask unanimous consent to put the 
``Slavery Today Journal'', a multidisciplinary journal of human 
trafficking in the record. I ask unanimous consent to put this 
document.
    Chairman McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * Slavery Today Journal, Vol. 1, Issue 1, February 2014. The 
information has been retained in committee files and is available at 
http://www.slaverytodayjournal.org/downloads/february-full-issue-2014/.
---------------------------------------------------------------------------
    Ms. Jackson Lee. I hold this up because our initial panel 
with excellent law enforcement--I think when we concluded, they 
felt no shame to be able to intermingle, Dr. Sanborn, the idea 
of human trafficking and slavery, modern-day slavery.
    Mr. Chairman, a few years ago, I sat on the ground at the 
border of Bangladesh with girls who had been sold by their 
parents because of their devastating poverty into human 
trafficking and slavery. I sat on the ground. These girls were 
numb. They were young. I thought I am going to work to stop 
this in Bangladesh. Now, this was many years ago.
    Here we have come thousands of miles, and I think what this 
panel is saying is wake up, America. Clarion call. Whether it 
is domestic or international--and I do not think we should 
distinguish except Homeland Security has this rightful position 
in dealing with international border security issues or issues 
of our border. We should not separate it. We have a global but 
we have a domestic--but as someone said in the earlier panel, 
they can be exported out and in, imported in, exported out.
    Dr. Sanborn, a striking statement or report that your 
Children at Risk organization--and thank you for your service, 
and thank you for working with me for a house for the ages of 
18 to 21. In that instance, it was foster care. Now I am going 
to embrace this larger issue because the fact is we do not have 
anything here in Houston to speak of, but I think it is an 
example of the United States.
    You said every three runaways in Texas is lured into sex 
trafficking in 48 hours. Expand on that, and where do they go?
    Mr. Sanborn. Well, across the United States, about a 
million children run away from home, and we know that between 
150,000 and 300,000 of those young girls--probably about the 
fourth time that they run away, they are lured into 
trafficking. When you run away from home the third or fourth 
time, you are going to go somewhere a little bit farther away. 
So maybe you take the bus to the nearest big city, the nearest 
big, warm climate city. That might be Dallas, Atlanta, San 
Diego, and many places in Houston, especially for girls from 
the middle of the country, Louisiana, Mississippi. Houston is a 
big destination. They arrive at the bus station, and the bus 
station is a place where a lot of these traffickers will look 
for these girls. A cute little 12-year-old coming off the bus--
they are very approachable for a free meal at McDonald's and 
expansion beyond that. Sometimes these girls very quickly, as 
Kathy and Cheryl will tell you, within a number of days, they 
are selling themselves because they have fallen in love, quote/
unquote, with this trafficker.
    Ms. Jackson Lee. Would you say that every day a child is 
getting off a bus somewhere or hitchhiking? I do not know how 
popular that is. So as we sit here today, could there be 
someone getting off a bus and being enticed in the wrong 
direction?
    Mr. Sanborn. I would say every day there are many girls 
that get off buses in many places that are lured into 
trafficking. You know, the shame of it is for many domestic 
victims today, Congresswoman, that if we were to go on the 
internet where many of these or most of these young domestic 
victims are sold now, it would be faster to get a young girl 
delivered to us, faster than getting a pizza delivered. It is a 
shame, and this is happening in Houston a lot, and it is a 
shame for us. Shame on us as a city.
    Ms. Jackson Lee. My commitment to you that we may make--
this may be the epicenter of human trafficking, but it is going 
to be the paradise of refuge for children. We are going to find 
a way to break the barriers.
    [Applause.]
    Ms. Jackson Lee. I know my colleagues--some are from 
Houston. The Chairman is not except for the fact that his 
district overlaps.
    We thank you very much. But I think we can be an example in 
this city.
    Dr. Isaac, I went out at night with one of our agencies 
that deals with runaways. So I went out at night to find them. 
This is a warm city, but I went out to find them on streets in 
a cold time.
    You talked about health care, and obviously young women 
need their own gynecological treatment or medical treatment, 
young men. My question is what in Congress on the medical side 
could we do?
    I just noted that HHS, since 2009, has spent all of their 
appropriations that we have given them--obviously, too little--
before the end of the appropriations term. That means that for 
a period of time in the United States, we have no impact on 
certain areas in terms of helping these children. What can we 
do with respect to the medical part of it?
    Dr. Isaac. The medical part of it. As I stated, I believe 
it is the education of some of our health care professionals. A 
lot of them may see these children, and they are very rough-
and-tumbled children. Again, they are children. I have 
certainly seen kids who have come through the emergency room. 
They certainly do not cooperate sometimes with our exams. But I 
usually tell them to have them come within 24 or 48 hours to 
our medical clinic that deals specifically--again, this is at 
the Children's Assessment Center if you are in Harris County--
to come within 24 or 48 hours to come to our clinic. Within 
that time, these are children who are very pliable. This is 
time that they have been away from their traffickers, that they 
have had their change of mind. They are completely pliable and 
cooperative with the exam and giving their historical histories 
of what has happened. It is very intriguing to see that a lot 
of these kids I will see, when I turn my back--they are 
actually reading books to the other little kids. So they are 
essentially children. So, again, it is the education of our 
health care professionals.
    As I said also, we have a system and a project that we are 
working on that is directed to educating these workers to 
identify and interview these children.
    Ms. Jackson Lee. I understand my colleague, Mr. Poe, has to 
leave in just a second. So let me just quickly--these are the 
two witnesses that I wanted to probe. So let me just quickly 
ask Ms. Briggs and Ms. Griffin-Townsend, first of all, if love 
could pour from the table, it would be going to all of you here 
at this table. To those who are courageous enough to be here 
with the reflection of all the other sisters and brothers that 
may not be able to be here, we thank them for their courage and 
all of you.
    Just very, very quickly. I am so glad that the two of you 
have said, ``I am a prostitute, or was. How dare you denigrate 
me? How dare you consider me someone who is a disgrace, who is 
on the street, who loves sex?'' Tell us what you need in order 
to take that to a higher level so that this prostitution issue 
leading into human trafficking can also be stopped immediately.
    I thank the Chairman.
    Ms. Briggs. Thank you so much, Ms. Lee.
    I believe that what we really need at this point is we need 
funding and we need funding for emergency places for our 
children that have nowhere else to go where they can actually 
obtain resources and not be charged as a criminal or be put in 
a foster home that maybe not be the best situation for them.
    I think the second thing that we need is we need to have 
required--we need to develop required minimum standards of 
care. In every other industry, they have them. Every other 
industry has a watchdog organization like JCAHO for the 
hospital systems and whatever it is for the forensic crime 
labs. In order to get funding from the State or Federal 
Government, they should have to pass an audit that says, hey, 
we have adequate services, because guess what? A warm bed and a 
meal ain't enough. They got to have trauma therapy. They have 
to have trauma-informed care. They have to have drug 
counseling. They got to have rehabilitation in that area. They 
have got to learn about--they are never going to play with 
Barbies again. Okay, we can forget that. But what we cannot 
take away from them is the adult responsibilities to figure out 
how they are going to care and pay for themselves. But we have 
to empower them.
    Ms. Jackson Lee. Thank you.
    Ms. Griffin-Townsend. Also, Congresswoman Lee, each one of 
these individuals--I mean, I want to stress this. It is 
devastating for a child to be caught up. But the children, let 
me say, that are here in Houston, Texas--a lot of them do not 
feel that they are a victim and do not want to be rescued. I 
know me, you, and all of these young survivors over here--you 
could not tell us anything. We thought we were grown. I mean, 
really, we had been brainwashed or whatever. Then after you get 
19 years old now, you have aged out. You are no good anymore. 
At 19 you are a has-been. So now the only thing you know--you 
are psychologically damaged. You do not know anything else but 
to jump in and out of cars or sell yourself on Craigslist. You 
know, you run into Walgreen's and steal some makeup. Then you 
get beat up. If you are in the strip club, if you do not give 
the pimp or the DJ or the manager the money, fake ID's--it is 
horrible. For too long people have overlooked us.
    I am not proud to say that I was a drug addict and a 
prostitute, but I am grateful that I was able to make the 
decision to survive and turn that mess into this message.
    Grants and all of that--you know, they have these strict 
qualifications. You have got to have this degree and that 
degree. Peer to peer. When I say you got to gain the trust at 
the beginning when you first get somebody--the reason why I 
have been able to break through the barriers is because I can 
show them mug shots. I can show them this broke arm and where 
this ear has been cut off and my face has been rebuilt. I have 
been dragged and I am fixing to get me a hip replacement when I 
get time after trying to help all these folks. I need it. I am 
just saying they know I have been there and I have done that. 
Some of these people that were in the life with me I have been 
able to go back and pull out. It is a domino effect. They are 
going to be able to go back and pull out because people need to 
know you know what you are talking about. I can identify with 
you.
    So that is why I say we are basically on the front end as 
the colonics. We have to get them, get their trust, clean them 
up, and then, yes, the professionals have to be there, but do 
not discredit us because we are going to get their trust and 
get you ready to go on to those professionals and get you some 
real help and rehabilitation.
    [Applause.]
    Ms. Jackson Lee. Thank you for letting me know all of them.
    Chairman McCaul. The Chairman now recognizes Mr. Poe.
    Mr. Poe. I thank the Chairman.
    There are three statements that I want to go over that you 
all made.
    Dr. Sanborn, you said there were 20 beds in all of the 
United States of America for boys that are trafficked at 9 to 
11. Is that what you said?
    Mr. Sanborn. I think it was one of the----
    Mr. Poe. One of you all said that. That is a true 
statement. You just did not say it.
    Mr. Sanborn. Yes.
    Mr. Poe. Who said that? Ms. Briggs? There are 20 beds.
    Ms. Griffin-Townsend. Less than 20.
    Mr. Poe. Twenty beds for boys that are 9 to 11 that are 
trafficked in the United States.
    Ms. Briggs. There are less than 20 beds for boys 9 to 17.
    Mr. Poe. Nine to 17.
    Ms. Briggs. Yes. Out in LA, there is Children of the Night. 
I do believe they have 15 boys and girls spots. Then you have 
Isaiah's House in Montana which has 8 boys and 8 girls spots. 
That is all that is designated for male children victims.
    Mr. Poe. Do you think that is a tragedy?
    Ms. Briggs. I absolutely do.
    Mr. Poe. In a country like this, we can only provide 30 
beds for trafficked boys that are domestic trafficked boys?
    Ms. Briggs. I really do believe that boys may carry a 
greater depth of shame because of the type of rape that is 
forced upon them. I do believe that.
    It is kind of like having a guy who is a domestic violence 
victim. I worked at the shelter for 5 years, and very few 
times--I had a guy tell me when we put him and his kids up in a 
hotel that the police officer laughed at him and said, what do 
you mean your wife is beating you up? You know, you are twice 
as big as she is. He just did not believe in violence.
    So I think it is the same thing. Boys have a hard problem 
self-identifying even more than any other population, and I 
think we need to work closely with like the Polaris Project and 
local hotlines and local organizations so that we can then 
begin to identify these boys because I promise you they are 
there in pretty much the same numbers as girls.
    Mr. Poe. Let me ask the question, Ms. Griffin-Townsend. 
Then you can give the answers.
    You said that people should not be for sale. Do you not 
think that is exactly what--we need to solve that problem, that 
overall problem. I mean, that is the big picture. That is the 
humanity and what we are trying to do is making sure that 
people are not for sale. Those days should have ended a long 
time ago.
    Ms. Griffin-Townsend. Absolutely.
    Mr. Poe. I know you want to say something, but I am talking 
right now. You are dying to say something.
    I want to thank you and Ms. Briggs especially for your 
courage. You got a lot of wisdom that you are sharing with us. 
Ms. Griffin-Townsend, I want to thank you for bringing your 
amen corner out here today as well.
    [Laughter.]
    Mr. Poe. The only other thing--Ms. Briggs, you do not need 
to comment unless you want to. You said it felt like, as a 
victim, nobody is coming for me. We want to change that dynamic 
as well. All of us working together. Children should never be 
in a position in life where they feel like nobody is going to 
look for them. Nobody is coming for them.
    So I want to thank all of you for your wisdom and our 
experts on this end of the table. We got experts everywhere. 
Dr. Sanborn and Dr. Isaac, especially with Children's 
Assessment Center, thank you.
    I yield back, Mr. Chairman.
    Chairman McCaul. The Chair now recognizes Mr. Al Green.
    Mr. Al Green of Texas. Thank you, Mr. Chairman.
    I would like to extend my thanks to the people who 
testified and the people who stood by them, stood with them, 
helped them to get to this point. Kathy--and that is how I know 
you affectionately--you just celebrated a birthday.
    Ms. Briggs. Yes, I did.
    Mr. Al Green of Texas. You just celebrated a birthday.
    Ms. Briggs. Thank you.
    Mr. Al Green of Texas. But for intervention and somebody 
understanding that you were somebody, that you were a child of 
the same God that created the rich man, the same God that 
created the Wall Street millionaire, you are a child of that 
same God. But for that, you may not have celebrated that last 
birthday. So I am grateful that you have given your testimony, 
all of you.
    Someone testified earlier that--they did not use this term, 
but I am going to use it--``the master'' because there is a 
master-servant relationship here, master-slave relationship. 
Someone testified that the master makes $31,000 a week. That is 
what I heard. I wrote it down. Thirty-one thousand dollars a 
week in a small market--in a small market. Houston is not a 
small market. What are some of these masters making in Houston, 
Texas? Kathy, can you give us some insight please?
    Ms. Griffin-Townsend. Yes, sir. By Houston being so spread 
out, we do not have zoning. Let me tell you. An abandoned house 
with no windows, weeds growing up, milk crates on the inside of 
the house, an old, dirty mattress on the floor can bring in as 
much as $35,000 to $50,000 a week.
    Mr. Al Green of Texas. My God.
    Ms. Griffin-Townsend. We just pass by and think them just 
homeless people.
    You see, the corner drug dealer, the little small-time dope 
dealer, is just a pawn. They use him because he knows now 
especially all of our adult children who were just prostitutes 
that have aged out of all of that juvenile human trafficking 
and domestic and incest and molestation. They are looking at 
them as damaged goods. Those are the ones now that are so 
addicted and will do anything and anybody that will bring me a 
hit of any kind of dope is my savior now. So I am going to do 
whatever you ask me to do. Just give me some dope.
    Mr. Al Green of Texas. That is a good segue into the second 
part of my question. If the master makes $30,000 to $50,000 a 
week, what does a servant make? What does a servant get?
    Ms. Griffin-Townsend. Most of the little nickel-and-dime 
drug dealers--they are addicted to another drug. So they end up 
not making anything. They are doing that to get their dope. The 
only somebody that is winning is the master, and then the 
middleman gets maybe 2 grand. They are getting all of that. Or 
they give them a car, you know, what I am talking about, them 
bouncing or something like that.
    Voices. Swingers.
    Ms. Griffin-Townsend. What did you call them?
    Voices. Swingers.
    Ms. Griffin-Townsend. Swingers. You got a whole choir over 
there that can tell you exactly how it is done.
    They do not even know that they are being used as slaves 
themselves. They do not even know it. They think that if they 
got $200 in their pocket, they are balling. It is so sad.
    Congressman, like I say, I got to take you to the streets 
for real.
    Mr. Al Green of Texas. Well, you and I have agreed that we 
will go to the facility that made the news yesterday and we 
will go to other places after that.
    But I want to thank you again, Mr. Chairman. I thank all of 
the witnesses for appearing and just simply let you know that 
there are no throwaways in the America that I love.
    [Applause.]
    Mr. Al Green of Texas. Thank you and God bless you.
    Chairman McCaul. Thank you, Al.
    The Chairman now recognizes Mr. Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Dr. Sanborn, I will start with you since we talked a little 
bit about the internet in the last round of questionings, and 
you brought up a website that advertises some of these 
services. Would shutting down those sites make a difference, or 
would they just pop back up internationally where we could not 
get to them? How do we do it without casting an over-broad net 
that would violate the First Amendment?
    Mr. Sanborn. I think that is a great question.
    Please do not ever put me on a panel with Cheryl and Kathy 
again.
    [Laughter.]
    Mr. Sanborn. I am not used to being a sidekick.
    You know, it is a very tricky question, is it not, because 
most of the business has moved to the internet, but there are a 
lot of people that are hiding behind the First Amendment. I am 
a big believer in the First Amendment and we have lots of 
lawyers on our staff that would say we are all behind the First 
Amendment. You are right. If we decided today to shut down 
backpage.com, there would be others that people would move to. 
But the fact of the matter is we need to just keep shutting 
them down.
    When Craigslist was pressured into being shut down, what we 
found is that some of these purchasers were lost for a little 
while until they found backpage.com. There is no way that 
backpage.com is going to do the same thing that Craigslist did, 
which is to shut down on its own, because it is making way too 
much money. It is owned by the Village Voice and it is making a 
lot of money. They recently separated from the Village Voice, 
but they were making a lot of money.
    Mr. Al Green of Texas. So let me go on and talk a little 
bit. You know, I asked our law enforcement folks on the last 
panel, why do you not just go on this website and go into each 
and every one of those organizations and rescue the victims? He 
said, well, it was a matter of setting priorities. I fell into 
that trap with him. I said, yes, well, I guess, you know going 
after murderers is a priority. Then I got to think beyond 
murder or plotting terrorism, holding young children in basic 
slavery--I cannot think of a higher priority.
    [Applause.]
    Mr. Farenthold. But I fell into that trap.
    I heard for years from folks, you know, prostitution is a 
victimless crime. Ms. Briggs, how many are there because they 
want to be there? Are there any?
    Ms. Briggs. I have never in my life met one woman who, if 
you offered her--or child, if you offered them a viable second 
option, who would continue to do what they are having to do for 
survival.
    Mr. Farenthold. We talked a little bit about the customers 
here and what we could do about the customers. Let me ask you: 
Do the customers even know that the person that they are hiring 
may be--I am using air quotes for ``hiring''--is there 
involuntarily? Do they know whether or not they are a 14-year-
old?
    Ms. Griffin-Townsend. Yes and they do not care.
    Mr. Farenthold. So you think going after the demand, as 
Judge Poe said, would make a huge, huge difference.
    Ms. Briggs. Right, because if you cut down the amount of 
people out there buying sex, then a pimp that has seven girls--
if he can only sell five of those on a daily basis, he is going 
to let two go. So that is the deal: Supply and demand, supply 
and demand. It is international.
    Mr. Farenthold. So how do we convince the law enforcement 
community that this needs to be a higher priority? I mean, 
there are things we can do in Congress. We can rewrite the laws 
to broaden some of the definitions that we have talked about. 
We can change some of the language with visas that we have 
talked about. But when it comes down to it, it is up to the law 
enforcement folks on the street to make that a priority.
    What do we do besides have hearings like this, talk to the 
television cameras? Are we doing everything we can do? I am 
going to let Ms. Griffin-Townsend answer that.
    Ms. Griffin-Townsend. The first piece is to get a room full 
of survivors--there are many--and put us all in front of law 
enforcement and look at what the real faces of this travesty 
actually look like.
    [Applause.]
    Ms. Griffin-Townsend. Stop being ashamed. Stop being 
embarrassed because, you know, how many get to live two 
lifetimes in one lifetime? All of us have and we can pass that 
on and let them know that. Then everybody has got something 
that they want to keep secret that they do not want God to 
know, but he already knows. You can keep yours held, but we 
need to bring it out and show them the different real basis of 
it so they will know what to go after because everybody is 
keeping it in a little box. This thing is bigger than a box. 
There is no such thing as a box when it comes to this sexual 
slavery.
    Mr. Farenthold. Well, hopefully, this hearing will take a 
step towards that. There were a lot of cameras here earlier. 
Hopefully, the coverage that we get tonight from this will be 
one step in making a difference in people's lives.
    I applaud what you are doing, helping folks one person at a 
time. Again, I applaud you, and God bless you.
    [Applause.]
    Chairman McCaul. Thanks.
    Let me just close by saying I have chaired a lot of 
hearings. This has been the most powerful. We deal with a lot 
of threats. We deal with al-Qaeda, terrorist threats, but this 
is the biggest threat to our children right here in the United 
States. We have an obligation to do something about that.
    As Sheila talked about earlier, we do a lot of stuff up 
there that does not amount to anything, but this is an area 
where we can really, truly make a difference in the lives of 
others and our most vulnerable in our society. We want to 
change lives from this to this side and that is our goal.
    [Applause.]
    Chairman McCaul. As you said--and I will not filibuster 
here, but you said we want to turn that mess into a message. 
Wow. That is a powerful message and it is a powerful message 
that we need to send back to Washington and work this thing out 
on both sides of the aisle, which is not happening enough today 
in Washington, make this thing work not for us but for these 
children that are being exploited and for you, the victims. We 
owe this to you.
    I just want to really thank all the panelists but 
particularly the victims for the courage to come out in the 
open, come out of the shadows and say, you know what? I am 
somebody and I deserve to be heard. We want you all to do 
something to stop this from happening again. So all I can say 
is thank you.
    I want to give you credit also for working with me to do 
this field hearing right here in your district and want to give 
you the opportunity to give the final word.
    Ms. Jackson Lee. Mr. Chairman, the hearts of Members were 
exposed today, and what you heard was not a Chairman of a 
distinguished background, a law enforcement background, but you 
heard a father. You heard a man with a heart. You saw the best 
of what Congress is and can be. We are all on one page. We all 
have cracking voices, watery eyes. I think that we have now 
opened with a flashlight and we are looking for sunlight to be 
able to shine on victims that are human beings to be loved.
    I love what all my Members have said and your testimony. 
Can you believe this has been happening to children? It is not 
because of our benign neglect. It is because of what is your 
priority, what are you thinking of. So today, in an official 
Congressional hearing, the first hearing in Houston on human 
trafficking brought people together that I think will be the 
light of America and the light of the world. Let us touch 
somebody and say that you are valuable and I will not view you 
in any other way than the valuable person that you are. This 
human trafficking hearing has exposed slavery and human 
trafficking and smuggling, and we have said one thing. You are 
all the same and we are going to get you. I am grateful that we 
are going to do it in a bipartisan manner based on heart and 
love and the values of this great Nation.
    Mr. Chairman, thank you so much for your courtesy.
    Chairman McCaul. We thank you.
    [Applause.]
    Chairman McCaul. Let me just say this hearing is adjourned, 
but our mission has just begun.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]

                                 [all]

</pre></body></html>
